<html>
<title> - NASA'S FISCAL YEAR 2009 BUDGET REQUEST</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        NASA'S FISCAL YEAR 2009
                             BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 13, 2008

                               __________

                           Serial No. 110-75

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______



                     U.S. GOVERNMENT PRINTING OFFICE
40-598 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio


                            C O N T E N T S

                           February 13, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........    14
    Written Statement............................................    16

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

Statement by Representative Mark Udall, Chairman, Subcommittee on 
  Space and Aeronautics, Committee on Science and Technology, 
  U.S. House of Representatives..................................    20
    Written Statement............................................    22

Statement by Representative Tom Feeney, Minority Ranking Member, 
  Subcommittee on Space and Aeronautics, Committee on Science and 
  Technology, U.S. House of Representatives......................    23
    Written Statement............................................    24

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    25

Prepared Statement by Representative Nick Lampson, Chairman, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    25

Prepared Statement by Representative Laura Richardson, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    26

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    26

                                Witness:

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)
    Oral Statement...............................................    27
    Written Statement............................................    31

Discussion
  Aeronautics Funding............................................    44
  Climate Research...............................................    45
  The Future of Human Space Flight...............................    46
  Russian Transportation.........................................    47
  Impact of Funding Shortfalls on ISS Program....................    48
  Chinese Lunar Plans............................................    49
  The Alpha Magnetics Spectrometer...............................    50
  Contingency Flights and the ISS................................    52
  The FY 2009 NASA Budget and Ares and Orion Test Flights........    53
  Spending, Mars and Near-Earth Objects..........................    54
  Shuttle Replacement Funding and Schedule.......................    57
  Russia and the Gap.............................................    58
  Water Issues...................................................    59
  The NAOMS Project..............................................    60
  Mars Science Laboratory........................................    61
  Potential Use of Chinese Launch Capabilities...................    62

             Appendix 1: Answers to Post-Hearing Questions

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration (NASA)....................................    66

             Appendix 2: Additional Material for the Record

NASA Report to Committees on Appropriations regarding Alpha 
  Magnetic Spectrometer (AMS), February 2008.....................    90

NASA Material for the Record: Assessment of Chinese Capabilities 
  to Mount a Human Lunar Mission.................................   107


                 NASA'S FISCAL YEAR 2009 BUDGET REQUEST

                              ----------                              


                      WEDNESDAY, FEBRUARY 13, 2008

                  House of Representatives,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:07 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Bart Gordon 
[Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                        NASA's Fiscal Year 2009

                             Budget Request

                      wednesday, february 13, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, February 13, 2008 at 10:00am, the Committee on 
Science and Technology will hold a hearing on the National Aeronautics 
and Space Administration's (NASA) Fiscal Year 2009 Budget Request and 
NASA's proposed Fiscal Year 2008 Operating Plan.

Witness:

Dr. Michael D. Griffin, Administrator, National Aeronautics and Space 
Administration

BACKGROUND INFORMATION

Overview
    The National Aeronautics and Space Administration (NASA), which was 
established in 1958, is the Nation's primary civil space and 
aeronautics R&D agency. The current civil service workforce consists of 
approximately 18,400 employees, of which approximately 16,310 are full-
time, permanent civil servants. NASA has ten field Centers, including 
the Jet Propulsion Laboratory (JPL) FFRDC. Although there have been 
discussions in the past regarding the future disposition of NASA's 
Centers (e.g., potential closure or privatization of one or more 
Centers), NASA Administrator Griffin has stated his intention to 
maintain ``ten healthy Centers.'' In October 2007, NASA assigned work 
for the Exploration initiative's Constellation Program to each of the 
ten NASA Centers.
    NASA conducts research and development activities in a wide range 
of disciplines including aeronautics, astrophysics, heliophysics, 
planetary science, Earth science and applications, microgravity 
research, and long-term technology development. NASA also operates a 
fleet of three Space Shuttles and is assembling and operating the 
International Space Station (ISS). NASA also maintains a space 
communications network that supports both NASA missions and other 
federal agency requirements. Almost 90 percent of NASA's budget is for 
contracted work. In addition, a number of NASA's scientific and human 
space flight activities involve collaboration with international 
participants.
    In January 2004, President Bush announced his ``Vision for U.S. 
Space Exploration'' (VSE). According to the President, the United 
States is to do the following:

        <bullet>  ``Implement a sustained and affordable human and 
        robotic program to explore the solar system and beyond;

        <bullet>  Extend human presence across the solar system, 
        starting with a human return to the Moon by the year 2020, in 
        preparation for human exploration of Mars and other 
        destinations;

        <bullet>  Develop the innovative technologies, knowledge, and 
        infrastructures both to explore and support decisions about the 
        destinations for human exploration; and

        <bullet>  Promote international and commercial participation in 
        exploration to further U.S. scientific, security, and economic 
        interests.''

    With respect to the Space Shuttle, the President's policy stated 
that NASA should:

        <bullet>  ``Focus use of the Space Shuttle to complete assembly 
        of the International Space Station; and

        <bullet>  Retire the Space Shuttle as soon as assembly of the 
        International Space Station is completed, planned for the end 
        of this decade.''

    With respect to development of a new human transportation system, 
the President's policy states that the U.S. shall:

        <bullet>  ``Develop a new crew exploration vehicle to provide 
        crew transportation for missions beyond low Earth orbit;

        <bullet>  Conduct the initial test flight before the end of 
        this decade [i.e., before end of 2010] in order to provide an 
        operational capability to support human exploration missions no 
        later than 2014.''

Budgetary Information
    NASA's proposed budget for FY 2009 is $17.6 billion, an increase of 
1.8 percent over the FY 2008 President's request for NASA and an 
increase of 2.9 percent over the FY08 appropriation for NASA, when the 
recession of $192.5 million contained in the Consolidated 
Appropriations Act for 2008 [P.L. 110-161] is added. Attachment 1 
summarizes the FY09 budget request and its five-year funding plan. It 
should be noted that NASA's budget has been restructured from three 
main appropriations accounts--Science, Aeronautics, and Exploration; 
Exploration Capabilities; and Inspector General--to seven accounts--
Science; Aeronautics; Exploration; Space Operations; Education; Cross 
Agency Support; and Inspector General--as directed in the Consolidated 
Appropriations Act for FY08. As part of the budget restructuring, NASA 
shifted from a full-cost budget, in which each project budget included 
overhead costs, to a direct cost budget. All overhead budget estimates 
are now consolidated into the Cross Agency Support budget line. NASA 
has stated that maintaining a full cost budget with seven 
appropriations accounts would be overly complex and inefficient. The 
direct cost budget shows program budget estimates that are based 
entirely on program content. Individual project managers continue to 
operate in a full-cost environment, including management of overhead 
costs.
    Attachment 2 compares the NASA budget plan that accompanied the 
President's Vision initiative with the actual funds requested (or 
planned to be requested per the FY09 budget request's five-year plan) 
by the President for the years FY06-FY13. As can be seen, the 
President's requests have been significantly less (i.e., typically on 
the order of a half-billion dollars or more in the early years) than 
what was projected by the Administration as being needed to carry out 
the Exploration initiative and NASA's other core missions. The 
cumulative shortfall over that period is in excess of $4 billion.
    The FY08 appropriation for NASA contained in the Consolidated 
Appropriation Act of 2008 maintains the President's FY08 request of 
$17.3 billion for NASA. Under the terms of the Consolidated 
Appropriation, NASA is to submit to Congress by March 15, 2008 an 
Operating Plan that reflects how the agency will allocate its FY08 
appropriation within the constraints of the Consolidated Appropriation. 
Administrator Griffin has been asked to discuss the FY08 Operating Plan 
at the hearing.
    To put the FY09 budget request into context, NASA has been tasked 
with flying the Shuttle safely until the end of the decade and then 
retiring the Shuttle fleet; assembling, operating, and utilizing the 
International Space Station; completing the development of a new Crew 
Exploration Vehicle/Crew Launch Vehicle by 2014; pursuing human 
exploration of the Moon no later than 2020; and conducting science and 
aeronautics programs. The NASA Authorization Act of 2005, which was 
signed into law in December 2005, authorized an FY08 funding level for 
NASA of $18.69 billion; the FY08 NASA budget request and appropriation 
was $17.3 billion, not including $192.5 million in rescissions as 
directed. The Committee intends to reauthorize NASA this year.
    With respect to NASA's contract management practices, NASA remains 
on GAO's ``high risk'' list for its contract management practices. With 
respect to its financial management, an independent audit for FY07 was 
unable to provide ``an opinion on the consolidated balance sheet as of 
September 30, 2007.'' Although NASA took several actions to comply with 
the Federal Financial Improvement Act of 1996, the audit found that the 
agency's financial management systems ``are not substantially 
compliant'' with the Act. NASA will need to address other ``material 
weaknesses'' identified in the audit.

Program Areas
            Space Science
    The President's FY09 budget requests $3.1 billion in direct program 
dollars (previous budget requests were prepared in full cost accounting 
and included overhead costs) to fund NASA's space science programs, 
including Heliophysics, which seeks to understand the Sun and how it 
affects the Earth and the solar system; Planetary Science, which seeks 
to answer questions about the origin and evolution of the solar system 
and the prospects for life beyond Earth; and Astrophysics, which seeks 
answers to questions about the origin, structure, evolution and future 
of the universe and to search for Earth-like planets. The proposed 
budget represents an effective decrease of $264.7 million in direct 
program dollars from the FY08 appropriation. Most of that decrease is 
attributed to a transfer of the management and budget for ground based 
communications systems--Deep Space Mission Systems and Near Earth 
Networks programs--from the Heliophysics Division to the Space 
Operations Mission Directorate, which is implementing a plan to 
consolidate all of NASA's communications activities into its Space and 
Flight Support Program.
    Space Science topics and issues related to the FY09 budget request 
include the following:

Programmatic Balance and New Initiatives--The FY09 budget request 
provides increases (as compared to the FY08 budget appropriation) for 
research and analysis (R&A) programs, which fund grants to analyze 
science mission data and are an important means of training future 
space scientists and engineers. R&A accounts had been cut in the recent 
years, a trend that threatened the health of space science disciplines. 
The FY09 request increases funding for small mission projects 
(balloons, airborne platforms, and small space missions) that help 
train young scientists and engineers and provide frequent opportunities 
for science return. The President's FY09 budget initiates work on a 
flagship planetary science mission to the Outer Planets (Jupiter's moon 
Europa, and Saturn's moon Titan are two possible destinations) and a 
joint mission with DOE, Joint Dark Energy Mission (JDEM), to 
investigate dark energy in the universe. The FY09 budget includes plans 
to begin studies on a ``cost constrained Solar Probe mission'' that 
would improve our understanding of the solar wind. It also includes 
funding to explore technical approaches for a medium-class mission to 
detect and characterize exoplanets that would be initiated in FY10. 
This effort is intended to replace the Space Interferometry Mission 
(SIM) that was previously reduced to a technology development activity 
by NASA, a decision reversed by the Omnibus appropriations act, which 
included an explanatory statement that said ``With the funds proposed, 
NASA is to begin the development phase of the [SIM] program. . .'' NASA 
also includes $67.3 million in support of a Mars Sample Return mission 
to take place in 2018 and 2020. Most of the proposed new missions have 
been identified as priorities in National Research Council reports. 
NASA has indicated that it will phase these initiatives to fit within 
the budget, however the bulk of development costs will occur toward the 
middle of the next decade, which is beyond the horizon of the FY09 
budget and its five-year run-out. In addition, the new initiatives are 
not supported by a new infusion of funding into the overall science 
account; new initiatives in Earth and space science are paid for by 
cutting back funding in other science areas.

Mars Exploration--The FY09 budget request reduces the programmatic 
content in the Mars Exploration budget by $156.5 million from the FY08 
appropriation. The FY09 decrease results from moving funds that were 
allocated to a 2011 Mars Scout mission [now scheduled for 2013] to help 
fund new initiatives in the Earth sciences program. The President's 
FY09 request decreases the Mars Exploration budget by $918 million, in 
direct dollars, for FY09 through FY12. NASA's plans for Mars 
Exploration include the launch of a Mars Science Laboratory in 2009, a 
Mars Scout mission in 2013 and a 2016 mission that has yet to be 
defined.
    After 2013, NASA plans to focus the program on developing a Mars 
Sample Return mission, which has been a high priority in National 
Research Council (NRC) reports. The President's FY09 budget request 
does not include funds to initiate a Mars Sample Return. According to 
NASA officials, a Mars Sample Return mission would be launched in two 
parts, in 2018 and 2020, and would cost in the range of $4 billion 
dollars, some fraction of which NASA anticipates to be funded by 
international partner(s). NASA plans to conduct architecture studies 
over the next year and is discussing potential international 
collaboration on a sample return mission. A National Research Council 
report released in late 2007, Grading NASA's Solar System Exploration 
Program: A Midtern Review, raised several concerns regarding a future 
Mars Sample Return mission including the need for investment in a 
technology development program to reduce the major engineering risks 
associated with a Mars Sample Return mission. These engineering 
challenges are likely to require long lead times to ensure the 
technology is mature in preparation for a mission's development phase. 
A topic that may be raised at the hearing is what the potential shift 
in NASA's Mars Exploration program is and how the science and 
engineering community is involved in this change in focus.

Ambitious Program Containing Several Major New Initiatives--The 
President's FY09 budget requests funds for several new space science 
initiatives, many of which have estimated budgets over $500 million and 
are anticipated to launch with international or interagency 
collaboration:

Outer planets mission--NASA estimated level of $2 billion for U.S. 
portion

New Frontiers mission--NASA estimated level of $840 million

Joint Dark Energy mission--NASA estimated level of $600 million for 
NASA

Exoplanet mission--NASA estimated level of $600 million for NASA

Solar Probe mission--NASA estimated level of $750 million

    Large, complex missions have the potential to encounter technical 
challenges, and there are a number of past examples of such missions 
that have encountered similar instances of cost growth and schedule 
delays. Members may wish to ask NASA for specific details on its 
approach to successfully completing these initiatives within a budget 
limited to inflationary growth.

Technology Development--Recent NRC reports recommend that NASA invest 
in technology development outside of the mission project lines. One NRC 
report states, ``The committee is concerned because NASA has not 
invested in required technology and shows little indication of 
reversing this trend. If this trend is not reversed immediately, the 
number and types of missions that the agency will be able to undertake 
in the future will be severely reduced.'' Inadequate technology 
development has been identified as a major factor in mission cost 
growth. The President's FY09 budget request cuts technology development 
program lines and continues the trend noted by the NRC. For example, 
the FY09 budget virtually cancels a flight technology validation 
program and cuts programmatic content for technology development in the 
planetary sciences by $65.7 million over the FY09-FY12 period. NASA 
officials told Committee staff that technology development will occur 
within the mission budget lines as needed. Members may wish to probe 
the implications of the proposed cuts to NASA's technology development 
programs on NASA's ability to pursue several new missions and to 
maintain schedule and cost discipline in executing them.

Congressional Direction--The President's FY09 budget request supports 
Congressional direction for NASA to initiate an outer planets mission 
and a Joint Dark Energy Mission, but departs from Congressional 
direction for NASA to begin development of the Space Interferometry 
Mission. NASA's plan for SIM is to consider its technical approach as 
one of several candidates that will compete for an exoplanet mission. 
The FY08 consolidated appropriation provides full funding and support 
for the Mars Exploration Program, while the FY09 budget request cuts 
the program over the FY09-FY12 period. The FY08 appropriation directs 
NASA to request a new start for a Solar Probe mission in FY09, however 
the FY09 budget requests no funds in FY09 and only $3.4 million in FY10 
for initial concept work on a Solar Probe mission that it plans to 
launch by 2015. The explanatory text accompanying the FY08 
appropriation supports the Arecibo Observatory and directs NASA to 
provide additional funding for Arecibo. NASA officials told Committee 
staff that the FY09 budget does not include any NASA funds or plans for 
Arecibo and that NASA did not need Arecibo. The explanatory text 
accompanying the FY08 appropriation for NASA notes Congressional 
support for the Alpha Magnetic Spectrometer (AMS) experiment, which was 
intended to fly on the Shuttle for attachment to the ISS, and directed 
NASA to prepare a report, within 30 days, on options for flying AMS. 
NASA, to date, has not provided Congress with the report.

            Earth Science
    The President's budget for FY09 requests $1.4 billion in direct 
dollars for Earth science research, applications, Earth observing 
missions, education and outreach, and technology development. The 
proposed FY09 Earth science budget represents an increase of 
approximately $87.2 million over the FY08 budget appropriation, as 
compared in direct dollars. The FY09 budget requests $910 million over 
the FY09-FY13 period to execute five new missions based on 
recommendations in the National Research Council's Earth sciences 
decadal survey. $570 million is made available from cuts to the science 
programs and the rest is obtained restructuring other Earth Science 
activities. The first two missions are identified as the Soil Moisture 
Active-Passive (SMAP) and ICESat-II; the additional three will be 
identified by the end of 2008, one of which will be a technology 
demonstration mission in the $100-$200 million range. NASA's Earth 
science budget also requests funds to continue several missions 
currently under development, including the Landsat Data Continuity 
Mission, the Glory mission, the NPOESS Preparatory Project (NPP), the 
Global Precipitation Measurement mission (GPM), Aquarius, and the 
Orbiting Carbon Observatory.
    The proposed FY09 budget requests increases to the Earth science 
research and analysis (R&A) accounts reversing a trend of cuts and flat 
funding in previous budget requests. The R&A accounts fund grants for 
fundamental research, technology development, training of graduate 
students, theory research, and data analysis, in essence the 
intellectual underpinning for the program.
    Earth Science topics and issues related to the FY09 budget request 
include the following:

Research to Operations--The 2005 NASA Authorization Act directs NASA to 
prepare a report with the National Oceanic and Atmospheric 
Administration (NOAA) each year, on how Earth science programs will be 
coordinated in the following year. The Act also directs NASA to provide 
transition plans for ``existing and future Earth observing systems 
found to have potential operational capabilities.'' The first plan, 
which was delivered to Congress in June 2007, identified forums that 
have been established to coordinate NASA and NOAA Earth science 
programs. Over the last year, NASA and NOAA have coordinated plans to 
address climate measurements that were eliminated in the restructuring 
of the NPOESS program and in planning for the GOES-R system, among 
other activities. The decisions have not come easily and have involved 
consultation with OSTP and OMB and input from the National Research 
Council. Even with this process, decisions have only recently been made 
to restore climate instruments to the NPOESS Preparatory Project (NPP). 
NASA has not yet manifested the Total Solar Irradiance Sensor (TSIS) to 
a satellite platform, however an announcement is expected in March 
2008. Within the next few years, several Earth science missions will be 
launched and NASA will begin to formulate new missions in response to 
the Earth science decadal survey; planning for research to operations 
will be an important consideration. It is not clear whether or not the 
FY09 request incorporates a budget for planning and transitioning 
research to operations.

Earth Science Applications--The National Research Council's Earth 
sciences decadal survey recommended that ``Socioeconomic factors should 
be considered in the planning and implementation of Earth observation 
missions and in developing an Earth knowledge and information system.'' 
The FY08 Consolidated Appropriation provided $15 million in additional 
funds for NASA's Applied Sciences program, which applies the research 
results of NASA's Earth science missions to decision-making tools in 
the areas of climate, ecosystems, agriculture, water, disaster 
management and other areas that benefit society. Members may wish to 
ask whether NASA plans any changes to the Applied Sciences program in 
keeping with the emphasis on the societal benefits of Earth science 
research that was discussed in the decadal survey. Members may wish to 
ask more specifically whether NASA's Applied Sciences programs include, 
or plan to include, activities that would help State, local, private, 
and federal bodies adapt to and mitigate the impacts of climate change 
discussed in the Intergovernmental Panel on Climate Change (IPCC) 
assessments.

            Aeronautics Research
    The President's FY09 budget requests $446.5 million for Aeronautics 
Research, which includes aviation safety, airspace systems, fundamental 
aeronautics, and aeronautics test program. NASA states that its 
Aeronautics Research is now aligned with the National Aeronautics R&D 
Policy and the National Plan for Aeronautics R&D and Related 
Infrastructure, which were developed by the Administration over the 
past two years. From a direct cost perspective, the FY09 budget for 
Aeronautics represents an effective $65.2 million decrease from the 
FY08 appropriation. After FY09, the NASA Aeronautics funding would 
essentially stay level through FY13, thus continuing to decline in 
purchasing power. As a point of comparison, NASA Aeronautics funding 
was about $1.85 billion (2006 dollars) in 1994--the current budget 
request is thus only about 24 percent of that level.
    The aeronautics community relies upon NASA for aeronautical 
research and development. Beginning in late 2005, NASA began 
restructuring its aeronautics program to move away from a program that 
included technology demonstration projects and R&D that led to greater 
technology maturity towards a program focused on more fundamental 
research. These changes in NASA's Aeronautics program occur at a time 
when the Next Generation Air Transportation System R&D initiative known 
as NextGen is ramping up. NextGen is intended to transform the existing 
air traffic control system to accommodate projected growth in air 
passenger and cargo rates over the next decade. As part of this 
modernization, NextGen aims to develop a more efficient; and more 
environmentally friendly national air transportation system, while 
maintaining safety. The development of NextGen is being overseen by the 
Joint Planning and Development Office (JDPO), a joint initiative of the 
Department of Transportation, NASA, Commerce, Defense Homeland 
Security, and the White House OSTP. FAA has traditionally relied on 
NASA for a significant portion of the R&D related to air traffic 
management as well as research to help address substantial noise, 
emissions, efficiency, performance, and safety challenges that are 
required to ensure vehicles can support the NextGen vision.
    Aeronautics topics and issues related to the FY09 budget request 
include the following:

Potential ``Technology Gap'' for NextGen--NASA's redirection of its 
aeronautics research priorities raised Congressional concern last year 
regarding the possibility of a significant ``technology gap'' in a 
number of key NextGen technology areas. While some progress has been 
made in the past year as a result of JDPO's completion of concept of 
operations, planning and architecture documents (and the first ever 
plan for research and development, including agency roles and 
responsibilities), much work remains to be done in adequately planning, 
resourcing, and scheduling research activities. The $25 million 
reduction in NASA's budget from FY08 to FY09 for Airspace Systems--
which funds the agency's air traffic management work in support of 
NextGen--does not generate confidence in NASA's ability to meet its 
future JDPO responsibilities and specifically in affecting the 
``technology gap'' in an urgent manner.

            International Space Station
    The President's FY09 NASA budget requests $2.06 billion for the 
International Space Station (ISS) program for on-orbit assembly, launch 
processing activities, operations and continuation of research payload 
and experiment deliveries to orbit. The FY09 budget funds the delivery 
and operation of the habitability modifications to allow an increase in 
ISS crew size to six. Up to this point, the ISS was limited to three 
crew members, thus limiting the amount of research that could be 
performed as assembly and operational responsibilities required 
considerable attention. NASA's plan to complete the ISS will meet the 
commitment to the International Partners. In addition, a key challenge 
facing the ISS Program will be the need to purchase alternate cargo and 
crew transportation services after the Shuttle is retired, which is 
scheduled for 2010. NASA's FY09 budget request includes $2.6 billion 
for the purchase of cargo transportation services over five years, $600 
million of which is committed to purchases of crew transportation from 
Russia through FY11. From a direct cost perspective, the proposed FY09 
budget represents an effective increase of $247 million from that 
appropriated in FY08.
    ISS topics and issues related to the FY09 budget request include 
the following:

ISS Cargo and Crew Transportation Services In the Post-Shuttle Era--The 
Commercial Crew and Cargo Program is NASA's effort to foster the 
development of a cost-effective commercial space transportation 
capability for the post-Shuttle Era. This capability will initially be 
utilized to carry cargo to the ISS; future options could involve 
developing a crew transportation capability. The development of the 
commercial cargo/crew transportation capability is being funded in the 
Constellation budget. Once the services have been demonstrated, the 
operational responsibility for the program will move to the ISS program 
within the Space Operations Missions Directorate.
    As the Space Shuttle nears retirement, NASA's stated preferred 
solution for ISS crew and cargo delivery and return requirements is to 
use commercial services provided by space transportation companies. 
NASA's Commercial Orbital Transportation Services (COTS) project is 
intended to facilitate U.S. private industry's development of cargo and 
crew space transportation capabilities with the goal of demonstrating 
reliable, cost effective access to low Earth orbit. NASA had initially 
selected two partners for its COTS project under Space Act Agreements. 
One partner failed to meet NASA's milestones and NASA terminated the 
Agreement. With the recent GAO decision rejecting a challenge by the 
terminated partner to NASA's plans to utilize a Space Act Agreement 
rather than a government contract, NASA is now working toward choosing 
one or more additional funded partner(s), and a decision is expected in 
February 2008. If NASA's preferred solution of using commercial 
services is not attainable, NASA will need to rely on alternatives such 
as continued purchases of Russian Progress vehicles, European Automated 
Transfer Vehicles (ATV), or Japanese H-II Transfer Vehicles (HTV). 
Those alternatives, however, would require some time to procure. 
Furthermore, purchases of Russian capabilities beyond 2011 will require 
negotiations to address requirements of the Iran, North Korea and Syria 
Non-Proliferation Act (INKSNA). A Request for Proposals (RFP) will be 
sent out for Phase 2 of the COTS program in April 2008 with a contract 
award by the end of the year. An issue that could be raised at the 
hearing is when the State Department would need to initiate 
negotiations to ensure NASA does not face a shortfall in cargo 
transportation capability--should it be forced to purchase such 
capabilities from Russia.

Establishing ISS Program Service Life--NASA indicates that while the 
FY09 budget run out does not presently allocate funds for operating ISS 
beyond 2016, it is not taking any action to preclude it. Likewise, out 
year projections do not include costs to retire and decommission ISS. 
An issue that could be addressed at the hearing is what impact a 
possible U.S. departure would have on the ISS international partners.

International Space Station Research--The ISS is intended to serve as 
an on-orbit facility where R&D in support of both human exploration and 
non-exploration purposes and other exploration technologies is to be 
conducted. However, the ISS research budget, which is book-kept in the 
Exploration Systems (ESMD) budget has been significantly cut back in 
recent years to help fund the Crew Exploration Vehicle/Crew Launch 
Vehicle and for other purposes.

            Space Shuttle
    The President's FY09 budget requests $2.98 billion to operate and 
maintain NASA's three Space Shuttles, and to conduct five ISS assembly 
flights in FY09. Assembly flights include the launch of the last major 
power element for the ISS and other significant infrastructure and 
international partner hardware. From a direct cost perspective, the 
proposed budget represents an effective decrease of $285 million from 
that appropriated in FY08.
    Space Shuttle topics and issues related to the FY09 budget request 
include the following:

Maintaining the flight schedule--NASA plans to complete six Shuttle 
flights in FY08--five for ISS assembly and one Hubble Space Telescope 
servicing mission. In FY09, NASA plans to fly five additional missions. 
This tempo has not been achieved since the Columbia accident. So while 
NASA should be commended for not allowing schedule pressures to detract 
from its safety focus, the frequent delays encountered since return to 
flight after the Columbia tragedy pose daunting challenges to the 
agency's flight manifest and its plan to conduct all missions in the 
window available.

Fly-out of Planned Shuttle Missions--NASA's Shuttle manifest shows two 
logistics flights before the Space Shuttle is retired by the projected 
September 2010 date. However, the Administration has not committed to 
completing these two so-called ``contingency'' flights although the 
funding necessary to accomplish them is included--assuming the flights 
are carried out by October 2010. Furthermore, as previously indicated, 
the window for all Shuttle flights grows smaller when missions are 
delayed and may have an impact on whether these two logistics missions 
can be flown. These two missions will carry spares for the ISS that 
only the Space Shuttle can accommodate, and the program considers the 
flights as necessary rather than ``nice-to-have.'' Provision of such 
spares is paramount to maintaining the extended health of the ISS.

Space Shuttle Program Transition and Retirement--There will be a 
significant level of effort required for program shutdown after the 
Shuttle's retirement in FY10. NASA's FY09 budget request's five-year 
plan does not include funds or a plan to address Space Shuttle program 
transition and retirement past FY10 even though NASA acknowledges that 
there will be costs associated with the shutdown. While NASA indicated 
that concrete plans and budgets would be included in the FY09 request, 
this did not materialize. NASA recently told the Committee that initial 
cost estimates for transition that reached into the billions of dollars 
are still being refined and that the agency's present goal is to bring 
this down to less than $500 million. Currently, NASA estimates the cost 
at approximately $1.2 billion. According to NASA, attainment of this 
level of reduction is dependent on decisions to be made on the state in 
which the orbiters will be preserved and what Space Shuttle buildings 
and facilities can be effectively used by the Constellation Program or 
others. In addition, a drastic ``step function'' may occur in the 
number of Civil Service Full Time Equivalents (FTEs) and the number of 
contractor personnel supporting the Space Shuttle. NASA is currently 
refining its schedule for moving personnel off of the Space Shuttle. 
The most recent estimates for personnel remaining on the Shuttle 
program by year are listed below:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            Exploration Initiative
    The President's proposal for NASA's FY09 budget provides $3.50 
billion for Exploration Systems to fund Constellation Systems, which 
includes the development, demonstration, and deployment of the Orion 
Crew Exploration Vehicle (CEV) and the Ares I Crew Launch Vehicle (CLV) 
as well as associated ground and in-orbit infrastructure; and Advanced 
Capabilities, which includes human research to support ISS and future 
exploration; a lunar precursor robotic program; microgravity research; 
and technology development to support Orion and other exploration 
programs. From a direct cost perspective, the proposed FY09 budget 
represents an increase of $357.4 million from that appropriated in 
FY08. In addition, the President's request for the Constellation 
program increases from that appropriated in FY08 by $576.3 million.
    Exploration topics and issues related to the FY09 budget request 
include the following:

CEV and CLV schedule and budget--The President's Vision statement 
directed NASA to have the CEV operational no later than 2014. The NASA 
Authorization Act of 2005 directed the NASA Administrator ``manage 
human space flight programs to strive to achieve. . .launching the Crew 
Exploration Vehicle as close to 2010 as possible'' subject to the 
proviso that the Administrator shall ``construct an architecture and 
implementation plan for NASA's human exploration program that is not 
critically dependent on the achievement of milestones by fixed dates.'' 
NASA originally said that its budget plan would deliver an operational 
CEV in 2014. However, in FY07, NASA concluded that ``As a result of 
this analysis over the past two months, the FY 2008 budget request does 
not support a 2014 initial operational capability, but March 2015, even 
before the FY07 CR impact. . .'' At last year's budget hearing before 
the Committee, the NASA Administrator said that while the reduction in 
funding caused by the 2007 Continuing Resolution extended the 
operational date to September of 2015, NASA terminated some lower 
priority activities to buy back some schedule for the CEV. This 
returned NASA to the March of 2015 date. The FY09 budget request funds 
activity levels that maintain NASA's commitment to reach initial 
capability for both Orion and Ares I by March 2015 and thus does not 
permit acceleration of such operational capability. However, NASA 
states that while it can only commit to the March of 2015 date, it will 
strive to improve upon that milestone, to effectively reduce the gap in 
U.S. manned transportation capability caused by the retirement of the 
Space Shuttle. Meeting this date will require timely resolution of 
design issues that have surfaced, particularly in the Ares I program. 
An October 2007 GAO report on Ares I found that ``requirements 
instability,'' ``technology and hardware development knowledge gaps,'' 
an ``aggressive schedule,'' and ``projected funding shortfalls'' 
represent significant challenges for the program. Although NASA states 
that threats to Orion and Ares I projects are being worked through 
using a rigorous risk management process, an area of concern due to its 
potential impact on NASA's ability to maintain its scheduled 
operational date of March of 2015 is the level of reserves through 
FY10. These are characterized by NASA as minimal, less than eight 
percent. Another area of concern that could have ramifications for 
weight and cost is whether Orion will be designed to make land or water 
landings. A decision from NASA is expected by March of 2008.

Reduced funding of Exploration Technology Development--The Exploration 
Technology Development Program (ETDP) provides new technologies that 
will enable NASA to conduct future human missions and reduce risk and 
life cycle cost. ETDP investments reduce the risk of infusing new 
technologies into flight projects by maturing them to the level of 
demonstration in a relevant environment. For example, one project is 
developing technologies for atmospheric management, environmental 
monitoring and control, advanced air and water recovery systems, and 
waste disposal for use inside crew habitats. Despite the critical role 
technology development plays in reducing the risks of future space 
travel, funding for exploration technology development is being reduced 
by $42.9 million from that appropriated in FY08. Funding surpassing 
that provided in FY08 is not projected to occur until FY10 at the 
earliest.

Lunar Robotic Precursor Program (LRPR)--NASA's LRPR includes the Lunar 
Reconnaissance Orbiter (LRO), which will take high-resolution images of 
the Moon, map resources, and assess the lunar environment for future 
exploration, and the Lunar Crater Observation and Sensing Satellite 
(LCROSS), which will explore the darker region at the lunar poles. The 
combined mission is scheduled to launch in late 2008 on an Atlas V. The 
LRPR will also manage the development of two small lunar landers that 
are being initiated through the Science Mission Directorate's FY09 
budget plans.

            Space Communications
    The President's FY09 budget requests $582.9 million for Space 
Communications and Navigation, about $280 million above the FY08 
appropriation, as compared in direct dollars. Most of the increase was 
acquired from the transfer of the Deep Space Network and Near Earth 
Network from the Science Mission Directorate. The transfer was part an 
effort to consolidate the management and budget for all space 
communications activities within the Space Operations Mission 
Directorate. The FY09 budget includes $154 million to develop two 
replacement satellites for the Tracking and Data Relay Satellite System 
(TDRSS), which provides in-orbit communications links between on-orbit 
systems [e.g., the Shuttle, ISS, Hubble, and near-Earth orbiting 
satellites]. Other agencies also rely on TDRSS. The communications 
support provided by TDRSS is projected to decline by 2011. These 
replacements will ensure TDRSS support until 2016.
    Deep Space Network--In a report to the Committee in April 2006, the 
GAO raised concerns about the DSN's aging and fragile infrastructure. 
While NASA is working toward consolidating its space communications 
into a single integrated network architecture, an issue that could be 
raised at the hearing is why NASA, despite warnings about aging, DSN's 
funding for the next five years is essentially flat.

            Education
    The President's budget proposes $115.6 million in FY09 to support 
NASA's Education program, including projects targeted at higher 
education, minority university research and education, elementary and 
secondary education; and the E-education project, which supports 
development of technology products, services, and applications, as the 
informal education project, which seeks to expand student, educator, 
and public learning in STEM areas. The proposed FY09 budget represents 
a reduction of $10 million from the FY08 budget appropriation. The cuts 
were allocated across the portfolio of programs. A recent National 
Research Council review of NASA's K-12 education program recommended an 
increased use of partners in its pre-college education programs, 
definition of realistic project goals, and development of a plan for 
project and program evaluations.
    In addition to the projects included in NASA's education office, 
the Science Mission Directorate, for example, includes educational 
programs through some of its divisions and individual space missions. 
Members may wish to ask whether NASA is taking appropriate steps to 
maximize the effectiveness of the agency's investments in education, 
including how these investments relate to STEM education.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Gordon. Welcome, everyone. I know this is a bit of 
an odd day because of the snow. Mr. Udall and I rode. Mr. Udall 
was stuck, but he was supposed to have arrived at the airport 
at a quarter until 10:00, and so hopefully he is on his way, 
and I am sure other Members are dealing with their own various 
problems. But Dr. Griffin, we, you were here on time, and we 
respect that and feel like that we need to move forward this 
important hearing.
    So with that, this committee will come to order.
    Today's hearing will be Congress's first opportunity to 
review the President's fiscal year 2009 NASA budget request. 
The fiscal year 2009 budget request is not just a collection of 
funding levels and program descriptions. Rather, it defines the 
Administration's priorities for NASA and its vision for what 
NASA should be doing in the coming years.
    In that regard, this budget request and Congress's 
disposition of that through the authorizing and appropriations 
process this year will in large measure define the state of the 
Space and Aeronautics Program that will be inherited by the 
next President. So the stakes are high.
    As many of you know, this year marks the 50th anniversary 
of the dawn of the U.S. Space Program and the establishment of 
NASA. It also marks the 50th anniversary of the establishment 
of the Science and Technology Committee. We and NASA were a 
direct result of the Soviet Sputnik launch, an event that sent 
shockwaves throughout the American Government and the American 
public. In fact, our committee was established in part to help 
define an appropriate American response to Sputnik and to 
oversee America's fledgling Space Program.
    Now, 50 years after NASA's birth I think that this 
committee needs to take a hard look at where NASA is headed and 
whether or not the course that the current administration has 
set NASA on is an appropriate one and one that should be 
followed by the next Administration, whether it be Democrat or 
Republican. We need to develop a Congressional consensus on 
what NASA should be doing and equally important, on what level 
of resources this nation is willing to commit to NASA.
    I thought we had achieved such a consensus in the NASA 
Authorization Act of 2005, which was passed by the Congress and 
signed by the President. Yet the Administration's actions since 
that time, unfortunately, have not helped to maintain that 
consensus. In particular, I believe that the Administration has 
to date failed to provide resources to NASA that are adequate 
for what it has asked NASA to do and what it agreed in the 
Authorization Act.
    And that is not just my opinion. If you review our 
committee's hearings over the past several years, you will find 
bipartisan expressions of concern over the mismatch between 
NASA's tasks and the resources it has been given. We see the 
impact of that approach to NASA through the budget request that 
we are reviewing today.
    Thus, we see an Aeronautics Program that continues on a 
downward path, despite clear consensus or Congressional 
direction that echoes our belief that NASA's aeronautics R&D 
activities are critical to our competitiveness, the safety and 
effectiveness or efficiency of our aviation system, and our 
quality of life, and despite clear evidence that our current 
air traffic control system is antiquated and under severe 
stress.
    In the science area, the situation is uncertain. The good 
news is that NASA has at least taken steps consistent with 
Congressional urging and direction to initiate new Earth 
science missions recommended by the National Academies in its 
recent Decadal Survey.
    The bad news is that the funding for those Earth science 
missions doesn't reflect any new commitment on the part of the 
Administration to enhance NASA's overall Science Program. 
Instead, funding for those missions will be provided by 
shifting money from other Earth science research activities as 
well as other NASA science accounts in the coming years.
    In short, a musical chairs approach to science funding. Yet 
the successive cuts to NASA's aeronautics portfolio and 
uncertain outlook for NASA Science Program have not resulted in 
any corresponding dividends for NASA's Human Space Flight 
Program or its Exploration Initiative that could be cited as 
rationales for the Administration's approach to NASA. Quite the 
opposite. In NASA's Exploration Program, the FY09 budget 
request provides no funds to reduce the looming gap in U.S. 
human access to space once the Shuttle is retired, in spite of 
widespread concern about this potential impact.
    Indeed, given the low levels of reserves allocated to the 
Constellation Program over the next several years, it is hard 
to have confidence even in NASA's stated 2015 delivery date for 
the Crew Exploration Vehicle, a date five years after the 
Shuttle is retired.
    In addition, NASA's Technology Program, something that 
should be the bedrock of R&D agency, has been progressively 
whittled away to the point it is largely an afterthought in the 
fiscal year 2009 budget request. And then there is the issue of 
the parting gifts left to the next Administration in the form 
of unfunded and underfunded requirements for the fiscal year 
2009 NASA request.
    For example, the five-year runout for the Shuttle program 
that accompanies the fiscal year 2009 request contains no money 
for Shuttle retirement and transition costs past 2010, even 
though NASA agrees that such funds will be required. Instead, 
any money needed for Shuttle retirement and transition costs 
will have to come out of the Exploration Account, which itself 
will already be facing large funding requirements in 2011, if 
the Lunar Program proceeds under NASA's planned schedule.
    NASA's five-year budget contains no funding for the 
replacement of the Deep Space Network, even though NASA 
concedes it needs to happen if NASA is to have the capability 
to support all of the important space missions that will be 
occurred, occurring in the coming decades.
    And, finally, I am concerned that the Administration's 
five-year budget request does not appear to allocate sufficient 
funding to meet the International Space Station's utilization 
and operations requirements after the Shuttle is retired. 
Indeed, NASA itself identifies ISS cargo and crew 
transportation as, and I quote, ``The greatest program and 
budget risk'' to the ISS program.
    I could go on, but I hope my point is clear.
    NASA and its Space and Aeronautics Research Programs are 
important, important to our standing in the world, important to 
our nation's scientific and technological future and 
foundation, and important to our quality of life.
    Dr. Griffin and his team are dedicated and hardworking and 
represent some of the best and brightest in the Nation. Yet I 
am afraid that this budget and the vision for NASA that it 
represents fails them in several important ways. I hope that 
Dr. Griffin will help the Committee to address these issues 
both today and in the coming months. We need a sustainable and 
productive Space and Aeronautics Program for America, one that 
can be embraced by the next President and the next Congress. 
And that is what I want us to focus on this year as we work to 
reauthorize NASA.
    With that, I want to welcome once again to the hearing 
today Dr. Griffin. I look forward to your testimony.
    [The prepared statement of Chairman Gordon follows:]
               Prepared Statement of Chairman Bart Gordon
    Good morning. And welcome, Dr. Griffin.
    Today's hearing will be Congress's first opportunity to review the 
President's Fiscal Year 2009 NASA budget request.
    I expect that there will be much in that budget request that 
Members will want to discuss today and in subsequent Committee 
hearings.
    Yet the FY09 budget request is not just a collection of funding 
levels and program descriptions.
    Rather, it defines the Administration's priorities for NASA and its 
vision for what NASA should be doing in the coming years.
    In that regard, this budget request--and Congress's disposition of 
it through the authorizing and appropriations process this year--will 
in large measure define the state of the space and aeronautics program 
that will be inherited by the next President.
    So the stakes are high.
    As many of you know, this year marks the 50th anniversary of the 
dawn of the U.S. space program and the establishment of NASA.
    It also marks the 50th anniversary of the establishment of the 
Science and Technology Committee.
    We--and NASA--were a direct result of the Soviet Sputnik launch, an 
event that sent shockwaves throughout the American government and the 
American public.
    In fact, our Committee was established in part to help define an 
appropriate American response to Sputnik and to oversee America's 
fledgling space program.
    Now--50 years after NASA's birth--I think that this committee needs 
to take a hard look at where NASA is headed, and whether or not the 
course that the current Administration has set NASA on is an 
appropriate one. . .and one that should be followed by the next 
Presidential Administration, whether it be Democratic or Republican.
    We need to develop a congressional consensus on what NASA should be 
doing, and equally importantly, on what level of resources we this 
nation is willing to commit to NASA.
    I thought we had achieved such a consensus in the NASA 
Authorization Act of 2005, which was passed by Congress and signed by 
the President.
    Yet, the Administration's actions since that time unfortunately 
have not helped to maintain that consensus.
    In particular, I believe that the Administration has to date failed 
to provide resources to NASA that are adequate for what it has asked 
NASA to do and what it agreed to in the Authorization Act.
    And that's not just my opinion--if you review our Committee's 
hearings over the past several years, you will find bipartisan 
expressions of concern over the mismatch between NASA's tasks and the 
resources it's been given.
    We see the impact of that approach to NASA throughout the budget 
request that we will be reviewing today.
    Thus, we see an aeronautics program that continues on a downward 
path, despite clear congressional direction that echoes our belief that 
NASA's aeronautics R&D activities are critical to our competitiveness, 
the safety and efficiency of our aviation system, and our quality of 
life--and despite clear evidence that our current air traffic control 
system is antiquated and under severe stress.
    In the science arena, the situation is uncertain.
    The good news is that NASA has at last taken steps--consistent with 
congressional urging and direction--to initiate new Earth science 
missions recommended by the National Academies in its recent Decadal 
Survey.
    The bad news is that the funding for those new Earth science 
missions doesn't reflect any new commitment on the part of the 
Administration to enhancing NASA's overall science program.
    Instead, funding for those missions will be provided by shifting 
money from other Earth science research activities as well as from 
other NASA science accounts in the coming years------
    In short--a ``musical chairs'' approach to science funding.
    Yet, the successive cuts to NASA's aeronautics portfolio and the 
uncertain outlook for the NASA science program have not resulted in any 
corresponding dividends for NASA's human space flight program or its 
exploration initiative that could be cited as rationales for the 
Administration's approach to NASA.
    Quite the opposite. In NASA's exploration program, the FY09 budget 
request provides no funds to reduce the looming ``gap'' in U.S. human 
access to space once the Shuttle is retired, in spite of widespread 
concern about its potential impact.
    Indeed, given the low levels of reserves allocated to the 
Constellation program over the next several years, it is hard to have 
confidence even in NASA's stated 2015 delivery date for the Crew 
Exploration Vehicle--a date five years after the Shuttle is retired.
    In addition, NASA's technology program--something that should be 
the bedrock of an R&D agency--has been progressively whittled away to 
the point it is largely an afterthought in the FY09 budget request.
    And then there is the issue of the ``parting gifts'' left to the 
next Administration in the form of unfunded and underfunded 
requirements in the FY09 NASA request.
    For example, the five-year runout for the Shuttle program that 
accompanies the FY09 request contains no money for Shuttle retirement 
and transition costs past 2010, even though NASA agrees that such funds 
will be required.
    Instead, any money needed for Shuttle retirement and transition 
costs will have to come out of the Exploration account--which itself 
will already be facing large new funding requirements in 2011 if the 
lunar program proceeds under NASA's planned schedule.
    NASA's five-year budget contains no funding for the replacement of 
the Deep Space Network, even though NASA concedes it needs to happen if 
NASA is to have the capability to support all of the important space 
missions that will be occurring in the coming decades.
    Finally, I am concerned that the Administration's five-year budget 
request does not appear to allocate sufficient funding to meet the 
International Space Station's utilization and operations requirements 
after the Shuttle is retired.
    Indeed, NASA itself identifies ISS cargo and crew transportation as 
``the greatest program and budget risk'' to the ISS program.
    I could go on, but I hope my point is clear.
    NASA and its space and aeronautics research programs are 
important--important to our standing in the world, important to our 
nation's scientific and technological foundation, and important to our 
quality of life.
    Dr. Griffin and his team are dedicated and hardworking and 
represent some of the ``best and brightest'' in the Nation.
    Yet I am afraid that this budget and the vision for NASA that it 
represents fails them in several important ways:

        <bullet>  It fails to fully exploit and nurture the impressive 
        capabilities NASA has, and it fails to position NASA for a 
        sustained and productive future.

        <bullet>  Instead I'm afraid that the Administration's budget 
        and vision for NASA simply set the agency up for increased 
        problems down the road.

        <bullet>  And most fundamentally, I have to ask whether it is 
        credible to believe that we will be able to successfully carry 
        out the human lunar program proposed by the Administration--
        while still maintaining a balanced NASA portfolio overall--if 
        the NASA budgetary outlook doesn't improve.

        <bullet>  If it isn't credible, then we will need to determine 
        whether there are any changes to be made that will still keep 
        us moving forward in a balanced manner under the funding likely 
        to be available to NASA.

    I hope that Dr. Griffin will help the Committee to address these 
issues both today and in the coming months.
    We need a sustainable and productive space and aeronautics program 
for America--one that can be embraced by the next President and the 
next Congress.
    And that's what I want us to focus on this year as we work to 
reauthorize NASA.
    With that, I again want to welcome you to today's hearing, Dr. 
Griffin, and I look forward to your testimony.

    Chairman Gordon. And now the Chair recognizes Mr. Hall for 
an opening statement.
    Mr. Hall. Thank you, Chairman. And my thanks, too, to NASA 
Administrator Mike Griffin, who is, I think, doing a superb job 
leading and managing the agency during this especially 
difficult time as NASA strives to complete the International 
Space Station, retire the Shuttle, and build a new human-rated 
launch system with an escape module.
    The fiscal year 2009 NASA budget request continues to treat 
NASA favorably, especially when compared to other federal non-
defense, discretionary programs. The fiscal year 2009 request 
proposes to increase NASA's funding by 1.8 percent compared to 
the last budget request, and the percentage is even higher when 
compared to the agency's fiscal year 2008 appropriations that 
was signed into law late last year.
    Having said that, NASA is under enormous financial strain 
as it seeks to safely fly out Shuttle to its planned retirement 
in 2010, while concurrently paying for the design and 
construction of the new Constellation System and maintaining a 
balanced and robustly-funded science and aeronautics research 
portfolio. There are many in this room, myself among them, and 
in the space and science community, who would argue that more 
money is needed, but the broader federal budget realities make 
that possibility very difficult at this time.
    Given the current budget profile, I believe Administrator 
Griffin is making the right choices. And I also believe it is 
vitally important that NASA continues to keep the Constellation 
Program on schedule to meet a 2015 launch date, if not sooner, 
and it is essential that we minimize, to the greatest degree 
possible, the amount of time that the U.S. goes without a 
manned space-launch capability. The prospect of being entirely 
reliant on our international partners for access to and from 
space is one that could have serious implications for America's 
space supremacy.
    Our country needs the Constellation System. It will offer 
many new capabilities, most notably the ability to go beyond 
low Earth orbit on long duration missions, and it will also be 
a much safer vehicle, providing its crews a far more reliable 
means of escape in the event of a launch mishap.
    I understand the need for phasing out Shuttle to free up 
resources for the development of the Constellation. But 
Congress should be mindful that this budget request, and 
particularly the Constellation program budget, is very, very 
lean, with little margin to cover unanticipated cost increases. 
If there are surprises, either Congress will have to provide 
the resources to address them, or be prepared to accept a gap 
of greater than five years. So I urge NASA, industry, and 
Congress to work together to ensure we get back to space as 
soon as possible.
    Equally important is the need to maintain a skilled 
workforce to support Constellation. We cannot afford to lose 
these people such as we did between Apollo and Shuttle, and the 
longer the gap, the greater the risk that we won't be able to 
retain the talented pool of engineers and technicians who 
currently support Shuttle. I guarantee that if our government's 
commitment to the Constellation Program begins to waver, or if 
the gap extends and we can't provide meaningful jobs that have 
clear promise for a predictable and robust launch schedule, we 
will lose these folks to other industries. The cost of time and 
money to train replacements will be enormous.
    Finally, Dr. Griffin, knowing that you have a complex 
assembly mission now underway, and knowing of all the problems 
we face, the budget cutbacks, all of us greatly appreciate your 
willingness to take time out of a very, very busy schedule to 
appear before this committee and help us as you have done since 
you have occupied the position you are in. And I thank you.
    Mr. Chairman, thank you, and I yield back to you.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    Thank you, Mr. Chairman, for calling this morning's hearing. And my 
thanks too, to NASA Administrator Mike Griffin, who is doing an 
absolutely superb job leading and managing the agency during this 
especially difficult time as NASA strives to complete the International 
Space Station, retire the Shuttle, and build a new, human-rated launch 
system.
    The Fiscal Year 2009 NASA budget request continues to treat NASA 
favorably, especially when compared to other federal non-defense, 
discretionary programs. The FY09 request proposes to increase NASA's 
funding by 1.8 percent compared to the last budget request, and the 
percentage is even higher when compared to the agency's FY08 
appropriations that was signed into law late last year.
    Having said that, NASA is under enormous financial strain as it 
seeks to safely fly out Shuttle to its planned retirement in 2010, 
while concurrently paying for the design and construction of the new 
Constellation system and maintaining a balanced and robustly funded 
science and aeronautics research portfolio. There are many in this 
room--myself among them--and in the space and science community, who 
would argue that more money is needed, but the broader federal budget 
realities make that possibility difficult.
    Given the current budget profile, I believe Administrator Griffin 
is making the right choices. And I also believe it is vitally important 
that NASA continues to keep the Constellation program on schedule to 
meet a 2015 launch date, if not sooner, and it is essential that we 
minimize, to the greatest degree possible, the amount of time that the 
U.S. goes without a manned space-launch capability. The prospect of 
being entirely reliant on our international partners for access to and 
from space is one that could have serious implications for America's 
space supremacy.
    Our country needs the Constellation system. It will offer many new 
capabilities, most notably the ability to go beyond low Earth orbit on 
long duration missions, and it will also be a much safer vehicle, 
providing its crews a far more reliable means of escape in the event of 
a launch mishap.
    I understand the need for phasing out Shuttle to free up resources 
for development of Constellation. But Congress should be mindful that 
this budget request, and particularly the Constellation program budget, 
is very, very lean, with little margin to cover unanticipated cost 
increases. If there are surprises, either Congress will have to provide 
the resources to address them, or be prepared to accept a gap of 
greater than five years. So I urge NASA, industry, and Congress to work 
together to ensure we get back to space as soon as possible.
    Equally important is the need to maintain a skilled workforce to 
support Constellation. We cannot afford to lose these people--such as 
we did between Apollo and Shuttle--and the longer the gap, the greater 
the risk that we won't be able to retain the talented pool of engineers 
and technicians who currently support Shuttle. I guarantee that if 
government's commitment to the Constellation program begins to waver, 
or if the gap extends and we can't provide meaningful jobs that have 
clear promise for a predictable and robust launch schedule, we will 
lose these folks to other industries. The cost of time and money to 
train replacements will be enormous.
    Mr. Griffin, knowing that you have a complex assembly mission now 
underway, all of us greatly appreciate your willingness to take time 
out of your busy schedule to appear before this committee. Thank you.

    Chairman Gordon. Thank you, Mr. Hall.
    Let me just quickly point out, many of you have been in 
this room many times before. We have not ostracized our former 
Chairmen. We are just in the process of trying to renovate 
some, and I think even Mr. Sensenbrenner's photograph may be 
recovered. We are not sure, though.
    Mr. Udall, you are recognized.
    Mr. Udall. Thank you, Mr. Chairman. Good morning, Dr. 
Griffin. This hearing marks the beginning of our consideration 
of NASA's fiscal year 2009 budget request as well as providing 
us with an opportunity to engage with Dr. Griffin on a range of 
NASA-related issues.
    NASA has been in the news in both positive and not-so-
positive ways over the last year. In particular, I would note 
that our committee has had to ask the Government Accountability 
Office to analyze air safety data from the National Aviation 
Operations Monitoring Service pilot survey because NASA had 
refused to do so. We are all disappointed that we had to take 
that step, but rest assured that I intend to continue my 
oversight of this and other issues that need our subcommittee's 
attention.
    Turning to the budget request at this point, it is clear 
that NASA faces significant challenges in carrying out the 
tasks that the Nation has asked it to assume, and those 
challenges have been made more difficult by the inadequate NASA 
budgets that have been sent over to the Hill from the White 
House over the past several years.
    I had hoped that this budget request for NASA, which 
represents President Bush's last budget submission, would have 
reflected an intention by the Administration to finally address 
the impact of the previous shortfalls, yet in the main it does 
not.
    The budget request has been described as a ``stay-the-
course'' budget, and I do believe that that is an all-too-
accurate description.
    This budget continues the underfunding of the agency that 
has became painfully apparent in 2004, when the White House 
announced a major human and robotic exploration initiative, 
including returning American astronauts to the Moon by 2020, 
while making a virtue of the fact that it was only adding a 
billion dollars in new money to NASA's budget over the first 
five years of the Moon-Mars Initiative.
    Since that time, it has sent over NASA budget requests that 
have consistently fallen short of what the Administration 
itself had said would be needed to establish or to enable NASA 
to carry out the initiative and its other core missions. Now, 
despite the fact that there is a projected five-year gap in the 
U.S.'s capability to get its astronauts into space after the 
Shuttle is retired, and despite the fact that the exploration 
initiative's Constellation Program currently has reserves of 
less than eight percent to cover any problems the development 
program might encounter over the next two years, the 
Administration has chosen not to request any additional funding 
for the Constellation Program in this latest budget request, 
despite Congressional encouragement from both sides of the 
aisle to do so.
    That is not a great message to send to NASA and the 
contractor teams that are working so hard to implement the 
President's initiative. Nor does it send a good signal to the 
next President, whoever it might be, that the Exploration 
Initiative is a priority worth continuing.
    What are the other ways in which this NASA budget request 
stays the course?
    Well, it continues the practice of marginalizing NASA's 
aeronautics R&D program, in spite of Congressional concern and 
direction to the contrary over the past several years. It is 
clear that the Nation's aviation system is under severe stress, 
and NASA research will be needed if we are to move successfully 
to a next generation air traffic management system while 
protecting the environment and maintaining safety. The 
Administration's current approach to NASA's aeronautics 
enterprise simply is not going to get the job done.
    In the space operations arena, staying the course 
unfortunately means continuing the practice of leaving unfunded 
and underfunded liens for the next Administration to deal with, 
whether it be the costs of Shuttle transition and retirement, 
Deep Space Network replacement, or logistical support of the 
International Space Station, that is a troubling approach given 
the already over-constrained nature of NASA's out-year 
budgetary plan.
    Here is one area, however, where ``stay-the-course'' was 
not followed, at least in part, and that is in NASA's Science 
Program. It appears that NASA did take steps in the fiscal year 
2009 budget request to respond to concerns expressed by many in 
the science community and in Congress. The budget request 
contains new starts for high priority Earth Science missions 
recommended by the National Academies in its recent Decadal 
Survey, something I strongly support.
    In addition, funding is allocated to augment NASA's 
Research and Analysis activities and to revitalize the sub-
orbital research program, actions that will help train the next 
generation of space scientists and engineers. In addition, NASA 
has announced that it intends to undertake an ambitious series 
of new missions, including JDEM, a Solar Probe, an exoplanet 
detection mission, a Mars Sample Return Mission, a major Outer 
Planets Mission, as well as a significant increase in its lunar 
science initiative. It sounds very exciting and promising. 
However, the reality is that no new money is being requested 
for NASA's science account to carry out all these new 
initiatives beyond what had previously been assumed. It is 
going to affect money as simply being transferred between 
science accounts. That sounds a lot like the approach the 
Administration used to pay for the Exploration Initiative and 
Human Space Flight Programs, and we see how well that has 
worked.
    In addition, the bulk of the funding requirements for these 
new initiatives occurs beyond this budget's planning horizon, 
in short, finding the necessary money will be the task of the 
next President and future Congresses. I hope that we will be 
able to undertake at least some of the worthwhile new 
initiatives being proposed. I am a strong supporter of a robust 
and exciting science program, but we only have to recall the 
Administration's Project Prometheus and the JIMO mission to 
know that bold announcements don't always translate into real 
programs.
    Well, I don't want to belabor the point, but it is clear 
that NASA faces a number of important challenges. I intend to 
work hard this year to develop legislation to reauthorize NASA, 
and today's hearing will provide important input to that 
effort.
    Again, Dr. Griffin, welcome, and Mr. Chairman, I would 
yield back the balance of my time.
    [The prepared statement of Mr. Udall follows:]
               Prepared Statement of Chairman Mark Udall
    Good morning.
    I want to join my colleagues in welcoming Administrator Griffin to 
today's hearing.
    This hearing marks the beginning of our consideration of NASA's 
fiscal year 2009 budget request, as well as providing us an opportunity 
to engage Dr. Griffin on a range of NASA-related issues.
    Dr. Griffin, NASA has been in the news in both positive and not-so-
positive ways over the last year. In particular, I would note that our 
Committee has had to ask the Government Accountability Office to 
analyze air safety data from the National Aviation Operations 
Monitoring Service (NAOMS) pilot survey because NASA had refused to do 
so.
    I am disappointed that we had to take that step, but rest assured 
that I intend to continue my oversight of this and other issues that 
need our subcommittee's attention.
    Turning now to the FY 2009 budget request, it is clear that NASA 
faces significant challenges in carrying out the tasks that the Nation 
has asked it to assume--and those challenges have been made all the 
more difficult by the inadequate NASA budgets that have been sent over 
to the Hill from the White House over the past several years.
    I had hoped that this budget request for NASA--which represents 
President Bush's last budget submission--would have reflected an 
intention by the Administration to finally address the impact of the 
previous shortfalls, yet in the main it does not.
    The budget request has been described as a ``stay-the-course'' 
budget.
    Unfortunately, that is all too accurate a description.
    Thus, this budget request continues the underfunding of the agency 
that became painfully apparent in 2004 when the White House announced a 
major human and robotic exploration initiative--including returning 
American astronauts to the Moon by 2020--while making a virtue of the 
fact that it was only adding a billion dollars in new money to NASA's 
budget over the first five years of the Moon-Mars initiative.
    Since that time, it has sent over NASA budget requests that have 
consistently fallen short of what the Administration itself had said 
would be needed to enable NASA to carry out the exploration initiative 
and its other core missions.
    Now, despite the fact that there is a projected five-year gap in 
the U.S.'s capability to get its astronauts into space after the 
Shuttle is retired. . .
    . . .and despite the fact that the exploration initiative's 
Constellation program currently has reserves of less than eight percent 
to cover any problems the development program might encounter over the 
next two years. . .
    . . .the Administration has chosen not to request any additional 
funding for the Constellation program in this latest budget request, 
despite congressional encouragement from both sides of the aisle to do 
so.
    That's not a great message to send to the NASA and contractor teams 
that are working so hard to implement the President's initiative.
    Nor does it send a good signal to the next President, whoever it 
might be, that the exploration initiative is a priority worth 
continuing.
    What are the other ways in which this NASA budget request ``stays 
the course''?
    Well, it continues the practice of marginalizing NASA's aeronautics 
R&D program, in spite of congressional concern and direction to the 
contrary over the past several years.
    It is clear that the Nation's aviation system is under severe 
stress, and NASA research will be needed if we are to move successfully 
to a next generation air traffic management system while protecting the 
environment and maintaining safety.
    The Administration's current approach to NASA's aeronautics 
enterprise simply is not going to get the job done.
    In the Space Operations arena, ``staying the course'' unfortunately 
means continuing the practice of leaving unfunded and underfunded liens 
for the next Administration to deal with--whether it be the costs of 
Shuttle transition and retirement, Deep Space Network replacement, or 
logistical support of the International Space Station.
    That is a troubling approach, given the already over-constrained 
nature of NASA's outyear budgetary plan.
    There is one area, however, where ``stay-the-course'' was not 
followed--at least in part--and that is in NASA's science program.
    Thus, it appears that NASA did take steps in the FY09 budget 
request to attempt to respond to concerns expressed by many in the 
science community and in Congress.
    Thus, the budget request contains new starts for high priority 
Earth Science missions recommended by the National Academies in its 
recent Decadal Survey, something I strongly support.
    In addition, funding is allocated to augment NASA's Research and 
Analysis activities and to revitalize the sub-orbital research 
program--actions that will help train the next generation of space 
scientists and engineers.
    In addition, NASA has announced that it intends to undertake an 
ambitious series of new missions, including JDEM, a Solar Probe, an 
exoplanet detection mission, a Mars Sample Return mission, a major 
Outer Planets mission, as well as a significant increase in its lunar 
science initiative.
    It sounds exciting and promising.
    However, the reality is that no new money is being requested for 
NASA's science account to carry out all these new initiatives beyond 
what had previously been assumed--money is simply being transferred 
between science accounts.
    That's sounds a lot like the approach the Administration used to 
pay for the Exploration initiative and human space flight programs--and 
we see how well that has worked. . .
    In addition, the bulk of the funding requirements for these new 
initiatives occurs beyond this budget's planning horizon--in short, 
finding the necessary money will be the task of the next President and 
future Congresses.
    I hope that we will be able to undertake at least some of the 
worthwhile new initiatives being proposed--I am a strong supporter of a 
robust and exciting science program.
    But we only have to recall the Administration's Project Prometheus 
and the JIMO mission to know that bold announcements don't always 
translate into real programs.
    Well, I don't want to belabor the point: It is clear that NASA 
faces a number of important challenges.
    I intend to work hard this year to develop legislation to 
reauthorize NASA, and today's hearing will provide important input to 
that effort.
    Thank you, and I yield back the balance of my time.

    Chairman Gordon. Mr. Feeney is recognized for an opening 
statement.
    Mr. Feeney. Thank you, Mr. Chairman, for holding this 
important hearing today. Between the Chairman, Ranking Member 
Hall, and Chairman Udall, I think they have outlined virtually 
all the major challenges facing NASA in the upcoming years to 
be considered by this committee.
    I want to welcome the NASA Administrator, Michael Griffin, 
to our committee. We are fortunate for your leadership. I think 
that Mr. Hall said it very well. We are also fortunate for the 
retirement of the term ``spiral development'' from NASA's 
lexicon, and that is a step forward.
    With the passage of time we run the risk of reverting back 
to pre-Columbia behavior. As the Columbia Accident 
Investigation Board observed, ``NASA has usually failed to 
receive budgetary support consistent with its ambitions. The 
result is an organization straining to do too much with too 
little.''
    Both the legislative and the executive branch are 
susceptible of lapsing into this behavior.
    On Capitol Hill, we are often eager to assign new missions 
to NASA. This compliment stems from NASA's incredible ability 
to perform the most difficult of assignments. Last November's 
solar array repair conducted by Astronaut Scott Parazynski 
proves a recent example of such seemingly effortless success in 
the face of an unexpected and daunting challenge.
    But I agree with the notion that has been pointed out by 
both Chairman Gordon and Chairman Udall that at times the 
Administration has fallen short of funding its own priorities. 
But I would also point out that in the fiscal year 2007 
Omnibus/Continuing Resolution, Congress appropriated to NASA 
$545 million less than the President's request with that 
reduction and then some coming from NASA's current and future 
Human Space Flight Programs. In the recently passed fiscal year 
2008 Omnibus, Congress further reduced the agency's funding 
request through a $192.5 million rescission.
    Today, the Administration's fiscal year 2009 budget request 
of $17.6 billion is 1.8 percent above last year's request. 
After factoring in inflation, NASA's resources are shrinking in 
real terms while the agency is charged with maintaining 
America's preeminence as a space-faring nation.
    Maintaining such preeminence includes developing a new 
generation of human space flight vehicles to replace the Space 
Shuttle. As the Columbia Accident Investigation Board correctly 
noted, ``It is the view of the Board that the previous attempts 
to develop a replacement vehicle for the aging Shuttle 
represented a failure of national leadership.''
    The Board went on to state, ``Continued U.S. leadership in 
space is an important national objective. That leadership 
depends on a willingness to pay the costs of achieving it.''
    Administrator Griffin, I know you understand this truth, 
and you have been a great advocate in front of this committee 
and everywhere you go, pointing out to Americans the importance 
of the task laid out before you and the entire NASA team. The 
outstanding question is whether anyone else is listening.
    Yield back the balance of my time.
    [The prepared statement of Mr. Feeney follows:]
            Prepared Statement of Representative Tom Feeney
    Thank you Mr. Chairman for holding today's hearing. I want to again 
welcome NASA Administrator Michael Griffin to our committee. We are 
fortunate for your leadership. We are also fortunate for the retirement 
of the term ``spiral development'' from NASA's lexicon.
    With the passage of time, we run the risk of reverting back to pre-
Columbia behavior. As the Columbia Accident Investigation Board 
observed:

         NASA has usually failed to receive budgetary support 
        consistent with its ambitions. The result. . .is an 
        organization straining to do too much with too little.

    Both the legislative and executive branches are susceptible of 
lapsing into this behavior.
    On Capitol Hill, we are often eager to assign new missions to NASA. 
This compliment stems from NASA's ability to perform the most difficult 
of assignments. Last November's solar array repair conducted by 
Astronaut Scott Parazynski provides a recent example of such seemingly 
effortless success in the face of an unexpected and daunting challenge.
    But in the FY07 Omnibus/Continuing Resolution, Congress 
appropriated to NASA $545 million less than the President's request 
with that reduction--and then some--coming from NASA's current and 
future human space flight programs. In the recently passed FY08 
Omnibus, Congress further reduced the agency's funding request through 
a $192.5 million rescission.
    Today, the Administration's FY09 budget request of $17.6 billion is 
1.8 percent above last year's request. After factoring in inflation, 
NASA's resources are shrinking in real terms while the agency is 
charged with maintaining America's preeminence as a space-faring 
nation.
    Maintaining such preeminence includes developing a new generation 
of human space flight vehicles to replace the Space Shuttle. As the 
Columbia Accident Investigation Board correctly noted:

         It is the view of the Board that the previous attempts to 
        develop a replacement vehicle for the aging Shuttle represented 
        a failure of national leadership.

    The Board went on to state:

         Continued U.S. leadership in space is an important national 
        objective. That leadership depends on a willingness to pay the 
        costs of achieving it.

    Administrator Griffin, I know you understand this truth. The 
outstanding question is whether anyone else is listening.

    Chairman Gordon. Thank you, Mr. Feeney. You know, although 
it may have been said different ways, I think it is clear that 
there is bipartisan agreement that the, what NASA is asked to 
be doing, is not properly matched with NASA's funding. And as 
we go through this year and as we try to develop a consensus 
reauthorization, we are going to have to deal with that 
reality.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I would like to thank you for overseeing this budget 
hearing and thank Administrator Griffin for coming in today. As NASA 
begins to phase-out the Shuttle and enters into a new era of space 
exploration, it is imperative that Congress gives the Agency the 
resources necessary for success.
    As Members of the Science and Technology Committee, we need to make 
sure that our children receive the best education possible and are 
particularly engaged in the sciences. I think this committee took an 
excellent step to assure our children's competitiveness in the science 
and technology fields by passing the COMPETES Act last year. NASA's 
space exploration programs and Shuttle missions have always been an 
integral component to engaging and exciting America's youth about the 
possibilities of science and research.
    Mr. Chairman, we must assure that NASA has the right tools at its 
disposal to move beyond the Shuttle program, to return to the Moon, and 
to send our astronauts to Mars. I commend you for your stewardship of 
this committee and I look forward to learning about the plan for NASA's 
future. Thank you.

    [The prepared statement of Mr. Lampson follows:]

              Prepared Statement of Chairman Nick Lampson

    This year as we celebrate NASA's 50th anniversary, we are tackling 
new challenges for the next 50 years. But I fear that we will be caught 
behind the curve again as we were in 1957. Just two months ago the 
Associated Press reported that China will build a new family of 
rockets--a move that would boost China's capabilities to put satellites 
in space and voyage to frontiers previously accessible only to the 
United States. Japan put a probe into orbit around the Moon not too 
long ago and India is likely to join the rivalry soon, with plans to 
send its own lunar probe into space in April.
    Although these programs are in the developmental stages--they 
signal the need to recommit to NASA--to the Vision--especially in the 
areas of science, exploration and aeronautic research and development.
    I am most concerned about the nearly five-year space flight gap 
that will leave us without access to space and dependent on potentially 
unstable allies. And while your budget request states that the agency 
strives to bring Ares and Orion on-line sooner, I fear that this gap 
will not only have economic and strategic consequences, but it will 
leave a vacuum of hope and inspiration for our children.
    Martin Luther King discussed `the fierce urgency of now'; we do not 
have the luxury of `cooling off' or `gradualism.' Our allies are 
challenging America's historic dominance in space and technology. They 
are challenging our very identity as pioneers.
    Your budget provides $2.6 billion to purchase crew and cargo 
transportation services from potentially unstable allies. It is mind-
boggling that we would spend our constituents' hard earned money in 
Russia or China and not here. $2.6 billion in the American space 
economy will help retain jobs, spur development, and encourage our 
youth to pursue math and science.
    While I have long been a proponent of returning to the Moon and 
going to Mars, I believe it is not just about the destination. We all 
know the mission will spur technology and business and improve our 
quality of life. But there is also the unquantifiable return on our 
investment--and that is the excitement in children's eyes when they 
watch a launch or tell you that they want to be an astronaut.
    We must shorten the gap and fulfill NASA's mission to conduct 
exploration and science in space. And launching the AMS will fulfill 
NASA's stated strategic goals of completing the ISS and using it for 
scientific research as well as the Vision's goal of greater space 
exploration. Thank you for being here today and I look forward to 
hearing your testimony.

    [The prepared statement of Ms. Richardson follows:]

         Prepared Statement of Representative Laura Richardson

    Thank you Chairman Gordon for holding this important hearing today. 
I would also like to thank Dr. Griffin for taking the time to come and 
testify before the Committee this morning.
    Since its inception in 1958, NASA has been the leading agency for 
American and global innovation. The launch of Explorer 1 on January 31, 
1958 sparked a new era in American space exploration, technological 
innovation, and general interest in the Science, Technology, 
Engineering, and Mathematics fields. Maintaining that interest is a top 
priority for this committee, and I am confident that under the 
leadership of Chairman Gordon this committee is committed to preserving 
our nation's role as leaders in these fields. Certainly the ``America 
COMPETES'' legislation was a step in that direction. However we must be 
mindful that the budget request and subsequent appropriations process 
demonstrates more than anything else the level of commitment we provide 
to NASA.
    Certainly the President's budget is not perfect but I am 
reluctantly encouraged by the overall increase, albeit a small one (1.8 
percent over the FY08 request) in the proposed NASA budget. Any amount 
under last year's request would send the wrong message to NASA, an 
agency that is a source of national pride, not to mention an agency 
that is critical to our security efforts.
    In an age of climate change, NASA's space science programs are 
critical to our understanding of planet Earth. This knowledge should 
have a direct impact on the policy decisions Congress makes as we move 
forward. In reviewing the President's budget I noticed a decrease in 
the space science programs and the Earth science programs so I am 
curious to know how NASA will work within these limited constraints.
    In the area of Aeronautics research I am particularly concerned 
about aviation safety. I am particularly disturbed by the $25 million 
dollar reduction in NASA's budget for Airspace Systems. Our air traffic 
control system is antiquated, and the number of close calls on the 
runways of America's airports is growing. Consumer safety is always a 
top priority, and should never be compromised.
    Finally I am troubled by the reduction in spending for NASA's 
education program. These programs are critical to increasing student 
interest in STEM fields, as well as developing diversity in these 
fields as well. I am interested in hearing what NASA plans to do in 
terms of outreach given these budget shortfalls.
    In conclusion I want to commend NASA for all the good work they 
have done in the past. I lend my full support to the vital work they do 
everyday, and I know with Congress's full legislative and fiscal 
support they will continue to do good work.
    Mr. Chairman I yield back my time.

    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman
    NASA conducts vital research and development projects that help us 
learn about our surroundings.
    Arizona State University, which is located in my district, is home 
to researchers who on many of these important NASA research projects.
    To maintain America's competitiveness in science and technology, we 
must do more than merely keep up. We must lead, and commit ourselves to 
providing the resources necessary to keep us at the forefront of this 
kind of cutting edge research and development.
    However, we must do so in a responsible manner. As Members of this 
committee, we have an obligation to exercise vigorous oversight, and 
ask tough questions to determine whether NASA is spending our federal 
dollars appropriately.
    In October, we learned that NASA spent $11 million taxpayer dollars 
creating and conducting a survey of airline pilots on potential safety 
lapses in our nation's aviation network, before evading requests to 
release the data and refusing to stand behind the results of their own 
study.
    For an agency with so many incredible accomplishments, this episode 
was certainly not its finest hour.
    I certainly hope NASA is planning to be more careful with its 
future funding.
    I look forward to hearing from Dr. Michael Griffin about NASA's 
proposed budget for Fiscal Year 2009 as well as the Operating Plan for 
Fiscal Year 2008.
    I yield back.

    Chairman Gordon. Now, thank you for listening to us 
pontificate, and Dr. Griffin, you are the one that we came here 
to hear today, and so now you are recognized.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
          AERONAUTICS AND SPACE ADMINISTRATION (NASA)

    Dr. Griffin. Thank you, Chairman Gordon, Ranking Member 
Hall, Chairman Udall, Ranking Member Feeney, thank you very 
much. It is a pleasure to be here to discuss our budget request 
of $17.6 billion.
    I want to highlight briefly the key features of this 
request, as well as to outline some areas where I will need the 
Committee's help, and then, of course, I want to answer your 
questions.
    Last week Shuttle Atlantis delivered the European Columbus 
module to the International Space Station. Next up is Endeavor 
with the Japanese Kibo Logistics Module and the Canadian Dextre 
Manipulator Arm. After that Discovery delivers the Kibo 
Pressurized Module. With these flights we are honoring our 
nation's commitments to our international partners on station 
and meeting the most prominent milestones of the program.
    Throughout four Presidential Administrations and over 20 
Congressional votes authorizing tens of billions of dollars for 
its development, the Space Station remains an established 
feature of U.S. space policy. Its development is the largest 
task ever performed by the civilian agencies of the United 
States or our international partners. Such international 
partnerships are an integral part of our next steps out beyond 
low-Earth orbit toward what President Kennedy called this new 
ocean.
    NASA is also taking the necessary steps to insure that 
space exploration is not simply all government, all the time. 
That is not the way the American West was developed, it is not 
how the greatest aviation system in the world was developed, 
and it ought not to be the way we develop the space frontier. 
Now is the time, and we are the people to make provisions for 
the contribution of the commercial space sector to our nation's 
overall space enterprise.
    I believe that we can open the ISS to purchases by NASA of 
cargo and crew services developed and provided by commercial 
entrepreneurs in companies both large and small. For this 
purpose NASA's budget for '09 provides $173 million to leverage 
private investments in developing and demonstrating commercial 
space transportation capability.
    Now, more than $2.6 billion is budgeted over the next five 
years to purchase cargo and crew services to support ISS 
operations. I would prefer to use as much of that as possible 
to purchase transportation services from American commercial 
companies rather than foreign entities.
    However, while I believe that we will have U.S. commercial 
cargo transport services over the next few years, along with 
European and Japanese capability, it is my carefully-considered 
assessment that U.S. commercial crew transport vehicles will 
not likely be available by 2012. The prospective purveyors of 
such services, of course, claim otherwise and actually I wish 
them all possible success. No one hopes more than I that they 
are right and I am wrong. But our ability to sustain the 
station cannot be held hostage to hope.
    Thus, given existing legislative restrictions, we will 
require explicit authorization by the Congress to make further 
extraordinary payments to Russia in order to provide crew 
transport to the station after 2011, for our astronauts, as 
well as those of our international partners to whom we have 
obligations.
    Chairman Gordon and the Members of this committee, we will 
need your help with this. NASA needs this legislative 
authorization in 2008, because Russia requires 36 months of 
lead time to fabricate new Soyuz vehicles, and thus we need to 
finalize contractual agreements late this year if we expect to 
fly in the spring of 2012. For reference, NASA's current 
contract with Russia is worth about $780 million through 2011.
    Now, I yield to no one in my belief that we need to 
minimize our dependence on the Russian Soyuz and protect 
against proliferation of weapons technology to our adversaries. 
It is dangerous to the United States to find itself dependent 
upon any external entity for a strategic capability, and space 
transportation is just that. I have been outspoken to the point 
of bluntness on this matter since being confirmed as 
Administrator in April of '05. I deplore the posture in which 
we find ourselves. It is unseemly in the extreme.
    But today there is no other viable option. We are today 
reliant upon the Russian Soyuz for the substance of the 
International Space Station. Because this is fact and because I 
am guided by facts, I am glad that there are Russian services 
to buy and that Russia is a member of the Space Station 
Partnership. Their participation gives the United States time 
to develop U.S. cargo and crew transport systems while 
preserving the tens of billions of dollars we have invested in 
the ISS. But we will need your help not only in supporting our 
budget request but also with legislation authorizing NASA to 
purchase Russian crew transport for the ISS after 2011.
    Some have suggested that this dilemma can be avoided by 
continuing to fly the Shuttle past the currently-planned 
retirement in 2010. I must be clear. We will remain dependent 
upon the Russian Soyuz System until a new commercial crew 
vehicle is qualified for orbital flights of six months duration 
or until the Ares and Orion Systems are deployed because the 
Soyuz provides emergency crew return for all astronauts and 
cosmonauts on-board ISS. Delaying space Shuttle retirement does 
not solve that problem. In fact, it exacerbates it.
    Money spent flying the Shuttle after 2010 is not available 
for Ares and Orion, which causes the gap between Shuttle 
retirement and deployment of new systems to grow, and with it 
the duration of dependence upon Russian systems.
    Further, I share the view of the Columbia Accident 
Investigation Board to which Mr. Feeney referred earlier and 
which the Columbia, the CAIB referred to as an inescapable 
conclusion, quoting: ``Because of the risk inherent in the 
original design of the Space Shuttle, because that design was 
based in many aspects on now obsolete technologies, because the 
Shuttle is now an aging system but still developmental, it is 
in the Nation's interest to replace the Shuttle as soon as 
possible as the primary means for transporting humans to and 
from Earth orbit.'' For this very reason the Board expressed 
dismay at how, ``previous attempts to develop a replacement 
vehicle for the aging Shuttle represent a failure of national 
leadership,'' and called for a rigorous vehicle safety re-
certification if the Shuttle were to be operated past 2010.
    So that brings us to today, with the budgetary resources 
currently projected, especially for the critical development 
years of '09, and '10, we can realistically forecast Ares and 
Orion becoming available in early 2015. That said, the 
engineering and design teams for Orion and Ares in Houston, 
Huntsville, Cape Canaveral, Cleveland, Denver, Norfolk, 
California, and many, many other parts of the country are 
trying to beat that prediction. And so, again, I hope they are 
right and I am wrong, but leaving budgetary issues aside, 
especially those in the next couple of critical years, the 
earliest date we could possibly bring Ares and Orion on line 
would be in the fall of 2013. And that would cost additional 
money.
    Now, the past several appropriation cycles have resulted in 
funding reductions for exploration in favor of other 
priorities. This has delayed our ability to bring these new 
systems on line. Because of the strategic importance of these 
first elements of the Constellation System, because of the 
unseemly posture of U.S. reliance on Russia for strategic 
capability, because American taxpayers are today paying Russian 
aerospace engineers to do work that should be done by 
Americans, because we will face growing competition from the 
advancing Chinese space program, and because we are in the 
middle of a difficult, once-in-a-generation transition from the 
Shuttle to a new human space flight system, I ask that Congress 
fully fund NASA's exploration effort. It is critical to our 
nation's leadership in space.
    Now, despite the demands of this once-in-a-generation 
transition, the budget request provides an appropriate balance 
between human space flight, Earth and space science, and 
aeronautics research. NASA is operating 55 science missions 
today, hearing into the farthest reaches of the universe, 
digging among the rocks of Mars, monitoring our sun's behavior, 
and conducting research on the causes and affects of global 
warming on our planet.
    The '09 budget provides $910 million over the next five 
years for high-priority Earth science missions as recently 
defined by the National Academy of Sciences. Our nation's 
investment in Earth science is paying dividends, and we are 
shifting funds from other science disciplines because of the 
recognition on the part of the public and policy-makers of the 
value of global warming research coming from NASA's Earth 
scientists.
    NASA's satellites supply more global climate change data 
than those of any other organization in the world, and we 
remain the largest contributor to the Interagency Climate 
Change Science Program. We plan to launch 14 new science 
missions in the next two years, and in late August or early 
September we plan to launch the much-anticipated final Space 
Shuttle servicing mission for Hubble. As these missions are 
completed, funds become available for new missions.
    That said, I must report to you per the NASA Authorization 
Act of 2005, major program reporting requirements, that NASA's 
current development cost estimate of about $325 million for the 
Glory Earth Science Mission has exceeded the 30 percent 
threshold and cost growth. Thus, it will require explicit 
authorization in the next 18 months to continue. Glory is a 
high-priority mission for Earth science, and I hope you will 
allow it to continue.
    In aeronautics we are aligning our research efforts with 
the many other agencies in the Federal Government also 
conducting such research. In partnership with a number of 
agencies of the JPDO we are conducting fundamental research on 
environmental safety and capacity challenges facing our 
nation's air transportation system. We are developing world-
class aeronautics expertise, and we are closely coordinating 
the use of our research and test facilities with that of other 
federal agencies. We are also pursuing innovative partnerships 
with commercial companies to better leverage private investment 
toward national goals in aeronautics and other areas.
    In conclusion, Chairman Gordon, Ranking Member Hall, I want 
to thank this Committee for its time and attention. We have 
many challenges, but I believe the greatest challenge we face 
is to maintain a unified purpose throughout the difficult 
transition from Shuttle to Constellation. Space exploration is 
not for the faint of heart nor for those who are easily 
distracted.
    I recently spoke at Calvin College in Grand Rapids where 
Congressman Vern Ehlers taught physics for 17 years. In that 
speech I explained how the leaders of the House Science and 
Technology Committee, whose pictures used to adorn these walls, 
spoke passionately of the need for a unifying space policy in 
the wake of the Space Shuttle Columbia loss. The President 
heeded that advice in issuing the Vision for Exploration, which 
after almost two years of informed debate, culminated in the 
NASA Authorization Act of '05.
    That legislation, enacted with strong bipartisan majority, 
codified into law the unifying vision called for by the 
Columbia Accident Investigation Board. I personally believe 
that it is the best civil space policy this nation has had 
since the time of Apollo. It provides a unified direction as to 
where we are headed, a sense of purpose, and a lasting legacy 
for the crew of Columbia and those among our nation's leaders 
who recognize the strategic importance of space exploration. 
Most importantly, it is the law of the land, and today we at 
NASA are turning that law into concerted action.
    Former Chairman of the House Science Committee, Congressman 
Bob Walker from Pennsylvania, framed the issue perfectly in a 
speech shortly after Columbia: ``For every generation choices 
are made that lead to greatness or to mediocrity.'' So it is 
all a matter of what each generation in its time here on Earth 
chooses to do with its energy, resources, and intellect.
    I want to thank this committee for having chosen a path 
that leads to greatness, and I ask for your help in staying 
that course.
    Thank you.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to appear today to discuss the President's FY 2009 budget 
request for NASA. The President's budget request for NASA is $17.6 
billion, a 2.9 percent increase over the net budget authority enacted 
for 2008, along with a steady, five-year runout commensurate with 
inflation. This increase demonstrates the President's commitment to 
funding the balanced priorities he set forth for the Agency in space 
exploration, Earth and space science, and aeronautics research. We are 
making steady progress in achieving these goals. I ask for your 
continued support as you consider the President's FY 2009 budget 
request for NASA.
    When I testified before this committee last year, I spoke about the 
Administration's balanced priorities for our nation's civil space and 
aeronautics research goals as set forth by the NASA Authorization Act 
of 2005 (P.L. 109-155) and the Vision for Space Exploration. NASA's 
mandate is clear, and the NASA Authorization Act of 2005, as well as 
the level of funding appropriated to NASA in FY 2008, tells me that 
Congress broadly endorses the balanced set of programs the Agency has 
put forward in this era of limited budget growth.
    I have said this in other forums, but it warrants repeating here: 
at present funding levels, NASA's budget is sufficient to support a 
variety of excellent space programs, but it cannot support all of the 
potential programs we could execute. No plan or level of funding can 
fully satisfy all the many constituencies we have. Balanced choices 
must be made. But they cannot continually be remade and revisited if 
there is to be steady progress toward our common, defined objectives.
    As the Columbia Accident Investigation Board noted, and as 
stakeholders acknowledged in ensuing policy debates, it would have been 
far worse to continue with the prior lack of strategic direction for 
human space flight, to continue dithering and debating and inevitably 
widening the gap between Shuttle retirement and the availability of new 
systems. Until and unless the Congress provides new and different 
authorization for NASA, the law of the land specifies that we will 
complete the International Space Station, retire the Shuttle, design 
and build a new space flight architecture, return to the Moon in a 
manner supporting a ``sustained human presence,'' and prepare the way 
to Mars.
    We are doing those things as quickly and efficiently as possible. 
System designs for the early elements have been completed, contracts 
have been let, and consistently solid progress is being made with a 
minimum of unexpected difficulty. True, the progress might be slower 
than all of us would prefer, but applying resources in the right 
direction, irrespective of pace, is always productive--and we are doing 
that. The Ares I Crew Launch Vehicle and the Orion Crew Exploration 
Vehicle, as they are presently taking form, are the building blocks for 
any American future beyond Low Earth Orbit (LEO).
    Given that this endeavor will be our first step beyond LEO for 
crewed spacecraft since 1972, I believe that bypassing the Moon to 
venture directly into deep space--a proposal some have suggested 
revisiting--poses unacceptable risk. Returning to the Moon and 
consolidating the gains to be made thereby will set us properly on the 
path toward Mars. I believe that the NASA Authorization Act of 2005 
remains the finest policy framework for United States civil space 
activities that I have seen in forty years. And, I thank this committee 
for its leadership role in crafting this legislation. I ask for your 
continued support and leadership as we progress toward achieving the 
worthy National objectives laid out in the Act.
    In the invitation to testify today, you asked that I be prepared to 
discuss NASA's initial FY 2008 Operating Plan, submitted to the 
Committee on February 1, 2008. I would be pleased to respond to any 
questions you may have on the details. In summary, the initial 
Operating Plan provides aggregate funding of $17.3 billion, at the 
level of the President's FY 2008 request. Pursuant to the rescission of 
$192.5 million in NASA unobligated balances in the Consolidated 
Appropriations Act, 2008 (P.L. 110-161), aggregate funding in NASA's FY 
2007 Operating Plan is reduced by $185.2 million, and prior year 
balances are reduced by $7.2 million. Implementation of direction in 
P.L. 110-161 has resulted in a total reduction of $620.9 million in 
planned NASA activities, consisting of the rescission of $192.5 
million, offsets for programmatic augmentations totaling $345.2 
million, and site-specific Congressional interest items totaling $83.2 
million. Finally, in accordance with Congressional direction, NASA has 
established seven Agency appropriations accounts in the FY 2009 budget 
request. As a result, the budgets for NASA's programs and projects are 
requested only in terms of direct costs, not the additional indirect 
costs associated with operating the Agency's field Centers, safety and 
mission success and Agency management and operations. The direct 
budgets will continue to reflect labor, travel, and procurement costs 
associated with each program and project. The indirect costs are now 
budgeted solely within the Cross Agency Support account, and not in the 
NASA programs and projects. We will strive to ensure that these changes 
are transparent to our stakeholders.
    I am appreciative of the action by the Committees on Appropriations 
and Congress in providing regular FY 2008 appropriations for the Agency 
at the level of the President's request, including essentially full 
funding for the Orion, the Ares I, the Space Shuttle, and the Space 
Station. This total FY 2008 appropriations level, with some adjustments 
within the total, will enable NASA to meet critical priorities in 
accordance with the direction from the Congress and the President.

Highlights of the NASA FY 2009 Budget Request

    I am pleased to report that the FY 2009 budget represents a 
substantial step forward in responding to the recommendations of the 
National Research Council's (NRC) first decadal survey of Earth 
Science, released in January 2007. The five-year budget runout requests 
$910 million for priorities enumerated in the report. Funding will 
support development of two Decadal Survey new mission priorities--the 
Soil Moisture Active/Passive (SMAP) mission scheduled to launch as 
early as 2012, and the Ice, Clouds, land Elevation Satellite II (ICESat 
II) scheduled to launch in 2015--as well as formulation of three 
additional decadal survey missions.
    Working closely with NOAA, we also are making significant progress 
toward restoring climate sensors that had been removed from the tri-
agency National Polar-Orbiting Operational Environmental Satellite 
System (NPOESS) in 2006. The FY 2009 budget request of $74 million for 
NOAA supports the addition of a Clouds and the Earth's Radiant Energy 
System (CERES) instrument onto NASA's NPOESS Preparatory Project (NPP) 
satellite, set to launch in 2010; instrument development and ongoing 
analyses to identify a suitable satellite platform for hosting the 
Total Solar Irradiance Sensor (TSIS); and development of climate data 
records. These actions, which will be implemented through close 
coordination between NASA and NOAA, come in addition to the inclusion 
of the Ozone Mapping and Profiler Suite (OMPS)-Limb sensor on the NPP 
satellite that was announced earlier in 2007.
    The Agency's FY 2009 budget request also reflects a number of 
exciting developments in the space sciences, including an increase in 
the number of new missions, a new initiative in lunar science and 
initiation of plans for high priority missions in Astrophysics and 
Planetary Exploration. The FY 2009 request includes an increase of $344 
million over five years for Lunar Science in order to better understand 
our Moon. NASA's Science mission directorate, with support from the 
Exploration directorate is developing two small lunar landers, and the 
Science Mission Directorate is initiating a series of new and exciting 
missions headed to the Moon over the next decade. Meanwhile, we are 
focusing our Mars program after 2013 on a Mars sample return mission to 
launch by 2020, and have identified funds to initiate development of an 
outer planets flagship mission to be selected in October of this year 
for launch by 2017. The budget also significantly increases Research 
and Analysis funds in the space sciences to gain better value from the 
missions we are flying, and so too, it increases the funding and, 
therefore, the flight rate of our sub-orbital rocket and balloon 
research programs in the space sciences.
    Our Aeronautics Research portfolio is positioned to address the 
challenges facing the Next Generation Air Transportation System, while 
also developing world-class aeronautics expertise and capabilities. 
Research is aligned with the National Plan for Aeronautics Research and 
Development and Related Infrastructure, approved by the President in 
December 2007. In FY 2009, we will conduct a key test to advance our 
understanding of aircraft aging and durability, and develop algorithms 
to optimize the use of crowded airspace and airports. We will continue 
work on blended-wing-body aircraft, which may reduce fuel consumption 
and emissions, as well as aircraft noise. Additionally, NASA's 
Aeronautics Research Mission Directorate continues to strengthen 
partnerships with academia, industry, and other government agencies to 
accomplish its strategic goals.
    NASA's commitment to its exploration objectives is clearly 
reflected in the FY 2009 budget request. As assembly of the Space 
Station nears completion, NASA will increasingly focus its efforts on 
continuing the development of the Orion Crew Exploration Vehicle and 
Ares I Crew Launch Vehicle. This budget request maintains Orion initial 
operational capability in March 2015, and full operational capability 
in FY 2016, though we are striving to bring this new vehicle on line 
sooner. In FY 2008, we will see the completion of the formulation phase 
for major elements of the Constellation program; both Orion and Ares I 
will undergo their preliminary design reviews. We will conduct the 
first Ares ascent development flight test with the Ares I-X in the 
Spring of 2009, and we will continue to conduct research and develop 
and test technologies through the Advanced Capabilities Human Research 
and Exploration Technology Development Program. The Lunar 
Reconnaissance Orbiter (LRO)/Lunar Crater Observation Sensing Satellite 
(LCROSS), an important part of NASA's lunar exploration strategy, is on 
track for launch at the beginning of FY 2009. The Agency is also 
requesting $173 million to provide incentives for entrepreneurs--from 
big companies or small ones--to develop commercial transport 
capabilities to support the International Space Station. With more than 
$2.6 billion in NASA funds available over the next five years to 
purchase cargo and crew services to support Space Station operations, 
our objective and strong preference is to use these funds to purchase 
these services from American commercial companies wherever possible.
    While I would prefer that the United States have domestic 
alternatives to purchasing crew transport services from Russia, I am 
glad that the Russians are our partners and have such capabilities, 
because the consequences if they were not available are far worse. If 
NASA astronauts were not on-board the Space Station, our National 
Laboratory in space simply would not survive. If there is no Space 
Station, there is no market for the commercial providers we are trying 
to help bring into existence, and our international partnership would 
simply fall apart. So in order to keep these objectives viable, NASA 
may need to obtain additional crew and cargo transport services from 
our international partners if U.S. commercial services are not yet 
demonstrated and available.
    In the area of Space Operations, NASA's FY 2009 budget request will 
allow us to continue to expand the Space Station, complete the 
supporting truss structure and solar arrays, and deliver the final 
component of the Japanese laboratory. This will round out the set of 
three space laboratories aboard the Station, with one each from the 
U.S., Europe, and Japan. In addition, FY 2009 will mark another 
milestone for the Space Station Program--for the first time, the 
Station will be able to support a full-time crew of six astronauts. 
With three major scientific facilities available to them, these larger 
crews will be busy as Station kicks off a new era in microgravity 
research aboard this National Laboratory in orbit. Critical to these 
achievements, the Space Shuttle is scheduled to fly four times in FY 
2009. During that year, NASA also plans to launch payloads on eight 
expendable launch vehicles. FY 2009 will also see the consolidation of 
the Deep Space, Near-Earth, and Space Communications networks into a 
unified Space Communications and Navigation (SCaN) architecture within 
the Space Operations Mission Directorate.
    NASA is continuing to transition from the Space Shuttle to new 
Exploration systems, and will need a complement of critical tools and 
authorities necessary for the transformed Agency to execute its 
mission. This transition is the largest and most daunting since the end 
of the Apollo program and the beginning of the Space Shuttle program. 
It dictates that we obtain the authorities needed to ensure sufficient 
support in the future. We hope to discuss the details of these 
legislative requests with Members of Congress in the weeks ahead.
    The remainder of my testimony outlines the FY 2009 budget request 
for NASA in greater detail.

Science Mission Directorate

    In 2007, NASA successfully launched four new orbital and planetary 
science missions (THEMIS, AIM, Phoenix, and Dawn), almost 20 sub-
orbital science missions, and two major airborne Earth science 
campaigns. This past year also saw the first test flights of the 
Stratospheric Observatory for Infrared Astronomy (SOFIA) 747 airborne 
infrared observatory, as well as the provision of rapid-response 
airborne remote sensing aid to the California wildfire emergencies. In 
addition, 2007 was a year of remarkable scientific discovery about the 
Earth, the Sun, the planets and the universe. For example, data from 
the Ice, Cloud, and land Elevation Satellite (ICESat), the Gravity 
Recovery and Climate Experiment (GRACE), and other satellites have 
provided dramatic new insights on ice sheet changes in Greenland and 
Antarctica. The Solar TErrestrial RElations Observatory (STEREO) 
satellites (A and B) have provided the first three dimensional images 
of the sun and the structures of the heliosphere. These new 3-D views, 
along with unprecedented observations from Hinode (Solar-B), NASA's 
Time History of Events and Macroscale Interactions during Substorms 
(THEMIS) mission, and the Aeronomy of Ice in the Mesosphere (AIM) 
satellite are revolutionizing knowledge of the variable Sun and its 
interactions with the Earth. Also, the Cassini spacecraft radar imagery 
of Titan revealed large lakes of methane in Titan's North polar region, 
indicating a hydrological cycle. Finally, a new map provides the best 
evidence to date that normal matter, largely in the form of galaxies, 
accumulates along the densest concentrations of dark matter. Mapping 
dark matter's distribution in space and time is fundamental to 
understanding how galaxies grew and clustered over billions of years.
    NASA's FY 2009 budget request provides $4.44 billion for the 
Agency's Science portfolio to study the Earth, our Sun and its 
heliosphere, our solar system, and the Universe. This funding enables 
NASA's Science Mission Directorate (SMD) to start major new missions, 
to increase research and analysis funding, and to operate and provide 
ground support for 55 operating science missions, including 13 Earth 
science mission extensions. It provides support for over 3,000 current 
operating research and analysis grants, while continuing to develop 
high priority missions in Earth Science, Heliophysics, Planetary 
Science and Astrophysics, consistent with the priorities established by 
the NRC's decadal surveys.
    Pursuant to requirements of the NASA Authorization Act of 2005 
(P.L. 109-555), and consistent with the latest notification provided to 
the Committee on February 11, 2008, NASA is in the process of producing 
more detailed reports on budget adjustments and schedule changes which 
have occurred since NASA submitted its FY 2006 and FY 2007 Baseline 
Reports under the Act. Detailed reports are in work and planned for 
submission to the Committee in March 2008 on Aquarius, Glory, Herschel, 
Kepler, NPP, and OCO. In addition, Glory has exceeded the 30 percent 
cost threshold triggering additional requirements as provided in the 
Act. Initial notifications are now in work under the processes 
established by act the Act for schedule changes for GLAST and SOFIA.
    The FY 2009 budget request for Earth Science provides $1.37 billion 
to help us better understand the Earth's atmosphere, lithosphere, 
hydrosphere, cryosphere, and biosphere as a single connected system. In 
addition to 14 operating missions, the request includes funding for 
seven missions in development. The Landsat Data Continuity Mission and 
Ocean Surface Topography Mission (to launch in 2008) continue the 
decades-long time series of land cover change and ocean surface height 
data, respectively. Glory targets the impact of aerosols on climate. 
The National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) Preparatory Project (NPP) paves the way for the future 
national weather system and continues essential measurements from the 
NASA Earth Observing System (EOS), Aquarius, and the Orbiting Carbon 
Observatory (OCO), set to launch in 2008. Aquarius and OCO will make 
the first-ever global measurements of ocean surface salinity and 
atmospheric carbon dioxide, respectively. The request specifically 
increases funding for OCO and the Aquarius missions to maintain 
development schedules. The Global Precipitation Measurement (GPM) 
mission will extend the rainfall measurements made by the Tropical 
Rainfall Measurement Mission (TRMM) to the global scale. The request 
retains the GPM core mission launch readiness date.
    The budget request responds to the Earth Science Decadal Survey by 
establishing a funding wedge of $910.0 million over the budget runout 
to initiate five new Earth Decadal Survey missions for launch by 2020, 
while continuing to implement seven precursor missions for launch 
between 2008 and 2013. NASA will continue to contribute to the 
President's Climate Change Research Initiative by collecting data sets 
and developing predictive capabilities that will enable advanced 
assessments of the causes and consequences of global climate change.
    The Heliophysics budget request of $577.3 million will support 
missions to understand the Sun and its effects on Earth, the solar 
system, and the space environmental conditions that explorers will 
experience, and to demonstrate technologies that can improve future 
operational systems. The request increases budgets for Sounding 
Rockets, Research Range, and Research and Analysis to achieve a more 
robust level of small payload opportunities. In addition to supporting 
16 currently operational missions, the request supports the 
Interstellar Boundary Explorer (IBEX) mission focused on the detection 
of the very edge of our solar system and the Coupled ion-Neural 
Dynamics Investigation (CINDI) ``Mission of Opportunity'' that will 
provide new insight on the Earth's ionospheric structure, both of which 
are planned for launch in 2008. In early FY 2009, the Solar Dynamics 
Observatory (SDO) to study the Sun's magnetic field is planned for 
launch, and the Geospace Radiation Belt Storm Probes (RBSP) mission 
will begin development. RBSP will improve our understanding of how the 
Earth's radiation belts are formed and how solar output modifies the 
Earth's Van Allen radiation belts. Further, the five-year budget funds 
a new Solar Probe mission which has long been sought by the U.S. 
scientific community and is recommended highly in the most recent 
Heliophysics decadal survey.
    The Planetary Science budget provides $1.33 billion to advance 
scientific knowledge of the solar system, search for evidence of life, 
and to prepare for human exploration. The budget supports an array of 
eight currently operating spacecraft and rovers traveling to or now 
studying Mercury, Mars, the Asteroid Belt, Saturn, and Pluto, in 
addition to a series of instrument missions of opportunity. The budget 
request augments Lunar Science to include a series of small robotic 
lunar satellites to begin development in FY 2009 and initiates an outer 
planets flagship mission, planned for launch in 2016 or 2017. The 
request includes continuation of funds for all five of NASA's operating 
Mars missions, the development of a Mars Science Laboratory in 2009 and 
a Mars Scout mission in 2013. The Mars Program is redirected to focus 
on the Mars Sample Return mission after the Scout 2013 opportunity, 
while expanding U.S. participation on the ESA/ExoMars mission by 
selecting two instrument Missions of Opportunity for study and 
technology development. With the New Horizons spacecraft continuing on 
its way to Pluto, the request realigns the New Frontiers Program's Juno 
Mission to Jupiter to be consistent with a 2011 launch date, and funds 
initiation of the next New Frontiers mission. An open competitive 
solicitation for the next mission is planned for release near the end 
of this calendar year. The request continues support for the operating 
Discovery mission and for the development of the new Gravity Recovery 
and Interior Laboratory (GRAIL) Discovery mission, the latter of which 
will use high-quality gravity field mapping of the Moon to determine 
the Moon's interior structure.
    The Astrophysics budget provides $1.16 billion to search for 
answers to fundamental questions about how the universe works, how we 
got here, and whether we are alone. The request supports a restart of 
the Nuclear Spectroscopic Telescope Array (NuSTAR) Small Explorer with 
a launch date of no-earlier-than 2011, increases funding for sounding 
rocket payloads, balloon payloads, detector technology and theory, and 
initiates the Joint Dark Energy Mission (JDEM) in FY 2009. The 
Astrophysics suite of operating missions includes three Great 
Observatories (Hubble Space Telescope, Chandra X-Ray Observatory and 
the Spitzer Space Telescope), which have helped astronomers unravel the 
mysteries of the cosmos. The request will support the Gamma-ray Large 
Area Space Telescope (GLAST), which is now planned for launch in May, 
2008, to begin a five-year mission mapping the gamma-ray sky and 
investigating gamma-ray bursts. It also provides funding for the Kepler 
telescope, which is planned for launch in February 2009, to detect 
planets in the ``habitable zone'' around other stars. SOFIA will begin 
science operations in 2009, significantly earlier than previously 
planned. The request supports development of the Wide-field Infrared 
Survey Explorer (WISE), which will conduct an all-sky survey, and the 
James Webb Space Telescope, which will explore the mysterious epoch 
when the first luminous objects in the universe came into being after 
the Big Bang.

Aeronautics Research Mission Directorate

    In 2007, the Aeronautics Research Mission Directorate (ARMD) 
continued to pursue high-quality, innovative, and cutting-edge research 
that develops revolutionary tools, concepts, and technologies to enable 
a safer, more flexible, environmentally friendly, and more efficient 
national air transportation system. ARMD's research also plays a vital 
role in supporting NASA's space exploration activities. ARMD's program 
content and direction is consistent with the National Aeronautics 
Research and Development Policy, as well as the follow-on National Plan 
for Aeronautics Research and Development and Related Infrastructure 
that the President approved on December 21, 2007.
    A primary goal across all of the programs in ARMD is to establish 
strong partnerships with industry, academia, and other government 
agencies in order to enable significant advancement in our nation's 
aeronautical expertise. NASA has put many mechanisms in place to engage 
academia and industry, including industry working groups and technical 
interchange meetings at the program and project level, Space Act 
Agreements for cooperative partnerships, and the NASA Research 
Announcement (NRA) process that provides for full and open competition 
for the best and most promising research ideas.
    ARMD has established over 35 Space Act Agreements with industry 
partners and more are in the works. We have ensured that all Space Act 
Agreements are negotiated so that results of collaborations will be 
broadly disseminated. To date, NASA has selected 346 proposals for 
negotiation of award through the NRA process from more than 70 
different universities and 60 different companies and non-profits. NASA 
investment in NRAs will increase steadily from FY 2009 ($72 million) 
through FY 2013 ($100 million).
    We have also strengthened our partnerships with other government 
agencies. For example, NASA and the Joint Planning and Development 
Office (JPDO) have established quarterly reviews to ensure close 
coordination, and NASA participates in all major JPDO planning 
activities. In addition, NASA and the Federal Aviation Administration 
have developed a joint program plan for the Aviation Safety Information 
Analysis and Sharing (ASIAS) effort with well defined roles and 
responsibilities. Also, NASA and the
    U.S. Air Force have established an Executive Research Council that 
meets at least twice a year to ensure close coordination and 
collaboration. Lastly, NASA and the Army have signed a Memorandum of 
Understanding to coordinate research efforts on rotorcraft.
    In FY 2009, the President's budget for NASA requests $446.5 million 
for Aeronautics Research. ARMD is directly addressing the fundamental 
research challenges that must be overcome in order to enable the JPDO 
vision for the Next Generation Air Transportation System (NextGen).
    NASA's Airspace Systems Program has partnered with the JPDO to help 
develop concepts, capabilities and technologies that will lead to 
significant enhancements in the capacity, efficiency and flexibility of 
the National Airspace System. In FY 2009, NASA's budget request will 
provide $74.6 million for the Airspace Systems Program to conduct 
trajectory analyses for service-provider-based automated separation 
assurance with time-based metering in an environment with two to three 
times capacity and with delay and separation comparable to or better 
than that achieved today. In addition, the Airspace Systems Program 
will develop algorithms to generate robust, optimized solutions for 
airport surface traffic planning and control. These surface models will 
be developed as a basis for the optimized use of super-density 
airports, integrated airport clusters, and terminals where demand for 
runways is high.
    NASA's Fundamental Aeronautics Program conducts research in all 
aeronautics disciplines that enable the design of vehicles that fly 
through any atmosphere at any speed. The FY 2009 budget request, 
amounting to $235.4 million, will enable significant advances in the 
Hypersonics, Supersonics, Subsonic Fixed Wing, and Subsonic Rotary Wing 
projects that make up the Fundamental Aeronautics Program. These 
projects focus on creating innovative solutions for the technical 
challenges of the future: increasing performance (range, speed, 
payload, fuel efficiency) while meeting stringent noise and emissions 
constraints; alleviating environmental and congestion problems through 
the use of new aircraft and rotorcraft concepts; and facilitating 
access to space and re-entry into planetary atmospheres. A wide variety 
of cross-cutting research topics are being pursued across the speed 
regimes with emphasis on physics-based multi-disciplinary analysis and 
design, aerothermodynamics, materials and structures, propulsion, aero-
servo-elasticity, thermal protection systems, advanced control methods, 
and computational and experimental techniques.
    The FY 2009 budget request for NASA's Aviation Safety Program is 
$62.6 million. The four projects within the Program (Integrated 
Intelligent Flight Deck, Integrated Resilient Aircraft Control, 
Aircraft Aging and Durability, and Integrated Vehicle Health 
Management) will develop cutting-edge tools, methods, and technologies 
with close coordination among them to improve the intrinsic safety 
attributes of current and future aircraft that will operate in the 
NextGen. In FY 2009, the Program will demonstrate aircraft engine 
safety and reliability improvements using advanced sensing technologies 
and new methods for modeling engine gas flow characteristics. In 
addition, ballistic tests will be used to study the effect of aging on 
the impact resiliency of composite fan-blade containment structures for 
aircraft engines.
    Multiple flight and simulation tests will evaluate technologies to 
protect aircraft during hazardous situations. For example, simulations 
will evaluate technologies enabling aircraft to land safely even when 
flight control surfaces are partially damaged or malfunctioning, and 
flight tests will examine forward-looking, multi-frequency radar 
systems for early detection of potential hazardous icing.
    Finally, NASA's Aeronautics Test Program (ATP) will continue to 
safeguard the strategic availability of a critical suite of aeronautics 
test facilities that are deemed necessary to meet Agency and national 
aeronautics needs. The FY 2009 budget request for the ATP is $73.9 
million, which will enable strategic utilization, operations, 
maintenance, and investment decisions for major wind tunnel/ground test 
facilities at Ames Research Center in California, Glenn Research Center 
in Ohio, and Langley Research Center in Virginia, and will support 
specific aircraft and test bed aircraft at Dryden Flight Research 
Center, also in California. ARMD has established the National 
Partnership for Aeronautical Testing with the Department of Defense to 
pursue a coordinated approach to managing DOD-NASA aeronautical testing 
facilities. In FY 2009, ATP will continue to reduce the deferred 
maintenance associated with its facilities and will also invest in new 
test technologies ensuring a healthy set of facilities and the new 
capabilities needed for future programs. In addition, ATP plans to 
continue off-setting the user rates for its facilities through the 
funding of a portion of the indirect costs resulting in competitive 
prices. Simultaneously, the Program will continue to move toward a 
long-term strategic approach that aligns the NASA and DOD facilities to 
meet future requirements with the right mix of facilities and 
appropriate investments in facility capability.

Exploration Systems Mission Directorate

    In 2007, the Exploration Systems Mission Directorate (ESMD) 
delivered as promised and will continue to do so in 2008. Major 
development work is underway; contracts are in place, and our future 
Exploration plan is executable. By the end of 2008, ESMD will see its 
first spacecraft launched from the NASA Kennedy Space Center, Florida. 
This Lunar Reconnaissance Orbiter (LRO) and the Lunar Crater 
Observation Sensing Satellite (LCROSS) will help NASA scout for 
potential lunar landing and outpost sites. Additionally, in 2008, NASA 
will continue to plan how best to transition any needed Shuttle 
workforce and infrastructure to the Constellation program.
    The FY 2009 budget request of $3.5 billion for Exploration will 
support continued development of new U.S. human space flight 
capabilities and supporting research and technologies, and will enable 
sustained and affordable human space exploration after the Space 
Shuttle is retired at the end of FY 2010. The budget request provides 
stable funding to allow NASA to continue developing our next-generation 
U.S. human space flight vehicles while also providing research and 
developing technologies for the longer-term development of a sustained 
human presence on the Moon. Budget stability in FY 2009 is crucial to 
maintaining a March 2015 Initial Operational Capability for the Orion 
Crew Exploration Vehicle and Ares I Crew Launch Vehicle. There is 
minimum flexibility through 2010, so Congressional support for budget 
stability is critical. Additionally, ESMD will continue to work with 
other nations and the commercial sector to coordinate planning, 
leverage investment, and identify opportunities for specific 
collaboration on lunar data collection and lunar surface activities.
    The FY 2009 budget request for Constellation Systems Program is 
approximately $3.0 billion. The Constellation program includes funding 
for the Orion and Ares, as well as for ground operations, mission 
operations, and extra-vehicular activity projects and a dedicated in-
house effort for systems engineering and integration. Last year, the 
Constellation program made great strides and it will continue to do so 
in 2008. We have tested real hardware; we have tested landing systems; 
and we have logged thousands of hours in wind tunnels. So far, NASA 
engineers have conducted almost 4,000 hours of wind tunnel testing on 
sub-scale models of the Ares I to simulate how the current vehicle 
design performs in flight. These wind tunnel tests, as well as NASA's 
first scheduled demonstration test flight for Ares I, known as Ares IX, 
are scheduled for spring 2009 and will lay the ground work for maturing 
the Ares I final design.
    Constellation has an integrated schedule and we are meeting our 
early milestones. In fact, all major elements of the Orion and Ares 
vehicles were placed under contract by the end of 2007. Currently, NASA 
has civil servants and contractors on board for the Constellation 
program serving at all ten Agency Centers, as well as in more than 20 
states. In 2008, NASA will continue efforts to define the specific work 
the Agency's Centers will perform in order to enable astronauts to 
explore the Moon. Preliminary work assignments covering elements of the 
Altair human lunar lander and lunar surface operations, as well as the 
Ares V, were announced in October 2007.
    During 2007, ESMD completed a series of key project review 
milestones, including a System Definition Review for the Orion project 
in August and for the Ares I project in October. During these reviews, 
each project examined how its proposed requirements impact engineering 
decisions for the functional elements of the system. The Orion and Ares 
I teams are currently assessing design concepts, and are moving toward 
finalized reference designs that meets their requirements. This 
reference configuration will be the starting point for the design 
analysis cycle that leads to Preliminary Design Reviews for the Orion 
and Ares I projects, in turn leading to an integrated stack review by 
the end of December 2008. A Preliminary Design Review is a crucial 
milestone, during which the overall program verifies that the 
preliminary design meets all requirements within acceptable risk limits 
and within the cost and schedule constraints.
    In FY 2009, NASA is requesting $173 million for the Commercial Crew 
and Cargo Program and its associated projects. Full funding is 
essential to maintaining NASA's promised $500 million investment in 
this program to spur the development of U.S. commercial space 
transportation services to and from the Space Station, while also 
providing substantial savings to the taxpayer compared to NASA 
government-owned and operated capabilities. Technical progress 
continues to be made by our remaining funded partner, as well by as 
several of our unfunded partners. NASA plans to sign a Space Act 
Agreement with a new funded partner in the coming weeks.
    The Agency's FY 2009 budget request provides $453 million for 
activities in ESMD's Advanced Capabilities theme, which seeks ways to 
reduce the risks for human explorers of the Moon and beyond by 
conducting research and developing and maturing new technologies. In 
2008, NASA's Human Research Program will focus on the highest risks to 
crew health and performance during exploration missions. We also will 
develop and validate technologies that serve to reduce medical risks 
associated with human space flight. For example, NASA will continue its 
work to understand the effect of space radiation on humans and to 
develop effective mitigation strategies. During 2008, NASA also will 
continue to research ways to reduce the risks to future explorers. 
Research on-board Space Station will include human experiments, as well 
as biological and microgravity experiments. In 2009, the Advanced 
Capabilities Exploration Technology Development program will conduct a 
range of activities, including testing prototype ablative heat shield 
materials; throttleable Lox Hydrogen engines suitable for a human lunar 
lander; and lightweight life support systems for Orion. The program 
also will deploy and test advanced environmental monitoring systems on 
the Space Station to advance the safety of crew members, and will 
continue to test in-situ resource utilization technologies as well as 
life support and cryogenic fluid management.
    In response to Congressional direction contained in the Explanatory 
Statement accompanying the Consolidated Appropriations Act, 2008 (P.L. 
110-161), ESMD will fund in 2008 a robotic lander project managed by 
NASA's Marshall Space Flight Center in Alabama as a path-finder for an 
anticipated network of small science landers based on requirements for 
NASA's expanded lunar science program. The first lander mission is 
planned to fly in 2013-2014. NASA's Exploration Systems and Science 
mission directorates will continue to work together combining resources 
to ensure that the goals of the science lander are achieved.
    NASA's LRO and the LCROSS have a planned launch later this year 
from Kennedy Space Center. These dual-manifested spacecraft are in the 
assembly, integration, and test phase and are making excellent progress 
toward launch. The knowledge generated by these missions will enable 
future outpost site selection and new information about resources 
within the permanently shadowed craters at the lunar poles. The LRO/
LCROSS missions represent NASA's first steps in returning to the Moon.
    Lastly, facility, infrastructure, property, and personnel 
transitions from Space Shuttle to Constellation continue to be a major 
activity. NASA transition activities are focused on managing the 
evolution from current operations of the Space Shuttle to future 
operations of Constellation and emerging commercial services, in a 
safe, successful and smooth process. To date, NASA has met all of its 
milestones and disposition targets. This joint effort between the Space 
Operations Mission Directorate and ESMD includes the utilization and 
disposition of resources, including real and personal property, 
personnel, and processes, to leverage existing Shuttle and Space 
Station assets for NASA's future Exploration activities. Formalized 
Transition Boards are working to successfully achieve this outcome. An 
initial Human Spaceflight Transition Plan was developed in 2006. An 
updated NASA Transition Plan, supported by key metrics, is being 
refined and will be released this year.

Space Operations Mission Directorate

    The Space Shuttle and Space Station programs both enjoyed a highly 
successful and productive year in 2007. The Space Shuttle flew three 
missions during the year, continuing the assembly of the Station and 
expanding its capabilities. The June 2007 flight of Atlantis on STS-117 
added a truss segment and new solar arrays to the starboard side of the 
Station to provide increased power. In August, Endeavour brought up 
another truss segment, supplies, and became the first Orbiter to use a 
new power transfer system that enables the Space Shuttle to draw power 
from the Station's solar arrays, extending the duration of the 
Shuttle's visits to Space Station. On the same mission, STS-118, 
teacher-turned-astronaut Barbara Morgan conducted a number of 
education-related activities aboard the Space Station, inspiring 
students back on Earth and realizing the dream of the Teacher In Space 
Project for which she and Christa McAuliffe trained more than two 
decades ago. In October 2007, Discovery flew the STS-120 mission, which 
added the Harmony node to the Station and featured a space-walk to 
disentangle a snagged solar array.
    The STS-120 mission paved the way for Station astronauts to conduct 
a series of ambitious space-walks and operations using the Station's 
robotic arm to move the Pressurized Mating Adapter-2 and Harmony node 
in preparation for the addition of the European Columbus laboratory and 
the Japanese Kibo laboratory in 2008. These space-walks are 
particularly challenging and impressive, as they are carried out 
entirely by the three-person Expedition crews, without benefit of 
having a Shuttle Orbiter, with its additional personnel and resources, 
docked to the Station.
    NASA looks forward to upcoming Space Shuttle missions and Space 
Station Expeditions in 2008, which will feature the delivery, docking, 
and activation of key scientific assets from two of our International 
Partners: the European Columbus laboratory, launched just last week 
aboard Shuttle Atlantis, and the pressurized module of the Japanese 
Kibo laboratory, to be launched in April. In addition, a major 
contribution from Canada, the Special Purpose Dextrous Manipulator--or 
Dextre--will be delivered to the Station, along with the Japanese 
Experiment Logistics Module, in March. Dextre, the final component of 
the remote manipulator system provided by Canada, will act as the 
``hand'' on the robotic arm, allowing astronauts to conduct operations 
and maintenance activities from inside the Space Station, rather than 
via space-walks. In late summer, the crew of STS-125 will become the 
final Shuttle crew deployed to a non-Station orbit, as they conduct the 
last Hubble Space Telescope servicing mission from the Space Shuttle. 
This mission will outfit the telescope with the Cosmic Origins 
Spectrograph and the Wide-Field Camera 3, as well as replace components 
to extend Hubble's operational life.
    The Space Shuttle FY 2009 budget request of approximately $3.0 
billion would provide for four Shuttle flights to support assembly of 
the Space Station. This would include the flight of the Japanese Kibo 
laboratory's Exposed Facility, and the delivery of the final Station 
Truss segment.
    The FY 2009 budget request includes about $2.1 billion for ISS 
International Space Station activities, reflecting the presence of a 
permanent six-person crew and three major research facilities aboard 
Station.
    After the Space Shuttle retires at the end of FY 2010, NASA will 
use alternative means to transport cargo and crew to the Space Station. 
The Agency's first choice for such services is domestic, commercial 
capability, the development of which is the focus of the Commercial 
Orbital Transportation Services (COTS) effort. ESMD is funding the 
first phase of COTS under the Commercial Crew and Cargo Program, which 
will demonstrate this capability via funded and unfunded Space Act 
Agreements. SOMD will manage the second phase of the effort, covering 
actual cargo--and potentially crew--delivery services to the Space 
Station. Until such time that operational commercial means are 
available for resupplying the Station, NASA will look to its 
international partners to provide cargo resupply capability, much of 
which will be provided as part of the partners' contributions to the 
International Space Station Program. NASA has contracted with Roscosmos 
to provide Soyuz and limited cargo services through the end of FY 2011, 
as permitted under the Iran, North Korea and Syria Non-proliferation 
Act of 2005 (P.L. 109-112). NASA is monitoring the progress of 
potential domestic commercial providers to develop cargo and crew 
transportation services to the Space Station, and the Orion project is 
on track to reach its Initial Operational Capability in March 2015. The 
Administration is considering options to maintain a U.S. crew presence 
aboard the Space Station after the retirement of the Shuttle and before 
the advent of Orion. Purchasing crew transportation services 
domestically is NASA's preferred method to meet the needs of the Space 
Station. Another option may be to seek relief from the provisions of 
the Iran, North Korea, and Syria Non-Proliferation Act of 2005 for 
additional Soyuz services to keep a U.S. crew presence on the Space 
Station until either domestic commercial crew transportation services, 
or Orion, become available. We will keep the Congress fully informed of 
our plans.
    NASA remains focused on, and committed to, flying out the remaining 
Space Shuttle missions safely and completing the assembly of the Space 
Station. Beyond those aims, one of the challenges NASA faces as we 
approach the end of the Shuttle era is the smooth disposition of 
personnel and infrastructure. SOMD and ESMD have been working hand-in-
hand to ensure that needed skills and facilities are retained and put 
to productive use during the development and operational phases of the 
Orion, Ares I, and Ares V projects. In FY 2009, the Agency's transition 
milestones will include the transfer of Pad 39B and Mobile Launch 
Platform #1 to Constellation, after the Hubble Servicing Mission. In 
addition, the Space Shuttle Program is reviewing whether the Space 
Shuttle Atlantis will be retired in FY 2008 or used to conduct existing 
missions within the planned manifest.
    The Space Flight Support Program's FY 2009 budget request of $733 
million would help mitigate outyear costs associated with the Delta II 
launch pads. The request also reflects the consolidation of the 
Agency's space communications projects into the Space Communications 
and Navigation Program. Finally, it includes funding for the 
development of two satellites to replenish the Tracking and Data Relay 
Satellite System, planned for launch in 2012 and 2013.

Education

    The FY 2009 budget request for Education totals $115.6 million and 
furthers NASA's commitment to Science, Technology, Engineering, and 
Mathematics (STEM) education. NASA's primary objectives for Education 
are to: (1) contribute to the development of the Nation's STEM 
workforce through a portfolio of initiatives for students at all 
levels; (2) attract and retain students in STEM disciplines while 
encouraging them to pursue higher education that is critical to NASA's 
workforce needs; and (3) engage Americans in NASA's mission through 
strategic partnerships with STEM education providers.
    NASA is committed to ensuring that its future workforce is fully 
prepared to handle a variety of challenging scientific and technical 
careers. NASA's Office of Education encourages student interest in STEM 
through the Agency's missions, workforce, facilities, and innovations 
in research and technology. The FY 2009 budget request reflects a 
balanced portfolio of investments which takes into account 
Congressional priorities, the NASA Strategic Plan, and recommendations 
from the National Research Council, as well as the priorities of the 
education community. NASA Education is the critical link between the 
Agency's scientists and engineers and the education community. NASA 
Education translates the Agency's missions into educational materials, 
services, and opportunities for students and learners of all ages. NASA 
strives to support the role of educational institutions, which provide 
the framework to unite students, their families, and educators for 
educational improvement.
    In 2008, NASA's Office of Education will continue to collaborate 
with Agency mission directorates and field Centers to assist educators 
in promoting scientific and technical literacy while attracting and 
retaining students in STEM disciplines and careers. NASA Education will 
also continue its work with other Federal agencies engaged in 
educational activities, along with public and private partners to 
leverage the effectiveness and reach of its efforts.

Cross-Agency Support

    The FY 2009 budget request for activities within Cross-Agency 
Support includes funding for developing and maintaining NASA's 
technical capability including the Agency's vital mission support 
functions. Cross Agency Support provides a focus for managing technical 
capability and Agency mission support functions. This budget area 
consists of three themes: Center Management and Operations; Agency 
Management and Operations; and, Institutional Investments. Cross Agency 
Support is not directly identified or aligned to a specific program or 
project requirement but is necessary to ensure the efficient and 
effective operation and administration of NASA.
    The most significant change is in the area of Agency Management and 
Operations. Agency Management and Operations provides for the 
management and oversight of Agency missions and functions and for the 
performance of many Agency-wide activities. Agency Management and 
Operations is divided into five programs: Agency Management; Safety and 
Mission Success; Agency Information Technology services; Innovative 
Partnerships Program; and, Strategic Capabilities Assets Program.

        <bullet>  The FY 2009 budget request provides $414.6 million 
        for Agency Management which sponsors and supports an executive-
        based, Agency-level functional and administrative management 
        agenda. Agency Management delivers policies, controls, and 
        oversight across a range of functional and administrative 
        management service areas and also provides for independent 
        technical assessments of Agency programs. It delivers strategic 
        planning services. It assesses and evaluates NASA program and 
        mission performance. It sponsors and directs the Institutions 
        and Management agenda in procurement, human capital, real 
        property and infrastructure, security and program protection, 
        diversity, equal opportunity, and small business. Agency 
        Management also provides for the operational costs of 
        Headquarters as an installation, including salaries, benefits, 
        training and travel requirements of the Headquarters workforce, 
        as well as the resources necessary to operate the Headquarters 
        installation.

        <bullet>  The FY 2009 budget request provides $163.4 million 
        for Safety and Mission Success activities to provide the 
        critical resources required to strengthen and enable the 
        fundamental and robust cross checks applied on the execution of 
        NASA's mission. The engineering; safety and mission assurance; 
        and health and medical independent oversight and technical 
        authority which are essential to NASA's success and were 
        established in direct response to recommendations of the 
        Challenger and Columbia Shuttle accident board recommendations 
        for independent funding of these efforts. The Safety and 
        Mission Success program directly supports NASA's core values 
        and serves to improve the likelihood for safety and mission 
        success for NASA's programs, projects, and operations. Safety 
        and Mission Success includes the corporate work managed by the 
        offices of the Chief Safety and Mission Assurance (including 
        the NASA Safety Center), Chief Engineer (including the NASA 
        Engineering and Safety Center), the Chief Health and Medical 
        Officer, and the Director of the Independent Verification and 
        Validation Facility.

        <bullet>  The FY 2009 budget request for Agency Information 
        Technology services is $163.9 million which encompasses cross-
        cutting services and initiatives in IT management, 
        applications, and infrastructure necessary to enable the NASA 
        Mission and improve security, integration and efficiency of 
        Agency operations. In FY 2009 significant emphasis will be 
        placed on consolidation of networks and network management, 
        improved security incident detection, response and management, 
        further consolidation of desktop/laptop computer services, data 
        center assessment for consolidation, and application portfolio 
        management leading to consolidation. NASA is using an 
        enterprise architecture approach to assess current assets, 
        capabilities and costs for services and developing 
        requirements, projects and procurements for transition to the 
        desired consolidated state. Additionally, the underlying 
        infrastructure and systems to instill strong authentication and 
        access to information systems in alignment with HSPD-12 will 
        progress significantly in FY 2009. Critical work will continue 
        under the Integrated Enterprise Management Program to improve 
        business processes by minimizing data redundancy, standardizing 
        information and electronic data exchanges, and processing. 
        Also, NASA will continue participation in several federal E-
        Government initiatives and Lines of Business to improve 
        services to citizens and gain efficiencies across the 
        government.

        <bullet>  The FY 2009 budget request for Innovative 
        Partnerships Program activities is $175.7 million. This program 
        provides leveraged technology investments, dual-use technology-
        related partnerships, and technology solutions for NASA. This 
        program also facilitates the protection of NASA's rights in its 
        inventions and the transfer of that technology for commercial 
        application and public benefit. In addition, the Innovative 
        Partnerships Program implements NASA's Small Business 
        Innovation Research and Small Business Technology Transfer 
        Programs which seek out high-technology small businesses to 
        address key technology needs for NASA. The program also manages 
        a Seed Fund to address technology needs through cost-shared, 
        joint-development partnerships. The Centennial Challenges 
        Program, which is also managed by the Innovative Partnerships 
        Program, consists of prize contests to stimulate innovation and 
        competition in new technologies for solar system exploration 
        and other NASA mission areas. NASA has already benefited from 
        Centennial Challenge competitions, and last year awarded 
        $450,000 in prize money for the Astronaut Glove Challenge and 
        Personal Air Vehicle Challenge. The Innovative Partnerships 
        Program also transfers NASA technology for public benefit, as 
        documented in NASA's annual ``Spinoff'' publication. ``Spinoff 
        2007'' documented 39 new examples of how NASA innovation has 
        been successfully transferred to the commercial market place 
        and applied to areas such as health and medicine, 
        transportation, public safety, consumer goods, homes and 
        recreation, environmental and agricultural resources, computer 
        technology, and industrial productivity.

        <bullet>  Finally, NASA is requesting $28.0 million in FY 2009 
        for the Strategic Capabilities Assets Program, a focused 
        activity designed to ensure that critical Agency capabilities 
        and assets for flight simulation, thermal vacuum testing, arc 
        jet testing, and microgravity flight services are available to 
        NASA missions when needed. Strategic Capabilities Assets 
        Program assets are also used by other government agencies, 
        industry, and academia to improve the Nation's position in the 
        global market place as well as its defense capabilities. The 
        Strategic Capabilities Assets Program budget request covers the 
        direct and associated costs required to sustain key test 
        capabilities and assets including operating staff, preventive 
        maintenance, subsystem repairs, and component replacements 
        required to keep the assets in ``ready for testing'' condition. 
        Incremental costs to conduct specific tests are borne by 
        individual programs and reimbursable customers. The Aeronautics 
        Research Mission Directorate budget request includes $73.9 
        million for the Aeronautics Test Program (e.g., wind tunnels 
        and flight testing) and the Science Mission Directorate budget 
        request includes $41.9 million for High-End Computing 
        Capability (e.g., the Columbia super computer), which are also 
        managed as Strategic Capabilities Assets. Centralized 
        management at the Agency-level allows NASA to better prioritize 
        and make strategic investment decisions to replace, modify, or 
        disposition these capabilities and assets.

Conclusion

    NASA has a lot of hard work ahead, but the Agency continues to make 
steady progress in managing its challenges. We are deploying our 
workforce to carry out the great task before us. Last fall, the Agency 
assigned new leadership roles and responsibilities for exploration and 
science missions to NASA's ten field Centers across the country in 
order to help restore the core technical capabilities across the Agency 
as we transition from the Space Shuttle to new capabilities. I ask your 
continued help to ensure that this nation maintains a human space 
flight capability.
    In a short span of years, we have already taken long strides in the 
formulation of strategies and programs that will take us back to the 
Moon and on to Mars and other destinations in our solar system. Indeed, 
a generation from now, astronauts on Mars will be flying and living 
aboard hardware America is funding and designing today, and will be 
building in the near future. This is a heady legacy to which we can 
aspire as we develop the next U.S. human space exploration vehicles. 
The foundation of this legacy will include work we plan to carry out in 
FY 2009.
    As I said earlier in my testimony, NASA is committed to executing 
the exciting programs and projects within the President's FY 2009 
budget request. Having reached a steady state on a balanced set of 
priorities, we now have a sense of purpose to make steady progress 
toward achieving our goals for continued leadership in space 
exploration, scientific discovery, and aeronautics research.
    Chairman Gordon, with your support and that of this committee, we 
are making the right strategic choices for our nation's space program. 
Again, thank you for the opportunity to appear before you today. I 
would be pleased to respond to any questions that you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Gordon. Thank you, Dr. Griffin, for your testimony 
and more importantly for your service to our nation.
    In respect of your time we are going to try to do a tag 
team. Mr. Udall and Mr. Feeney have already gone. We are going 
to temporarily adjourn, which I hope is no more than two or 
three minutes, as they come back, and then we are going to go 
vote, and we will be back.
    Dr. Griffin. As always I am at your----
    Chairman Gordon. So let us just, everybody stay tuned, and 
we will hopefully in just in a matter of two or three minutes 
be started again.
    Dr. Griffin. Yes, sir.
    [Recess.]

                          Aeronautics Funding

    Mr. Udall. [Presiding] The Committee will come back to 
order. I would note for everybody who is here that Ranking 
Member Feeney and others have informed me that we will see a 
series of procedural votes throughout the rest of this hearing, 
so we are going to proceed with questions for Dr. Griffin, and 
hopefully everybody here, the Members here will have a chance 
to direct their questions.
    Dr. Griffin, I will yield myself five minutes.
    Dr. Griffin, as you know, I have long been concerned about 
the state of NASA's aeronautics programs, especially those 
focused on aviation safety and on improving the efficiency of 
the Nation's air traffic management system. The erosion of the 
aeronautics budgets over the last seven years or more calls 
into question the ability of NASA to continue to make 
significant contributions to either of those important areas.
    That is not just my view. It is a warning voiced repeatedly 
by multiple hearing witnesses over the last several years. As I 
look at the '09 budget request, I am struck by the fact that 
all three of the main NASA aeronautics research accounts, that 
is Aviation Safety, Airspace Systems, and Fundamental 
Aeronautics are each essentially flat over the next five years. 
That to me is a keep-alive strategy driven by inadequate 
budgets rather than a strategy that is geared toward 
identifying the key challenges facing aviation and building R&D 
programs and budgets to address those challenges.
    So let me do this. Let me ask you if you were to receive 
additional funding from Congress, aeronautics funding, because 
obviously you aren't going to get it from this ONB, what would 
you consider to be the highest priority for those additional 
funds; aviation safety, next gen air transportation systems 
support, or something else?
    Dr. Griffin. Thank you. Sir, I would want to provide a 
detailed answer on that for the record because our program does 
not contemplate the addition of funds to it. But loosely 
speaking I would offer that I know that we are meeting in 
conjunction with the FAA and our other partners all of our 
obligations on NextGen. There is always more research to be 
done, but the FAA will tell you that NASA is meeting its 
obligations to the JPDO on NextGen.
    Aviation safety is, again, a well-funded program. We are 
doing numerous activities in cooperation with the FAA on 
aviation safety. I am pretty happy with that.
    So I would probably put additional money into fundamental 
aeronautics research to get at the underlying aeronautical 
science advances. I was thrilled with our work on blended wing 
body systems last year and the potential advantage that such a 
system has to increase efficiency, reduce emissions, enhance 
safety, provide quieter rides, all of those things for future 
air transport. Fundamental aeronautics and NASA could, one 
could always do more work with more money.

                            Climate Research

    Mr. Udall. Well, thank you for peering over the horizon for 
the Committee, and I do agree that investment in more 
fundamental research would really pay dividends.
    Let me turn to climate research. I am encouraged by your 
plans to start work on the, to the high-priority Earth science 
missions recommended by the National Academies, and I am also 
glad to hear that at last there appears to be some progress on 
finding homes for the climate instruments that have been 
removed from NPOESS spacecraft as you are well aware.
    However, I am unclear about NASA's plans for at least one 
of those instruments, the total solar irradiance sensor. I 
think it is also known by its acronym, TSIS, and specifically 
can you tell me when a decision will be made as to how and when 
the TSIS instrument will be flown, what is driving the decision 
on where to manifest the instrument, what is your 
responsibility, NASA's that is, regarding the instrument, 
especially in 2008 and 2009 fiscal years? What is the status of 
the instrument development team, is the team fully funded, and 
if so, have those funds actually been dispersed yet to the 
team? And when does the instrument, the TSIS instrument, need 
to fly in order to avoid data gaps in the total solar 
irradiance measurements?
    A lot of question. Thank you for dealing with all of them.
    Dr. Griffin. That is a lot of questions. Yes, sir. And to 
answer all those in an appropriate fashion I will again provide 
a detailed answer on the record. Let me give you, again, a top-
level summary.
    Our immediate priorities are to fly VIRS and CERES 
instruments, the highest priorities that we have. TSIS is 
important. The measurements that it makes is critically 
important, but we have ongoing other ways to make that 
measurement so that the flying of TSIS by itself is not our 
immediate highest priority.
    The instrument development team is funded at a lower level, 
of course, than they would like, but it is funded, and we are 
looking for the right flight for TSIS. We haven't found it yet. 
We will identify that to you as soon as we can, but, again, I 
want to close the summary answer here by saying that the 
continuity of the measurement is, that TSIS makes is what is 
most important. We have other sensors which are going to insure 
the continuity of this particular measurement, and so the exact 
date on which we fly TSIS is not our first priority at the 
moment.
    Mr. Udall. Thank you, Dr. Griffin. The Chair is honored and 
excited to recognize the Ranking Member of the Full Committee, 
Mr. Hall, Judge Hall, from the great State of Texas.
    Mr. Hall. Any Udall is all right with me. Chairman, thank 
you.

                    The Future of Human Space Flight

    Mike, NASA has given us a good plan to replace the Space 
Shuttle with the Ares 1 for crew access to space and later add 
the Ares 5 for heavy cargo to space, and it is a plan that I 
support and which the Congress has agreed to. Nonetheless, 
there are a lot who continue to second guess this architecture 
and suggest that we might be able to use one of the existing 
Atlas 5 or Delta 4 launchers to take our crews into space.
    I know NASA has looked at this closely, and I am sure you 
have made the right decisions, but would you summarize again 
for us the factors that led NASA to conclude that a new launch 
vehicle was needed for the Orion spacecraft? And go slow where 
even I can understand it.
    Dr. Griffin. Yes, sir. I have dealt with this question a 
lot. At the top level, let me point out what is at issue here. 
At the top level, I think we need to recognize that it is not a 
question----
    Mr. Hall. You know, you cause that bell to ring for some 
reason. I don't know how that happens.
    Dr. Griffin. I must.
    Mr. Hall. But go ahead.
    Dr. Griffin. It is not a question of whether we are going 
to use a new system for Constellation or an existing system. If 
that were the trade, I would be on the side of using the 
existing system. What has not been recognized is that there is 
no system today which can meet the Constellation requirements.
    So the question is are we going to upgrade the EELV family 
to meet Constellation needs, or are we going to upgrade the 
Shuttle-derived family to meet Constellation needs? No system 
in existence today can meet our needs. So the question is would 
we use a Shuttle-derived architecture or an EELV-derived 
architecture. When we examined the situation closely, it turned 
out that the lowest-risk solution, the highest-performance 
solution, and the lowest-cost solution was obtainable by using 
our Shuttle hardware heritage as opposed to our EELV hardware 
heritage. There is nothing wrong with either system, but when 
the issues of performance, cost, and risks are considered, the 
Shuttle-derived won.
    I think that is the kind of decision that you would want me 
to make.
    Mr. Hall. Let me go a step further and ask a quick 
question. I think yesterday in California there was a group of 
leading space, I guess so-called space policy experts. They may 
be experts, discussing the direction and content of vision for 
space exploration. They are particularly critical about using 
the Moon as an interim step for eventually traveling to Mars. 
Would you care to share any thoughts about the need for a lunar 
program since we have been there----
    Dr. Griffin. Well----
    Mr. Hall.--more than once?
    Dr. Griffin.--yes, sir. I am always intrigued by the idea 
that since we have spent a few days on the Moon that the place 
is now uninteresting for all future time and that we should 
ignore it and head straight for Mars. So first of all, I 
believe that people will find the Moon to be an exciting and 
interesting place for human beings in the future, and I 
strongly support its inclusion as an appropriate destination 
for humans, as I do Mars.
    The argument that this group of space policy experts is 
putting forth comes down fundamentally to one about the choice 
of destinations. They do not see the Moon as a valuable 
destination. I do. They would prefer that the funds that we are 
presently allocating toward returning to the Moon and then 
going to Mars be utilized to put large telescopes near one of 
the Lagrange points to visit near-Earth asteroids and to go 
more quickly to Mars.
    I regard that as foolish frankly. The Moon is three days 
and a quarter million miles from home. When we return to the 
Moon, we will not have been there for 50 years. The Lagrange 
points, even granting as I absolutely do, their immense value 
as sites to host large telescopes, are a million miles away and 
weeks away from home going and coming. The near-Earth 
asteroids, which I also am interested in and believe should be 
an appropriate destination, are many months away from home, and 
Mars is further yet.
    So a correctly-orchestrated space program would take us 
outward from Earth orbit to the nearest possible destination, 
which is the Moon, and then would take us outward from there to 
successively farther destinations as we consolidate our 
capabilities and consolidate our gains. That is the program we 
have in place. That is the program that this Congress passed in 
the 2005 Authorization Act. It is the properly-arranged 
program.
    So I just--I cannot agree with so-called space policy 
experts who believe that the Moon is not an appropriate goal 
for our exploration efforts.
    Mr. Hall. I saw Buzz Aldrin just a little bit ago, and he 
sure doesn't look like a guy that 40 years ago that he was up 
there. He must have been five when we sent him up.
    Dr. Griffin. Buzz is my hero. I wish to be in his condition 
at that age.
    Mr. Hall. Mine, too. I wished he would have stepped off 
first, and I think he was scheduled to. He says he was.
    Dr. Griffin. But anyway, let us move past that one.

                         Russian Transportation

    Chairman Gordon. Thank you, Mr. Hall. We will let the bells 
continue. Once again, Dr. Griffin, we are going to do a tag 
team here.
    In your testimony you spent a lot of time discussing the 
need for Russian transportation after the 2011, during this gap 
period.
    Dr. Griffin. I did, sir.
    Chairman Gordon. And you also talked about how you are 
going to be, move forward with the negotiated contract and that 
you can't do that without some change in the Korean and Syrian 
Non-Proliferation Act. So do you expect the Administration to 
send us a formal request for that legislative action?
    Dr. Griffin. Yes, sir. My comments today were in the nature 
of a heads up.
    Chairman Gordon. The Administration will be sending 
something?
    Dr. Griffin. I hope so. I have initiated those 
conversations within the Administration. It is my intent to 
seek such a request, coordinate. Obviously it requires a 
coordination among many agencies, but I intend to do everything 
I can to press it forward simply because of the timelines 
involved. As I point out, our authorization to utilize Russian 
services expires in 2011.
    Chairman Gordon. Right. You made that point.
    Dr. Griffin. So if we want to fly in----
    Chairman Gordon. I understand that but----
    Dr. Griffin. Okay. Yes, sir.
    Chairman Gordon.--to be successful you are going to have to 
have this initiated from the Administration.
    Dr. Griffin. That is correct, sir. And I intend to press 
for that.
    Chairman Gordon. Okay.
    Dr. Griffin. I do not have that authorization yet. I intend 
to----
    Chairman Gordon. And when would you expect that you would 
have that?
    Dr. Griffin. I need it by this summer.
    Chairman Gordon. No, no, no. I mean, when would you expect, 
when there is a timeframe, when would you expect the 
Administration to decide this was worthy and then to make the 
request?
    Dr. Griffin. I don't know.
    Chairman Gordon. When do you think it would be too late if 
they didn't?
    Dr. Griffin. It needs to be done within this 
Administration, so prior to next January.
    Chairman Gordon. And through the legislative process also.
    Dr. Griffin. Yes, sir.

              Impact of Funding Shortfalls on ISS Program

    Chairman Gordon. Okay. Dr. Griffin, as you know, NASA has 
been forced to operate in a very constrained budgetary 
environment in recent years as we have discussed today. I want 
to make sure that this committee is aware of any areas in this 
budget request that there are funding shortfalls that a future 
Administration and Congress will need to deal with.
    In that regard, how confident are you that sufficient 
funding has been set aside in NASA's five-year runout budget to 
pay for the ISS crew and cargo transportation?
    Dr. Griffin. Wow. That calls for a conclusion of the 
witness, which as a former prosecutor I think you are familiar 
with. Let me offer you the range of possibilities if I might.
    In March of '07, we did, in the course of preparing the 
Space Station Utilization Plan that this committee asked for 
and which we have furnished you, we did a very careful 
assessment of crew and cargo requirements, and to utilize the 
station after it is assembled, we came up with a range from 
32.5 metric tons to just under, call it 45 metric tons of 
cargo, depending on the degree that the U.S. laboratory is 
utilized. If it is fully utilized, it is the 45 metric tons, 
and if it is less, though, it would be 32 metric tons.
    The, I don't want to quote specific numbers, because it 
affects procurement actions, but I can phrase it this way: If 
we utilize the station only at the low end of our estimates, 
then future commercial procurements of cargo would have to do 
no worse than we are doing today at a time when, of course, we 
will be in much more of a hostage situation than we are today. 
Today we have alternatives and after the Shuttle is retired, we 
won't.
    So looking forward at the minimum possible utilization of 
the station with 32 metric tons of cargo, looking past 2010, we 
would have to do at least as well as we are doing today for a 
contractual price. If we are fortunate enough, as I hope we 
would be and I know you are, too, to get a heavy utilization of 
the station, then at the 45 metric ton level, then we would 
have to do somewhat better in the outyears than we are doing 
today with our commercial procurement of cargo. And I don't 
consider that to be very likely.
    Chairman Gordon. So----
    Dr. Griffin. I hope I was clear without quoting numbers 
that I don't want to quote in public.
    Chairman Gordon.--to avoid either significant additional 
funds or cannibalizing other programs, everything has to go 
just right, no inflation, and the Russians have to not take 
advantage of their hostage position.
    Dr. Griffin. Or other potential suppliers in that same 
timeframe. Yes, sir. That would be correct.

                          Chinese Lunar Plans

    Chairman Gordon. I think it might be beneficial, Dr. 
Griffin, we had a conversation yesterday at which time I said 
to you that approximately three years ago when we were 
discussing the ability of China to get to the Moon and a 
timeframe, that you somewhat poo-poo'd their ability, that they 
did not have the infrastructure, and you really weren't 
particularly concerned about that.
    Have you changed your, I won't say changed. Has your 
opinion been more informed, or have you gained additional 
information, and what is your thought about that situation now?
    Dr. Griffin. I have gotten a lot of questions on that 
lately, sir, and I would be happy to answer this one. And I 
don't mind if you say that I changed my mind. I often do that 
in response to new data.
    Chairman Gordon. Yes. Sure. Which is--there is nothing 
wrong with that.
    Dr. Griffin. You are correct. A few years ago I was not 
particularly concerned about Chinese primacy in human space 
flight relative to that of the United States. Since then their 
accomplishments, as well as their stated plans, combined with 
my visit to China, combined frankly with an assessment of what 
is available from open sources on the Internet, lead me to 
believe----
    Chairman Gordon. Dr. Griffin, if you don't mind, again, we 
are trying to accommodate your time. We are going to go, I 
think this is important for the broader view for us to know. We 
are going to have to go vote, and Mr. Hall had a question 
first.
    Mr. Hall. Would you say that you are less poo-poo'd toward 
China now than you were?
    Dr. Griffin. Yes, sir, I would, and I am, I can extend my 
time here to as long as you need.
    Chairman Gordon. No. I think as long as there are 
questions, but I hate for there to be gaps.
    Mr. Lampson will take over, and I wish, if you would, 
please, so, for the broader audience to complete that answer.
    Dr. Griffin. Complete that answer. I will do so, sir.
    So, and as I was saying, as well as an assessment of what 
is available from open sources, in particular the capability of 
the Long March 5 and the Chinese dual launch processing 
capability that they have already demonstrated, I have become 
convinced that it is possible for China to mount a human lunar 
mission toward the end of the next decade and quite possibly 
before we are able to return. I can provide that, the analysis 
that leads me to that conclusion for the written record if you 
would like. There is nothing in it which is classified or in 
any possible way, so if you would like that analysis for the 
written record, I can provide it.
    Mr. Lampson. [Presiding] I think it would be appropriate--
--
    Dr. Griffin. Okay.
    Mr. Lampson.--for us to have that.
    Dr. Griffin. I would be happy to do that. And in summary, I 
think that a human lunar mission is clearly within Chinese 
capabilities by a decade from now should they choose to do it, 
and their own outline of plans convinces me that they may well 
be. [See Appendix 2: Additional Material for the Record.]
    Mr. Lampson. I think it is something that we need to take a 
special note of, and my opinion, what I believe personally that 
we may be in a bigger period of challenge today than what we 
were in 1957. We just don't hear the beeps. Somehow or other we 
have got to start hearing them before they become a roar.
    I think his time has expired, and I got those words in 
under his time, and I will recognize myself for five minutes 
and continue questioning Dr. Griffin.
    Again, I, too, want to add my welcome.
    Dr. Griffin. Thank you.

                    The Alpha Magnetics Spectrometer

    Mr. Lampson. I want to turn our attention to the alpha 
magnetics spectrometer about which we have had many 
conversations, and I know that you know that I believe that it 
is not only an important scientific research initiative but one 
that represents a significant international scientific 
collaboration. And so I have got a whole long series of 
questions, and if you will keep them as short as possible, I 
will try to get through them as easily as we possibly can.
    But how important do you believe it is for the United 
States to be seen as a reliable partner in international 
scientific undertakings such as this?
    Dr. Griffin. I know where this is going. I will try to be 
short with my answers. I am well on record as believing that 
when the United States makes commitments, they should be kept.
    Mr. Lampson. And obviously believing that, would you also 
agree that NASA should strive to meet its commitment to the 
International AMS Partnership if a practical way can be found 
to do so?
    Dr. Griffin. I, again, of course, we should strive to meet 
our commitments if it is possible to do so.
    Mr. Lampson. Congress hasn't yet received the, NASA's 
report on the AMS Project that was requested in the 
appropriation, and speaking as an engineer with many years 
experience in various space projects, what do you think would 
be the lowest cost, lowest risk way to deliver the AMS 
experiment to space in a timely manner?
    Dr. Griffin. The report that you seek is awaiting clearance 
within the Administration. It will be provided to you as soon 
as we can do it. But to answer your question directly, the AMS 
was designed to go on-board a Space Shuttle, and that is the 
clearly lowest cost, most straightforward, lowest risk approach 
to putting it on orbit. I mean, other means are possible, but 
that is the most straightforward way. [See Appendix 2: 
Additional Material for the Record for the report on the AMS.]
    Mr. Lampson. Okay. Do you have the authority to add an 
additional Shuttle flight to the manifest on your own, or would 
you need to be directed to do so?
    Dr. Griffin. I do not have that authority. If I had that 
authority, I would have added the Shuttle flight, and we would 
not be having this discussion.
    Mr. Lampson. Consequently, if you lack that authority to 
add the Shuttle space flight on there, who would need to direct 
you to do so? OMB or Congress?
    Dr. Griffin. Well, OMB does not provide direction to NASA. 
OMB provides advice to the President, who directs NASA.
    Mr. Lampson. So it would be----
    Dr. Griffin. Of course, superceding even that is the law of 
the land. Now, the budget that Congress has appropriated for me 
and the authorization that Congress has provided to me does not 
include at this point an additional Shuttle flight. Every 
Shuttle flight that we plan to fly has been identified for the 
Congress and has been the subject of appropriated funds.
    So I have neither permission from the President nor 
authorization nor appropriation from Congress to fly another 
Shuttle flight.
    Mr. Lampson. So neither the President nor OMB has indicated 
to you that it intends to direct you to add an additional 
Shuttle flight to fly the AMS experiment?
    Dr. Griffin. Well, again, the OMB does not direct NASA 
however much they might wish to. The--but the Administration 
has not requested funds for an additional Shuttle flight, and 
the Congress has not authorized or appropriated such funds. So 
I, as the Administrator, do not make space policy. I carry it 
out, and no, none of my governing entities has asked me to do 
this flight.
    Mr. Lampson. By when would Congress have to direct you to 
take all necessary steps to fly an additional Shuttle flight to 
deliver the AMS experiment to space for it to be possible by 
the time the Shuttle is scheduled to be retired? End of the 
year, end of the fiscal year, end of the calendar year, later 
than that?
    Dr. Griffin. The end of this calendar year, January, '09 at 
the latest, or it is a done deal, because our manifest is 
coming to a close. We are flying the flights that we are 
authorized to fly with the hardware that we have bought and 
with the contracts that we have in place. If the Congress 
chooses to add another flight to our manifest, they need to 
tell me this year, within this calendar year.

                    Contingency Flights and the ISS

    Mr. Lampson. Okay. I am concerned that the current approach 
to the ISS assembly may wind up jeopardizing its future 
viability. Specifically the NASA manifest currently book keeps 
as contingency flights, the two Shuttle flights that are 
intended to fly critical spares and logistics to the ISS prior 
to the Shuttle's retirement.
    It is my understanding that OMB doesn't consider those two 
flights to be part of the baseline Shuttle manifest. Is that 
correct?
    Dr. Griffin. Sir, I can't get into what different offices 
in the Executive Office of the President think or don't think. 
I have, since my time as Administrator, I have used several 
words inappropriately to my nearly everlasting regret. One of 
those was labeling those flights contingency flights. I was 
speaking too much as an engineer and not recognizing the policy 
import of that. In fact, those flights carry up, they are 
designed to carry hardware to support the station in the event 
of failure of certain systems. And given what we have 
experienced in terms of the failure rate of existing on-board 
systems, the spare units and other logistics material that 
those flights are manifested are not contingency flights. They 
are not contingency flights. They are necessary flights if we 
are to sustain the station through the five-year gap between 
retirement of the Shuttle and the deployment of Ares and Orion. 
Because that, every bit of statistical information we have says 
that that equipment will be needed.
    And I deeply regret any confusion I have caused this 
committee by labeling them some years ago as contingency 
flights. They are spare hardware, and they are necessary in one 
fashion or the other. The question becomes what is the easiest 
method to get them up, and that is with the Shuttle.
    Mr. Lampson. And they are required if we want to ensure 
that the ISS remains a viable and useful facility after the 
Shuttle is retired?
    Dr. Griffin. If you want to ensure that the ISS remains 
vital and useful as opposed to gambling on it, then, yes, sir, 
they are required.
    Mr. Lampson. If you are not permitted to fly those flights 
or if we don't provide the resources, whatever is necessary, 
what other critical options, if any, does NASA have to deliver 
those needed spares and logistics?
    Dr. Griffin. Well, those flights, the funding for those 
flights is at present in our budget. So we can fly those with 
what we have. Now, credible, there are no immediately credible 
alternatives because the systems that I am talking about would 
have to be re-manifested on expendable vehicles with, and 
fitted with automated rendezvous and docking systems and such 
that don't currently exist that we are hoping will be developed 
for other commercial crew and cargo.
    So like other aspects of space station logistics support, 
they would have to be manifested on systems that don't yet 
exist.
    Mr. Lampson. Thank you very much. Dr. Griffin, my time is 
expired, and I yield to Mr. Feeney of Florida.

        The FY 2009 NASA Budget and Ares and Orion Test Flights

    Mr. Feeney. Thank you, Mr. Chairman. As we run back and 
forth here in the rain and everything else, I think I know what 
you are thinking. You are probably admiring the efficiency and 
the work habits of the United States Congress, Mr. 
Administrator, but again, we appreciate you being here.
    Dr. Griffin. Maybe you could take another break or two 
after that last round of questions.
    Mr. Feeney. Well, I hope mine will be, I hope mine won't be 
so taxing.
    You know, I would like to point out that the budget that 
you requested this year is $17.6 billion. My numbers show that 
if adjusted for inflation since 1992, the budget would have 
been in today's dollars $20.3 billion, which means roughly a $3 
billion real cut relative to the NASA budget in 1992, almost a 
20 percent reduction during the 1990s and the early part of the 
new millennium. And I think all of us have, you know, felt the 
challenge and the pain of dealing with that.
    I want to ask you as we talk about completing the 
International Space Station, several weeks ago there was some 
public discussion about the schedule possibly slipping for the 
Ares 1-Y and the early Orion test flights. Could you set the 
record straight for us and right now according to your latest 
reviews are you anticipating that there might be such slippage? 
And if there is going to be a decision about whether there is 
likely to be slippage, when do you anticipate that decision?
    Dr. Griffin. First of all, I will comment on your remark 
about the decrement in the budget over the '90s. Yes. It is 
absolutely true. In real dollars we lost some ground, several 
billion dollars during the 1990s which has not been recouped 
since then. So you are right.
    Regarding the Ares 1-Y flight, there was some discussion a 
few weeks ago in, within NASA and including a memo that was 
released prematurely, saying that we were going to move the 
Ares 1-Y flight date. Now, the goal behind that thinking was to 
offer the highest confidence of preserving the IOC, the initial 
operational capability date, the IOC date for the finished 
system. So it was just a matter of shuffling the deck chairs 
around to get the most comfortable seating for everybody.
    We, after looking at it more carefully, in fact, decided 
not to move that, the Ares 1-Y test flight date at this time. 
We don't have a need to move it at this time, and so we are not 
going to do it. So I would say that is in abeyance 
indefinitely. If we do decide to shuffle our flight test 
schedule, you have my absolute commitment to share that 
information with your staff, make sure that everybody is on-
board as to what our flight test schedule is.
    I do want to reserve the right to plan the flight test 
schedule in the most sensible engineering manner possible, and 
we, I am not saying that we would never move our dates around, 
but right now we are not doing that.
    Mr. Feeney. In terms of completing the Shuttle mission, if 
it becomes necessary because of slippage or time tables or 
desirable to fly the last two contingency, you said we are no 
longer referring to these as contingency missions.
    Dr. Griffin. Well, I will never be able to get rid of it, 
but I wish I had not used that term.
    Mr. Feeney. The so-called--the re-supply missions. If it 
becomes necessary to do that after 2010, do you have an 
estimate of what the cost would be to continue the Shuttle 
operations on a monthly or annual basis?
    Dr. Griffin. Well, we, having bought all the hardware 
already and having included in the budget that which is 
necessary to fly the manifest out to those last couple of 
flights, if, you know, if we didn't get an appropriation, for 
example, in 2010, until December as opposed to September, and 
or if the schedule slipped or anything, there would be no 
problem flying the last couple of Shuttle flights out through 
the end of calendar year 2010.
    So the program is not sensitive to whether the last flight 
occurs in September of 2010, or December of 2010. We don't 
care.
    Now, to go beyond that, okay, we have to keep contractors 
in place and contracts alive that we intend to cancel. And so 
that then brings into play the carrying cost of the whole 
Shuttle infrastructure, which is around $3 billion a year just 
to own the fleet and keep it active.
    Now, I can provide, I said around $3 billion. If you would 
like for the record, I can give you a more-detailed answer, but 
the number, the carrying cost for the Shuttle fleet is around 
$3 billion a year, and I need to end that in 2010, so that I 
can move on with new systems.
    Mr. Feeney. Very good. I will yield back the balance of my 
time.
    Chairman Gordon. Thank you, Mr. Feeney. Thank you for the 
good job you are doing as our Ranking Member on this 
subcommittee.

                 Spending, Mars and Near-Earth Objects

    Mr. Udall is recognized, former Chairman--Rohrabacher. 
Excuse me. Rohrabacher is recognized. Former Chairman and 
Ranking Member of the Space Subcommittee.
    Mr. Rohrabacher. Thank you very much, and I will commend my 
Chairman, Subcommittee Chairman, Mr. Udall. He is doing a good 
job. I would be very happy to be mistaken for Congressman Udall 
and also let me note that, Mr. Chairman, you are doing a great 
job, and both the Subcommittee Chairmen and the Committee 
Chairman in dealing with space issues. I would applaud those 
leaders who are showing bipartisan and I would say very 
responsible approach in working with those of us who on the 
other side of the aisle to try to make sure that we fund the 
space program and make it successful. Thank you, Mr. Chairman.
    Also some accolades for Administrator Griffin.
    Dr. Griffin. Yes, sir.
    Mr. Rohrabacher. I consider you to be, I have been here 20 
years now. When I got on this committee, I was sitting way over 
on the other side there, and I was at first. Twenty years ago I 
came in here, and of all the NASA Administrators that I have 
seen come through here you are the most innovative and creative 
and responsible [inaudible]. I say that without hesitation. So 
I congratulate you for keeping a positive spirit in the midst 
of a--must be a--just a bureaucratic challenge that would just 
overwhelm so many other people.
    We talked today about the $17.6 billion that is being 
requested. You have taken an approach that development of new 
technology and encouraging private sector investment, as well 
as restructuring NASA to be more efficient, are ways that can 
put those dollars to better use. So although it is easy for us 
just to focus on the dollar amount, that doesn't tell the whole 
story, and in fact, if we gave, we just keep up with inflation 
but would have less innovation, it would not be serving the 
interest of the American people.
    So I would congratulate you on not just taking the approach 
that we just need to back up the federal truck and shovel more 
dollars out in to the NASA building. Instead that we prioritize 
efficiently.
    With that said, I liked your answer in terms of EELV versus 
Shuttle technology upgrade. I would like to learn more about 
that [inaudible].
    Chairman Gordon. Mr. Rohrabacher, I think that particular 
microphone----
    Mr. Rohrabacher. Maybe I am not up close enough.
    Chairman Gordon. Okay.
    Mr. Rohrabacher. I was leaning back.
    Chairman Gordon. Okay. Okay.
    Mr. Rohrabacher. That Red Bull that I had earlier today----
    Chairman Gordon. We are all intensely interested in your--
--
    Mr. Rohrabacher. Yes. The, what, in terms of actually 
spending the money, you mentioned, of course, the 2005 Space 
Authorization, which laid a roadmap, and again, I take great 
pride in that, because I participated in that. And it was, of 
course, President Bush, who after a long, long time gave us at 
least a roadmap to look at, which other Presidents had not 
done.
    But you talk about Moon and Mars as destinations, and you 
talk about the step approach. Are we spending, of the $17.6 
billion, is there money being spent now on developing 
technologies that are not necessary for the first steps but are 
only being spent for a preparation for a Mars expedition?
    Dr. Griffin. No, sir. The appropriations law for '08, the 
situation, of course, is a bit complicated. This committee, the 
Congress has authorized us to develop a sustained lunar 
presence and to prepare the way for Mars, and I am not quoting 
exactly, but that is the thrust of it.
    However, the fiscal year 2008 Appropriations Act enjoins us 
from spending any money on any technology that would be just 
for Mars. And so we are not doing that this year.
    Mr. Rohrabacher. Well, that is the right answer.
    Dr. Griffin. I would hope that that could be removed in 
future years.
    Mr. Rohrabacher. Well, it depends on how close we are 
getting. You know, quite frankly, I believe by the time we go 
to Mars, that there will be such different technology 
capabilities, hopefully better technology capabilities, 
available to us that it might be wasteful to spend money right 
now on putting together technology that might not be used for 
20 years and then 20 years from now there would be other 
technology that would be better.
    Dr. Griffin. Well, yes, sir. I agree, but literally 
interpreted the restriction puts questions on our utilization 
of the Space Station to study the adaptability of human beings 
to long-term space flight. So----
    Mr. Rohrabacher. I see.
    Dr. Griffin.--we are not interpreting it that way because I 
think the Congress wants us to do research on the Space 
Station, but the reason for doing research on the Space Station 
is for voyages farther away than three days, which is where the 
Moon is.
    Mr. Rohrabacher. Well, there was questions about the Space 
Station, whether or not that decision that was made so long ago 
was a right decision or wrong decision, and what you just 
brought up was a complication of that.
    Dr. Griffin. You are right. I have chosen to move past the 
Space Station decision----
    Mr. Rohrabacher. Right.
    Dr. Griffin.--to accept it as done, finish the station, and 
then let us get on outward beyond Earth orbit.
    Mr. Rohrabacher. And if you would, if the Chairman would 
indulge me for just a few more moments, the Arecibo telescope 
and the near-Earth object mission that obviously is of great 
concern to me and I think to the American people as well, you 
made it very clear that you are willing to help, and NASA 
should be part of this, but that you don't have the budget for 
it.
    If we, indeed, come back with an authorization for NASA 
that is above the $17.6 billion budget request that you have, 
and we have included money specifically for a near-Earth object 
identification project and response project, as well as the 
Arecibo telescope, which is essential, absolutely essential if 
we are going to discover if there is a near-Earth object 
heading to the Earth, would that be agreeable to you?
    Dr. Griffin. Well, sir, if the Congress authorizes an 
activity and appropriates funds for it and the President signs 
that law, then, of course, it is agreeable to me. I will carry 
it out. I mean, of course. We are within the parameters of our 
existing funding for near-Earth object surveys. We are doing 
that, and in fact, accelerating it slightly to meet the stated 
intent of Congress. Beyond the few million that we are spending 
on it, I can't go today because I have, again, neither 
Presidential direction, Congressional authorization, or 
appropriation. So----
    Mr. Rohrabacher. Well, those of us who think, who believe 
that this is a vital program and could well be important to the 
survival of the planet would, are going to try to work with you 
and make sure that you are not just given the responsibility 
but also have some extra resources for that.
    Dr. Griffin. Well, I, too, am quite interested in the near-
Earth objects. So I would find it agreeable.
    Mr. Rohrabacher. And one last area, and that is I want to 
congratulate you for your strong stand on permitting the 
commercial, potential commercial servicing of station for both 
supplies and crews as a means of promoting technology 
development and also saving money. So thank you very much.
    Dr. Griffin. Thank you, sir.
    Chairman Gordon. Thank you, Mr. Rohrabacher. And now Mr. 
Lampson is recognized.

                Shuttle Replacement Funding and Schedule

    Mr. Lampson. Thank you, Mr. Chairman.
    Just to carry on from where I was a little while ago, just 
a quick question. We have had a lot of conversation about the 
gap, and the NASA Authorization Act of 2005 directed NASA to 
develop and deploy an operational human space transportation 
system to replace the Shuttle as close to 2010, as possible. 
The Authorization Act indicates launching a crew exploration 
vehicle as close to 2010.
    At any rate, what specific actions, if any, has the 
Administration taken to comply with that Congressional 
direction?
    Dr. Griffin. The budget request that the Administration has 
made provides sufficient funds at 65 percent statistical 
confidence to deploy Ares and Orion, the Shuttle replacement 
that you speak of, by March of 2015. And that is as close to 
the end of Shuttle retirement as possible with the level of 
funding that is allocated.
    Mr. Lampson. Well, given the Congressional direction in the 
Authorization Act, has the Administration provided or why 
hasn't it provided any additional funding to the Constellation 
Program to narrow the space flight gap?
    Dr. Griffin. Well, clearly the Administration has not 
provided the funding to narrow that gap. I can't speculate as 
to why.
    Mr. Lampson. Did NASA request additional funds to do so?
    Dr. Griffin. NASA has had many discussions within the 
Administration on this topic, and as I know that you know, we 
have many priorities, many funding priorities in the Nation, 
all of which clamor for first attention. And the funding, the 
priority of closing the gap between Shuttle retirement and 
deployment of new systems did not make it to the top.
    Mr. Lampson. What do you consider to be the most realistic 
options for narrowing the gap?
    Dr. Griffin. Well, the most realistic option at this point 
would be, I hate to say it this way, but add money. We answered 
this question for your colleague, Senator Nelson, on the record 
last November, and at this point about the earliest achievable 
date, again, the earliest technically credible date that I 
could sign up to would be the fall of 2013, say September of 
2013, and we would need a billion dollars extra in '09, and a 
billion dollars in '10, to do that, for a total of about two 
billion, as best we can tell today.
    With the past decisions that have already been taken and 
which are behind us, I can today not--I cannot credibly promise 
anything earlier than 2013, at this point.
    Mr. Lampson. Was that put on the table in this budget 
process? Was that request specifically made? Because the law 
says do it as close to 2010 as possible, '13 is closer than 
'15, and if that is the wishes of Congress, did the President 
consider or did you consider or how----
    Dr. Griffin. Well, I certainly considered it, and I cannot 
go into all of the discussions and debates that have been held 
within the Administration as part of the process to generate a 
budget request, but certainly we worked very hard to understand 
what was needed, which was why I was able to give that answer 
to Senator Nelson on the record, and again, that priority was 
not judged to compete with other priorities that the Nation 
has.
    Mr. Lampson. Would a billion dollars at this point move it, 
move that date to 2013, or what is the----
    Dr. Griffin. Well, the rate of progress is roughly one 
month for $100 million. Okay. Roughly. Now, and, again, $2 
billion then should equal 20 months but actually equals about 
20 months actually from where we are. So that is the way to 
judge it. It is--you can buy additional progress at about $100 
million per month.
    Mr. Lampson. Thank you very, very much, and Mr. Chairman, I 
will yield back my time. Thank you.
    Dr. Griffin. Again, we have answered all that for your 
colleague.
    Mr. Lampson. Thank you.

                           Russia and the Gap

    Chairman Gordon. And Ms. Patterson, we thank you for your 
attention and attendance here today, and Mr. Udall, let us see. 
I guess I should go to--Mr. Rohrabacher, I understand that you 
have a clean-up question?
    I think that is where we are. Actually, we are----
    Mr. Rohrabacher. Well, thank you very much. I want to focus 
on your, the subject area of Russia and payments to Russia and 
the complications that we face.
    Right now we are, of course, dependent on Russia during 
this period, the gap.
    Dr. Griffin. Yes. That is correct, sir.
    Mr. Rohrabacher. Okay. And I think you said it was $100 or 
$700 million worth of contracts. Is that right?
    Dr. Griffin. The current contract has a total value of 
about $780 million, and that expires in--at the end of 2011.
    Mr. Rohrabacher. Right. And you would expect that we need 
to have another contract?
    Dr. Griffin. I do if we are to utilize the station.
    Mr. Rohrabacher. And what would that contract, how much 
would that contract be for?
    Dr. Griffin. Well, I don't know yet.
    Mr. Rohrabacher. You don't know.
    Dr. Griffin. Because we haven't had those discussions with 
our Russian partners but----
    Mr. Rohrabacher. But we need----
    Dr. Griffin.--for a similar level of performance it is 
unlikely that it would be less than today's value.
    Mr. Rohrabacher. Right. And the legislation and legislative 
help that you need in order to, we need to pass some 
legislation right now, and you might, if you could alert us to 
that, what we need to do to facilitate.
    Dr. Griffin. The Administration needs to come forward with 
a formal request. As I said earlier, my remarks today are in 
the nature of a heads up, that I am working this within the 
Administration, but that the Congress needs to grant an 
exemption to NASA from Iran, North Korea, Syria Non-
Proliferation Act. That is the action that would be required 
later this year.
    Mr. Rohrabacher. Having worked on that legislation, I think 
I put some weasel words into the legislation that might be 
interpreted by a lawyer to be able to get us out of a mess like 
that. Have your lawyers determined that those weasel words were 
not adequate enough to help you out of this problem?
    Dr. Griffin. Well, the--I am not an attorney, but our 
attorneys within the Administration, our attorneys' 
understanding of that as you put it, weasel word, is it applies 
to an emergency----
    Mr. Rohrabacher. Right.
    Dr. Griffin.--of a highly-temporary nature. So, for 
example, if we needed to pay to get crew off the station in an 
emergency during a time period that wasn't covered by the 
exemption, we could do that, but we could not open up a multi-
year procurement for the delivery of goods and services to the 
station along the lines of the contract we have today. Your 
weasel words are inadequate to approve that.
    Mr. Rohrabacher. Sorry about that. One last note. The--I, 
again, I commend you for your creative approach to the re-
supply station, which includes this opening up to commercial 
bidding for services for both supply and for crew, that same 
approach in terms of offering contracts or giving reward to the 
private sector for developing alternatives to having something 
done within NASA itself, I have, as you know, a piece of 
legislation aimed at establishing a national endowment, which 
would provide prizes, we need to provide prizes for the 
development of new technologies that could be useful to NASA 
and aerospace in general.
    Do you have any thoughts on that legislation?
    Dr. Griffin. Not in any sort of detail that I would----
    Mr. Rohrabacher. Okay.
    Dr. Griffin.--want to air here. Broadly speaking I think 
that the prize activity that we have seen so far has been very 
promising and certainly gets, brings attention to space. I hope 
that it can be found to have some longer-lasting value as well.
    Mr. Rohrabacher. It seemed to me that if we should, if we 
see something that works and seems to have been of value, that 
we could expand upon it, and the whole prize notion serves the 
taxpayers well because you don't have to pay off unless someone 
has actually achieved what is laid down as the purpose of the 
prize.

                              Water Issues

    So thank you very much again for your great leadership at 
NASA, and I have one other question that my staff was looking 
for.
    Western Governors have--they are looking at--they are 
worried that Landsat thermal infrared capabilities are not 
going to serve their interests looking at their water issues. 
Do you know anything about that?
    Dr. Griffin. I don't, sir. If you supply it for the record, 
we will answer it for the record. I--but I am unfamiliar with 
that concern. I am sorry.
    Mr. Rohrabacher. Yeah. One of the great paybacks that the 
space program has had for humankind and especially for the 
American people is our ability to help us make determinations 
as to where water resources should be used and how and some of 
our critical, you know, analysis of what is going on in the 
land from space. So that is really something, whenever we can 
get a payback for the American people by helping them work 
their way, find the answers to water shortages, et cetera.
    Thank you very much.
    Chairman Gordon. Thank you, Mr. Rohrabacher. As we have 
discussed, this committee is going to be spending a lot of time 
this year looking at water and looking at how we can find 
efficiencies both in the industrial and the residential 
section.
    And again, my apologies to Ms. Richardson for my block, and 
I think Mr. Udall is going to be our cleanup man.

                           The NAOMS Project

    Mr. Udall. Thank you, Mr. Chairman. Dr. Griffin, if I 
might, I would like to turn back to discussion about NAOMS. I 
got a series of questions I would like to direct your way and 
then ask you to answer the questions.
    Do you plan to make any additional data releases beyond 
what is already been made public? What is the current status of 
your plan to have the Academies review, National Academies, 
that is, the NAOMS Project, and have they started their review, 
what specifically have you asked the Academies to do? When do 
you anticipate that the review would be completed, and do you 
have any plans to revisit the decision to terminate the NAOMS 
Project, and if so, when?
    Dr. Griffin. I will try to remember all those questions, 
and I will ask you for help if I screw up.
    With regard to plans to resume NAOMS, no. We have no plans 
to resume NAOMS. We think that all of the goals of NAOMS with 
regard to aviation safety are being accomplished in 
coordination with the FAA on, with ongoing programs. So it is 
not that we don't like those goals, we think we are pursuing 
them outside of the context of NAOMS.
    We do plan additional data releases this year. We provided 
a heavily-redacted version to meet my end-of-the-year 
commitment on New Year's Eve. I am sorry for that. It was the 
best we could do. We have named a program manager at the Glenn 
Research Center. That program manager will report directly to 
the office of the Administrator at NASA. The purpose of that 
effort for that program manager will be to draft and issue a 
request for proposals from various firms to, with an 
appropriate statistical data redaction capability to go over 
the NAOMS survey data and appropriately redact confidential 
commercial information and to protect respondent anonymity 
while releasing the maximum possible intellectual content in 
the data.
    When I talk about the data, again, this is a matrix of 
data, 29,000 rows by several hundred columns. So it is an 
enormous amount of data. We must be very certain that we don't 
compromise individual identities and that we don't release 
voluntarily-supplied commercially-confidential information.
    The original contractor on the NAOMS study was supposed to 
do that, but as I pointed out in prior hearings, we have found 
cases where that was not done, and we need to be more careful 
before we release it.
    You asked about the--but we will provide staged releases 
over the course of the year as the data is studied. We will do 
it as often as we can, and we will keep you informed.
    Now, the un-redacted data, I know that the Congress is 
furnishing that to the GAO to allow its assessment of the 
potential utility of the NAOMS data, and I applaud that. 
Additionally, we are working with the National Research 
Council, National Academies, as you mentioned. We would like 
them to examine the data for its potential utility. NASA has 
been criticized for saying that we don't see much utility to 
this data and have moved on with other programs with the FAA, 
but in case we are wrong, I would like to have the National 
Academy take a look at the un-redacted data and judge for, 
judge independently if there is value in it.
    To do that initially has been a bit of a problem because 
our early inputs from the Academy were that any data which 
comes to them has to be released publicly. That, of course, is 
not possible. However, the people who were making those 
statements weren't attorneys, and it turns out that when their 
attorneys and ours have spoken, that they believe they have a 
way forward to treat this data with appropriate 
confidentiality, which is necessary while assessing it in its 
un-redacted form for potential utility. And if that works out, 
then I will be very happy.
    Mr. Udall. Do you have a sense of the timeline?
    Dr. Griffin. That will occur over the course of this year. 
I cannot, I mean, the National Academy takes the time it takes, 
and in my prior experience getting anything out of them in much 
less than a year is not feasible. So I would say over the 
course of this year as soon as reasonably possible.
    Mr. Udall. Thank you, Dr. Griffin.

                        Mars Science Laboratory

    Mr. Chairman, if I might, I would ask a final question 
seeing my time is about to run out for the record, and I want 
to turn back to the New Earth Science and Space Science 
missions that have been proposed.
    As I said in my initial statement, I am excited to see 
where that leads us. I am concerned about the price tags that 
are associated with them, and I wanted to direct a general 
question, which is why should we be confident that NASA can 
actually carry out the proposed new missions under the science 
budgets assumed for the future? And especially using the Mars 
Science Laboratory, the MSL, as an example, that is is supposed 
to be launched next year. It is facing, as I understand it, new 
development problems, although it was subject to a serious 
review not that long ago.
    I know the Committee would be interested in knowing what 
the problems of the MSL are, how serious are they, and what we 
can do to fix them. And then how confident are you that we will 
be able to meet its '09 launch date and then more broadly, what 
steps is NASA taking to insure that the same types of problems 
that have afflicted MSL don't afflict the proposed new 
missions.
    Dr. Griffin. Do you want me to answer now or for just the 
record?
    Mr. Udall. I would defer to the Chairman as to how much 
time we have left and would certainly be more than happy with 
comments for the record or right now.
    Chairman Gordon. If you want to summarize and then you can 
provide additional information for the record.
    Dr. Griffin. We will answer in full for the record. Let me 
give you a quick summary. MSL is having heat shield problems. 
Our earlier assumption on using what we call SLA, super 
lightweight ablative, like we use on the Shuttle external tank, 
that it would make an adequate heat shield for MSL did not 
survive actual tests. So we are going to a material called 
pica, which is a stronger ablator. That is going to cost 
several tens of millions of dollars.
    In addition, there are, I would not say other developmental 
problems, but just increased costs. Things have gone more 
slowly than we would like. We still believe at this point that 
we can make the September of '09 launch date. If that changes, 
we are looking at options to launch in '10, and options to 
launch in '11.
    So, Mars Science Lab is a flagship mission in the Mars 
Program. It is very crucial to us. It is something that has 
never been done before. I mean, development problems are to be 
expected, and I don't honestly consider that the problems they 
are having are, I wouldn't call them out of family. I have 
great confidence in the Mars Science Lab Team. I really do, 
which is not to say that they aren't overrunning some, and we 
are going to have to figure out a way to deal with that. And we 
will give you a more complete answer on the record.
    Mr. Udall. Thanks, again, Dr. Griffin, for being here 
today.
    Dr. Griffin. Thank you, sir.

              Potential Use of Chinese Launch Capabilities

    Chairman Gordon. It appears that Mr. Rohrabacher has one 
more question.
    Mr. Rohrabacher. I don't want to take up Mr. Baird's time 
unless--well, thank you.
    Just very quickly. I certainly am supportive of what you 
have outlined for us today about the need for cooperation with 
Russia, and I think that the cooperation with Russia has served 
America's interest.
    Dr. Griffin. I do, too, sir.
    Mr. Rohrabacher. I would suggest on the other hand that 
cooperation with China has not served our interest. In fact, we 
have learned a lot from the Russians, and in fact, every time 
we have cooperated in space with the Chinese they have 
basically stolen our technology, and we see them knocking our, 
or knocking satellites out of the air.
    Is there at this time any plan to permit American 
satellites to be launched on Chinese rockets or any other type 
of cooperation with the Chinese government?
    Dr. Griffin. I don't know, sir. I have no such plans, but I 
don't know what other entities may be planning.
    Chairman Gordon. Thank you, Mr. Rohrabacher. Before we 
bring the hearing to a close, I want to thank our witness for 
testifying before the Committee today. The record will remain 
open for additional statements from the Members and for answers 
to any follow-up questions the Committee may ask of the 
witnesses.
    The hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the Committee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration (NASA)

Questions submitted by Chairman Bart Gordon

Q1.  In material requested for the record from the Space and 
Aeronautics Subcommittee on July 24, 2007 entitled ``NASA's Space 
Shuttle and the International Space Station Programs,'' Associate 
Administrator Bill Gerstenmaier was asked what NASA would do if neither 
the Commercial Orbital Transportation Services (COTS) capabilities nor 
non-U.S. vehicles (ATV-Europe, HTV-Japan) were available to meet NASA's 
logistics schedule for ISS. In his reply, Mr. Gerstenmaier stated that 
NASA ``has strategies to react within the appropriate timeframes if the 
development does not proceed per schedule.''

Q1a.  What are these strategies?

A1a. NASA envisions a mixed fleet strategy to support Space Station 
cargo requirements, with a strong preference toward U.S. commercial 
services. If neither COTS nor non-U.S. vehicles are available to meet 
logistics needs for operating and maintaining the ISS, NASA would have 
to actively and aggressively manage spacecraft systems degradation in a 
manner that minimizes the probabilities of loss of systems and loss of 
vehicle until such time as the needed transportation services become 
available. The ISS partnership took similar measures during the period 
when the Shuttle was grounded following the Columbia accident to 
minimize logistics needs, so NASA has experience in operating with 
transportation constraints. It should be noted that progress continues 
to be made in the COTS program, with a newly funded Space Act Agreement 
signed. With regard to logistics support for the Station, NASA recently 
released an RFP for commercial resupply. In addition, the European ATV 
has recently demonstrated a successful docking to the ISS, and in doing 
so delivered 1,150 kg of dry cargo, as well as propellant, oxygen and 
water.

Q1b.  How would NASA go about implementing these strategies?

A1b. The prioritizing and pre-positioning of system spares minimizes 
International Space Station systems degradation. This may be augmented 
by successful execution of the two contingency flights if they can be 
accomplished before retirement of the Space Shuttle in 2010. In 
addition, NASA would take measures to closely monitor and manage 
consumables.

Q2.  Has NASA made any changes across the agency to the requirements 
for background investigations for HSPD-12 rebadging while a pending 
lawsuit continues? Has NASA changed the timetable for compliance? What 
is the status of the HSPD-12 program at each of the Centers?

A2. NASA continues to implement HSPD-12 in accordance with regulations 
and guidance applicable to all federal executive departments and 
agencies. Badging compliance within NASA continues to progress toward 
successful rebadging by October 27, 2008, as required.
    The litigation to which you allude, filed with the United States 
District Court, Central District of California, involves 28 contractor 
employees at the Jet Propulsion Laboratory (JPL) in California, out of 
a working population of about 8,000. To date, no other NASA employees, 
contractors, or locations are directly involved. The lead agency in the 
litigation is the Department of Justice, which represents NASA and 
other involved federal agencies in court.
    The District Court has issued a preliminary injunction and, 
subsequently, provided additional guidance to clarify the injunction. 
In accordance with the Court's clarification, NASA will begin issuing 
badges to JPL employees whose investigations have been completed (not 
including the 28 named plaintiffs). JPL employee background 
investigations which are not yet complete have been halted, which is 
also in accordance with the Court's clarification. NASA will 
continually monitor HSPD-12 compliant badging measures at JPL to ensure 
they remain in compliance with any future Court rulings.
    NASA will comply fully and promptly with applicable court orders as 
interpreted by and advised by the Department of Justice. The processing 
and outcome of this litigation is within the federal judicial system 
and, therefore, further comment by NASA would not be appropriate.

Q3.  In answering a question for the record in last year's hearing, 
NASA told the Committee that as Constellation System Requirements 
Reviews (SRR) are completed, it would gain a clearer understanding of 
the demands for future workforce skills, thus forming the foundation 
for making future decisions on the appropriate numbers and mix of 
skilled workers needed to safely fly the Shuttle through 2010 and to 
transition to the CEV. Now that the SRRs have been completed, when do 
you expect to provide the numbers and mix of skilled workers needed to 
complete the Shuttle flights and transition to CEV?

A3. NASA is focused on managing the evolution from current operations 
of the Space Shuttle to future operations of Constellation and emerging 
commercial services, in a safe, successful and smooth manner. This 
joint effort between the Space Operations and Exploration Systems 
Mission Directorates includes the utilization and disposition of 
resources, including real and personal property, personnel, and 
processes, to efficiently leverage existing Shuttle and Space Station 
assets for future Exploration activities, including the Orion Ares I, 
and Ares V projects. NASA is managing human space flight workforce 
issues within the broader context of the Agency's transition 
activities, described in the NASA Human Space Flight Transition Plan. 
To augment these transition processes and ensure close cooperation and 
partnering between NASA and industry, a Human Capital Council comprised 
of human resources directors from the prime contractors and Centers has 
been formed and meets quarterly. Supporting the efforts of the Human 
Capital Council, NASA and its prime contractors conduct frequent formal 
and informal Technical Interchange Meetings including a broad range of 
participants. NASA also tightly integrates transition workforce 
planning into its acquisition and budget development activities.
    In addition to contract awards, Constellation workforce 
requirements maturation has provided more clarity and better insight 
into future workforce and skill mix needs. This information, combined 
with updated Shuttle workforce analysis and more refined Transition and 
Retirement requirements, forms the basis of workforce information 
included in the NASA Workforce Transition Strategy submitted to the 
Subcommittee on March 31, 2008. This report will be updated and 
submitted to the Congress every six months. We expect to have further 
refinement of workforce numbers and skill requirements in NASA's FY 
2010 budget submit, and will continue to take place through subsequent 
annual budget preparation processes.

Q4.  Dr. Griffin, your testimony indicates that ``$2.6 billion in NASA 
funds [is] available over the next five years to purchase cargo and 
crew services to support Space Station operations.'' What portion of 
those funds is encumbered to purchase crew and cargo services provided 
by the Russians through 201I?

A4. Of the approximately $2.6B in NASA funds budgeted from FY 2009 
through FY 2013 to purchase cargo and crew services to support the 
International Space Station, approximately $589M is budgeted for 
Russian services from FY 2009 through FY 2012 (note: NASA is permitted 
to purchases Russian services through the end of calendar 2011--the 
beginning of FY 2012).

Q5.  Dr. Griffin, NASA is conducting educational activities in parts 
the Science Mission Directorate, for example, in addition to the 
programs included in the agency's Education office. What are NASA's 
goals, across the agency, for education? What steps is NASA taking to 
maximize the effectiveness of the agency's investments in education, 
including how these investments relate to science, technology, 
engineering and mathematics (STEM) education?

A5. NASA's Agency goals in education are outlined in both the 2006 NASA 
Strategic Plan and the NASA Education Strategic Coordination Framework: 
A Portfolio Approach. In 2006 and beyond, NASA will pursue three major 
education goals:

        <bullet>  Strengthen NASA and the Nation's future workforce--
        NASA will identify and develop the critical skills and 
        capabilities needed to ensure achievement of NASA's mission. To 
        help meet this demand, NASA will continue contributing to the 
        development of the Nation's science, technology, engineering, 
        and mathematics (STEM) workforce of the future through a 
        diverse portfolio of education initiatives that target 
        America's students at all levels, especially those in 
        traditionally under-served and under-represented communities.

        <bullet>  Attract and retain students in STEM disciplines--NASA 
        will focus on engaging and retaining students in STEM education 
        programs to encourage their pursuit of educational disciplines 
        and careers critical to NASA's future engineering, scientific, 
        and technical missions.

        <bullet>  Engage Americans in NASA's mission--NASA will build 
        strategic partnerships and linkages between STEM formal and 
        informal education providers. Through hands-on, interactive 
        educational activities, NASA will engage students, educators, 
        families, the general public, and all Agency stakeholders to 
        increase Americans' science and technology literacy.

    All of NASA's education efforts are part of an integrated Agency-
wide approach to human capital management. Within the NASA Strategic 
Plan, education is identified as a crosscutting function that supports 
all of the Agency's strategic goals and objectives.
    NASA will continue the Agency's tradition of investing in the 
Nation's education programs and supporting the country's educators who 
play a key role in preparing, inspiring, exciting, encouraging, and 
nurturing the young minds of today who will manage and lead the 
Nation's laboratories and research centers of tomorrow. As the United 
States begins the second century of flight, the Nation must maintain 
its commitment to excellence in STEM education to ensure that the next 
generation of Americans can accept the full measure of their roles and 
responsibilities in shaping the future.

Questions submitted by Representative Mark Udall

Q1.  Last November, Ernst & Young (E&Y) disclaimed an opinion on NASA's 
financial statements for the fiscal years ended September 30, 2007 and 
2006. The disclaimer resulted from NASA's inability to provide E&Y 
auditable financial statements and sufficient evidence to support the 
financial statements throughout the fiscal year and at year-end. What 
seems to be the problem in NASA receiving a clean opinion? Are you 
satisfied that you are on your way to securing a clean opinion? When do 
you project NASA will receive a clean opinion?

A1. Toward the objectives of obtaining an unqualified opinion and 
eliminating material weaknesses in internal controls, NASA has 
developed a Comprehensive Compliance Strategy (CCS) that focuses on 
ensuring compliance with Generally Accepted Accounting Principles 
(GAAP) and other financial reporting requirements. The CCS also covers 
the standards and requirements necessary to cure deficiencies noted in 
recent audit and related reports. The CCS serves as the basis for 
implementing comprehensive proactive corrective actions and provides 
the guiding principles for executing effective financial management 
functions and activities with internal control and compliance solutions 
inherently embedded in the processes.
    In the first quarter of FY 2008, NASA undertook an internal review 
and engaged a nationally-recognized accounting firm to perform an in-
depth analysis of requirements for NASA to be in compliance with GAAP 
and other applicable financial standards, to demonstrate such 
compliance through auditable evidence, and to operate with robust and 
comprehensive internal controls. Validation of this framework and plans 
to implement the required actions to conform NASA policies and 
procedures to this framework were completed in the second quarter of FY 
2008. An assessment of the remedial actions necessary is underway, and 
upon completion of the assessment, timing and phasing for resolution 
will be determined. The CSS provides the critical path milestones for 
NASA to resolve the FSAO material weakness.
    The Property, Plant and Equipment material weakness is comprised of 
issues primarily related to the agency's reliance on contractors to 
``report property values at periodic intervals without robust agency-
wide detect controls,'' and difficulties ensuring the completeness of 
balances for certain legacy assets.
    In November 2007, NASA implemented a new policy and related 
procedures for identifying the cost of individual assets throughout the 
asset's acquisition life cycle. This policy change was based on 
guidance received from the Federal Accounting Standards Advisory Board 
(FASAB). These changes support the verification and reconciliation of 
asset values for those assets developed through new contracts (post 
November 2007) and certain large preexisting contracts. For legacy 
assets, like the Space Station and Space Shuttles, NASA does not have 
the necessary supporting information available to provide auditable 
book values for the Space Shuttle and the International Space Station 
(ISS). Together, Shuttle and ISS related assets currently represent 
over $14.0B of the total $20.6B PP&E net asset value reported in the 
September 30, 2007 fiscal year-end financial statements. While certain 
of the existing Shuttle and ISS assets will be transitioned for use on 
other NASA programs, much of this issue may become moot with the 
passage of time, as the Shuttle is to be retired in 2010, and the ISS 
is being depreciated based upon a 15-year specification life through 
2016. While the ISS depreciation schedule naturally leads to 2016 as an 
outside date for resolution of this issue, NASA is presently developing 
and evaluating a variety of alternatives with a view to achieving a 
more timely, albeit still cost efficient and effective, solution for 
this issue.

Q2.  E&Y identified two significant deficiencies, which are considered 
to be material weaknesses. Material weaknesses were found in NASA's 
controls for (1) financial systems, analyses, and oversight used to 
prepare the financial statements, and (2) assuring that property, 
plant, and equipment and materials are presented fairly in the 
financial statements. These material weaknesses have been reported for 
several years. NASA recently appointed a new CFO. What expectations 
have you placed on the CFO to correct these long standing material 
weaknesses?

A2. Toward the objectives of obtaining an unqualified opinion and 
eliminating material weaknesses in internal controls, NASA has 
developed a Comprehensive Compliance Strategy (CCS) that focuses on 
ensuring compliance with Generally Accepted Accounting Principles 
(GAAP) and other financial reporting requirements. The CCS also covers 
the standards and requirements necessary to cure deficiencies noted in 
recent audit and related reports. The CCS serves as the basis for 
implementing comprehensive proactive corrective actions and provides 
the guiding principles for executing effective financial management 
functions and activities with internal control and compliance solutions 
inherently embedded in the processes. A key component of the compliance 
process is NASA's newly developed Continuous Monitoring Program (CMP) 
which provides the overall framework of management controls that NASA 
uses to assess and evaluate its (i) internal controls, (ii) compliance 
with Generally Accepted Accounting Principles (GAAP), and (iii) 
evidence that balances and activity reported in its financial 
statements are auditable (accurate and complete). The CMP ensures that 
ongoing management reviews and validations of financial data, financial 
statements and internal controls are performed when and as required.
    NASA's Chief Financial Officer, Hon. Ronald R. Spoehel, joined the 
Agency in September of 2007 and has led efforts to resolve the Agency's 
long-standing material weaknesses. But more than just focusing on 
correcting past weaknesses, Mr. Spoehel has refocused these efforts 
toward a comprehensive compliance strategy proactively promoting 
ongoing, full compliance by NASA with legal and regulatory requirements 
for financial reporting. Supporting this strategy is the aforementioned 
comprehensive monitoring program that provides insight into issues as 
they arise and into the steps being taken to resolve those issues.

Q3.  Last year, NASA attributed the absence of an Enterprise 
Architecture and an Integrated Work Plan for the Next Generation Air 
Transportation System to the lack of agreement among JDPO member 
agencies on specific gap needs and how they need to be addressed. Now 
that both documents cited by NASA have been issued, are we closer to a 
better refined technical roadmap and resource plan? In your view, how 
can we optimize NASA's contribution to developing the next generation 
Air Transportation System?

A3. NASA's aeronautics research is aligned with the goals of the 
National Aeronautics Research and Development Policy, the National Plan 
for Aeronautics Research and Development and Related Infrastructure, 
the findings and recommendations of the National Research Council 
Decadal Study, and the planning documents for Next Generation Air 
Transportation System (NextGen) as created by the Joint Planning and 
Development Office (JPDO).
    NASA's Aeronautics Research Mission Directorate (ARMD) has worked 
closely and diligently with the JPDO member agencies in the development 
of the NextGen R&D Plan and has come to agreement on the plan elements 
and specifically the ARMD contributions. Version 1 of the R&D Plan was 
completed in 2007; however, it is presently being incorporated into the 
Integrated Work Plan (IWP) which currently remains a draft document. 
The IWP will include comprehensive coverage of the NextGen operational 
improvements, roadmaps, as well as the R&D plan. The JPDO has initiated 
an effort on March 13, 2008, to conduct a gap analysis to reexamine 
potential R&D gaps in the context of the IWP including updated roadmaps 
and operational improvements. NASA ARMD is collaborating directly with 
the JPDO as part of a multi-agency team to conduct this assessment. As 
the IWP further matures, ARMD's research programs will review their 
investment portfolios to ensure the most appropriate support for 
NextGen.

Q4a.  Dr. Griffin, at a hearing on Near-Earth Objects held by the 
Subcommittee on Space and Aeronautics in the fall of 2007, expert 
witnesses testified on the need for the planetary radar capabilities of 
the Arecibo Observatory to characterize potentially hazardous near-
Earth objects in a timely fashion. NASA officials recently told 
Committee staff that NASA does not need the Arecibo Observatory and 
that optical telescopes can provide any necessary data. The language 
accompanying the FY 2008 Omnibus appropriations states that ``NASA is 
directed to provide additional funding for the Arecibo Observatory.'' 
How does NASA plan to comply with the Congressional direction to 
provide funding for Arecibo?

A4a. NASA has committed $538,110 of FY 2008 planetary science funding 
to researchers that are using the Arecibo radar facility for planetary 
science, including NEO characterization efforts. No NASA funds were 
provided directly for Arecibo facility operations. Arecibo is operated 
by a NSF-funded FFRDC.

Q4b.  Could you please elaborate on NASA's position on Arecibo?

A4b. The President's budget request for NASA supports researchers that 
use the Arecibo radar facility for planetary science, including NEO 
characterization efforts, but does not provide funds for Arecibo 
facility operations. Arecibo is operated by an NSF-funded FFRDC. Should 
Arecibo capabilities be reduced or the facility be closed, NASA will be 
able to continue its work using other capabilities available within the 
Agency's Deep Space Network or other available facilities.

Q4c.  Has NASA met with NSF on the future of Arecibo?

A4c. Yes, NASA and NSF managers have met on this issue twice in the 
past year. The future of Arecibo has also been openly discussed by NASA 
and NSF representatives to NASA' and NSF-funded science researchers at 
a recent meeting in March 2008 at the National Academy of Sciences.

Q5.  Does NASA have a back-up plan should the Deep Space Network 
operations break-down before a new system is in place? If so, could you 
please provide a copy of that plan?

A5. There is no risk of a complete ``break-down,'' so there is no back-
up plan for a Deep Space Network (DSN) operations break-down. Rather, 
the critical nature of DSN operations is protected with multiple 
redundancies that enable a high reliability for all critical operations 
of NASA spacecraft, as measured by performance metrics requiring 95 
percent network availability. Actual performance is approximately 99 
percent. All maintenance and operations activities, including those 
targeting obsolete equipment, are designed to maintain the redundancy 
that ensures this availability, and no plans are underway to reduce 
this performance requirement. The DSN consists of three deep-space 
communications facilities placed approximately 120 degrees apart around 
the world: at Goldstone, in California's Mojave Desert; near Madrid, 
Spain; and near Canberra, Australia. Each DSN facility consists of at 
least four deep space stations equipped with ultra-sensitive receiving 
systems and large parabolic dish antennas (34-meter High Efficiency and 
Beam Waveguide antennas, as well as 26-meter and 70-meter antennas). 
Later this year the DSN will produce a document that will provide a 
plan to keep the DSN operational to the 2020's.

Questions submitted by Representative Charlie Melancon

Q1.  My district is close to the Michoud facility, which provides jobs 
for many people in my district. This facility has played a large part 
in the assembly of the Space Shuttle. Recently a contract to start 
assembling parts of the Constellation system was awarded for the 
Michoud facility. To continue sustained work in Michoud, there needs to 
be no or a minimal gap between these two programs. In your briefing 
materials, you indicate that the Shuttle program will be retired in 
2010. In 2009, you expect the Orion and Ares I production and operation 
to commence.

Q1a.  When do you expect to complete assembly of the Shuttle program?

A1a. The last Space Shuttle mission is planned to be launched by 
September 30, 2010. NASA will assemble enough Space Shuttle External 
Tanks at the Michoud Assembly Facility (MAF) to fly the Shuttle safely 
and maintain critical workforce skills through the end of the Space 
Shuttle program.

Q1b.  Currently most of the work completed in Michoud is at a minimal 
staff, prototype level, correct?

A1b. No. The same External Tank (ET) production line is in place and 
certified to produce the hardware.
    MAF will complete production of External Tanks for the Space 
Shuttle in 2010. Starting in 2008, MAF begins preparations to start 
production assembly of upper stage tanks by Boeing for the Ares I 
launch vehicle. Lockheed Martin plans to use MAF for selected Orion 
Primary Structure production. NASA will select a new multi-program 
Facility Operations and Maintenance contractor in early FY 2009; NASA 
is still studying the scope and work required to conduct that function 
for all the NASA programs which will use MAF. Production and test of 
the Ares V Core Stage and Ares V Earth Departure Stage will begin 
ramping up in FY 2011; NASA is still studying the tasks and contracts 
for Ares V work. NASA is considering early Ares V risk reduction and 
skill retention manufacturing tasks at MAF, but in 2008, these are only 
being evaluated for a later decision. Work required at MAF to retire 
the Space Shuttle External Tank production after 2010 is still under 
study.

Q1c.  When do you expect operations to return a level similar to that 
of the Shuttle assembly?

A1c. There will be a ramp down from External Tank production and a ramp 
up for Orion primary structure and Ares I Upper Stage work, but total 
facility utilization will not be the same as ET production until the 
lunar elements (Ares V Core Stage, Earth Departure Stage) ramp up 
around 2015.
    The development schedule for the Constellation program is paced in 
large part by available resources--primarily annual appropriated 
budgets, but also by technology readiness, and the availability of 
skilled workforce and unique facilities.

Q1d.  To help bridge the workforce gap, are there any efforts underway 
to accelerate work on the Ares V program--either through early risk 
mitigation studies or conceptual design development?

A1d. Yes, both of these are being considered; however, requirements 
maturity, funding availability, and workforce availability are the 
driver elements. Congressional support for NASA's full FY 2009 budget 
request will help ensure stable and adequate funding so that an 
effective workforce transition will be implemented based upon dynamic, 
yet relatively predictable programmatic and mission requirements. 
Awarding lunar contracts on the schedule supported by the FY 2009 
budget request provides evidence of emerging opportunities, reduces 
workforce concern and uncertainty about the impending human space 
flight gap, and facilitates workforce strategy development and 
mitigation plans.

Q1e.  Can you discuss what steps NASA is taking to ensure we don't lose 
our highly skilled technical workforce in this region?

A1e. NASA is considering component production for additional External 
Tank elements as both a flight manifest risk reduction activity and a 
critical skills retention activity. Additionally, NASA is considering 
early Ares V beneficial activities and skills bridging or retention 
activities. The Agency is also completing specific workforce and skill 
mix requirements and availability analyses. Collectively, these will 
drive the forward decision-making in this area.
    As NASA reaches the end of the Space Shuttle Program, specific 
Space Shuttle contract actions will be used to retain workers needed 
for Space Shuttle even as new Constellation work is competed with 
industry. NASA is assisting in the development and implementation of 
contract workforce retention plans for each Space Shuttle prime 
contractor, with a focus on communication and future work. Several of 
the four prime contractors are implementing monetary retention 
incentives. As appropriate, the contractor community is using a range 
of tools, such as cross-training, to demonstrate a future path for 
employees, as well as embedding personnel with operational experience 
in the design phases of Constellation's vehicles.

Q2.  Currently, Michoud manufactures the Space Shuttle External Tank.

Q2a.  What role will Michoud play in the Constellation system?

A2a. MAF will play a critical role as a multi-project strategic 
production facility for Constellation. Orion and Ares I Upper Stage 
prime contractors currently plan to use Michoud. The Constellation 
Program has future plans for production of Ares V Core Stage and the 
Earth Departure Stage at MAF.

Q2b.  How much as been allocated to award contracts at Michoud?

A2b. Contracts for Orion and Ares I Upper Stage production have been 
awarded to Lockheed Martin and Boeing, respectively. Those contracts 
have some work being performed at Michoud, such as manufacturing of the 
Orion primary structure and upper stage core and instrument unit ring, 
as well as other locations around the country. The contract structure 
does not allocate funding for a particular location, but rather an end 
item.

Q2c.  Can you provide me your best estimate on approximate workforce 
numbers for the Michoud facility on the Orion, Ares I and Ares V 
programs in the coming years?

A2c. Due to the recent award of the Boeing Upper Stage Contract and 
recent plans by Lockheed Martin to bring additional design work to 
Michoud, the estimates are dynamic and not yet available. Additionally, 
this year, the new Michoud Maintenance and Operations contract will be 
awarded, further driving the workforce estimate. Preliminary workforce 
estimates are included in the NASA Workforce Transition Plan submitted 
to the Subcommittee on March 31, 2008. This report will be updated and 
submitted to the Congress every six months.

Q3.  NASA remains on Government Accountability Office (GAO's) ``high 
risk'' list for contract management practices, and an independent audit 
for FY 2007 found that NASA's financial management systems are not 
substantially compliant with the Federal Financial Improvement Act of 
1996.

Q3a.  How will this affect NASA's ability to enter into contracts to 
begin development and construction for the Constellation modules?

A3a. NASA's status on the GAO High-Risk List will not impact the 
Agency's ability to enter into contracts. NASA's High-Risk Corrective 
Action Plan seeks to improve the effectiveness of its program/project 
management across the board, including monitoring and analyzing 
contractor performance; life cycle cost/schedule management practices; 
cost estimating practices; and associated business processes.

Q3b.  How will this affect NASA's ability to effectively execute the 
Enhanced Use Leasing authority it is seeking from Congress?

A3b. NASA's status on the GAO High-Risk List will not impact the 
Agency's ability to effectively execute the Enhanced Use Leasing 
authority. NASA's High-Risk Corrective Action Plan seeks to improve the 
effectiveness of its program/project management across the board, 
including monitoring and analyzing contractor performance; life cycle 
cost/schedule management practices; cost estimating practices; and 
associated business processes.

Questions submitted by Representative Charles A. Wilson

Q1.  While NASA acknowledges that assuring the safety, health and 
performance of astronauts is critical to the success of the Exploration 
Systems Mission, funding for the Human Research Program has been 
dramatically reduced in recent years with no significant growth in 
funding requested for FY 2009 and beyond. It remains hard to reconcile 
this funding plan with the criticality of keeping and maintaining the 
health and safety of our astronauts. The issue on the current Shuttle 
mission to the International Space Station illustrates the importance 
of astronaut health to mission success. What is NASA's plan and 
funding, particularly for Human Health Countermeasures and Exploration 
Medical Capability, to develop the necessary understanding of the 
effects of zero and partial gravity environments on humans, develop and 
verify effective countermeasures, retire risks, and deliver required 
medical care to astronauts on exploration missions?

A1. NASA believes that crew safety, health, and performance is the 
Agency's highest priority and will ensure that adequate resources are 
available to address the human health risks associated with our 
nation's exploration missions. To that end, NASA's Human Research 
Program (HRP) has developed a risk-based management approach to assess 
all human health risks associated with the planned architecture for 
exploration missions. These risks were baselined in the HRP Program 
Requirement Document in May 2007, and are currently being reviewed by 
the Institute of Medicine of the National Academies. By addressing the 
risk-associated gaps in knowledge, technology, and countermeasures in a 
time-phased manner, HRP will mitigate and retire these risks as 
required to meet the exploration mission plans.
    Using these risks and gaps as the framework, the program ensures 
that appropriate resources are allocated to tasks to address gaps and 
in-turn to mitigate human health risks associated with space 
exploration. Based on its Integrated Research Plan established in 
December 2007, HRP's assessment is that there is sufficient funding to 
address all near-term gaps in knowledge, technology, and 
countermeasures associated with the return to the lunar surface. If 
through further analysis it becomes evident that there is a budget 
shortfall in any of the identified human health risks, NASA will take 
immediate steps to address this resource issue to protect crew health 
and safety.
    Regarding the Human Health Countermeasures and Exploration Medical 
Capability areas of research, HRP has identified the following human 
health risks associated within these areas:

        <bullet>  Risk of Accelerated Osteoporosis

        <bullet>  Risk of Orthostatic Intolerance During Re-Exposure to 
        Gravity (dizziness, fainting)

        <bullet>  Risk of Inaccurate Assessment of Cardiovascular 
        Performance

        <bullet>  Risk Factor of Inadequate Nutrition

        <bullet>  Risk of Compromised EVA Performance and Crew Health 
        Due to Inadequate EVA Suit Systems

        <bullet>  Risk of Impaired Performance Due to Reduced Muscle 
        Mass, Strength and Endurance

        <bullet>  Risk of Operational Impact of Prolonged Daily 
        Required Exercise

        <bullet>  Risk of Bone Fracture

        <bullet>  Risk of Invertebral Disc Damage

        <bullet>  Risk of Renal Stone Formation

        <bullet>  Risk of Cardiac Rhythm Problems

        <bullet>  Risk of Reduced Physical Performance Capabilities Due 
        to Reduced Aerobic Capacity

        <bullet>  Risk of Crew Adverse Health Event Due to Altered 
        Immune Response

        <bullet>  Risk of Impaired Ability to Maintain Control of 
        Vehicles and Other Complex Systems

        <bullet>  Risk of Therapeutic Failure Due to Ineffectiveness of 
        Medicine

        <bullet>  Risk of Inability to Adequately Treat an Ill or 
        Injured Crew Member

    HRP is currently funding tasks that address the mitigation of risks 
associated with Human Health Countermeasures and Exploration Medical 
Capability. Examples of tasks that are providing significant progress 
include the following:

        <bullet>  HRP has recently completed ISS data collection on a 
        countermeasure to mitigate the risk of renal stone formation

        <bullet>  HRP has recently completed an Antarctic nutrition 
        study on efficacy of Vitamin D supplementation using the 
        Antarctic ground facility as an analog for space flight. This 
        study undertaken jointly with the National Science Foundation, 
        measured the dose of vitamin D needed to reach and maintain a 
        desirable vitamin D status in the absence of sunlight

        <bullet>  HRP uses the ISS as a research platform to understand 
        the effects of long-duration space flight on humans and to 
        develop/test countermeasures that reduce the medical risks of 
        human space flight. HRP is currently undertaking or developing 
        ISS research that addresses Accelerated Osteoporosis, 
        Orthostatic Intolerance, Altered Immune Response, 
        Cardiovascular Performance, Inadequate Nutrition, Reduced 
        Aerobic Capacity, Cardiac Rhythm Problems, Inability to 
        Adequately Treat an Ill or Injured Crew Member, and Impaired 
        Ability to Maintain Control of Vehicles and Other Complex 
        Systems

        <bullet>  HRP is currently undertaking or developing research 
        in its ground-based facilities, such as its joint bed-rest 
        facility with the National Institutes of Health, that 
        addresses: Accelerated Osteoporosis, Impaired Performance Due 
        to Reduced Muscle Mass, Strength and Endurance, Compromised EVA 
        Performance and Crew Health Due to Inadequate EVA Suit Systems, 
        Bone Fracture Risk, and Operational Impact of Prolonged Daily 
        Required Exercise

    In order to leverage resources to help ensure the timely 
development and validation of countermeasures and technologies, NASA 
and HRP partner with academia, other federal agencies (e.g., National 
Institutes of Health, Department of Energy), international space 
agencies (e.g., Canadian Space Agency, European Space Agency, Russian 
Space Agency), and private industries to mitigate the human health 
risks associated with exploration. HRP also uses national research 
announcements to provide an opportunity for universities, non-profit 
and commercial organizations to provide high-quality research that will 
directly benefit the Agency and create more effective research 
partnerships between NASA and the national biomedical research 
community. A key cooperative agreement is with the National Space 
Biomedical Research Institute (NSBRI), a consortium of 12 academic 
institutions from across the Nation. The goal of this important 
partnership is to conduct research to understand the effects of 
microgravity on humans, and to develop effective countermeasures to 
mitigate the risks associated with space flight. In support of NASA, 
NSBRI defines, selects and conducts external space biomedical research 
associated with human exploration risks for approximately 60 grants 
involving investigators at more than 70 institutions in 22 states 
across the United States. NASA/NSBRI steering committee and discipline 
teams jointly coordinated this research.
    Finally, the research that HRP undertakes serves to inform the 
space flight health standards as maintained by the Office of the Chief 
Health and Medical Officer. These documents establish NASA's space 
flight crew health standards for the pre-flight, in-flight, and post-
flight phases of human space flight. The Space Flight Health Standards 
for Human Performance apply to all NASA human space flight programs.

Q2.  The Innovative Partnerships Program (IPP) provides technology 
solutions for NASA programs and transfers NASA technologies to the 
private sector for non-NASA applications. While the IPP budget remains 
essentially constant over the period FY 2009 to FY 2013, the funding 
for Technology Transfer Partnerships is estimated to decrease over this 
period in addition to reductions taken in prior fiscal years. In 
today's economic situation it is important to take every opportunity to 
stimulate the Nation's economy. What is NASA's plan for technology 
transfer to the private sector and what can be done to provide greater 
economic benefit from this critical function?

A2. All of the NASA IPP program elements contribute to increased 
commercial activity. Consequently, traditional ``technology transfer 
out'' is only one of several ways in which IPP contributes to the 
Nation's economic development. IPP consists of the following program 
elements: Partnership Development, which includes traditional 
Technology Transfer Out, Intellectual Property Management, and dual-use 
Technology Development Partnerships; Technology Infusion, which 
includes the IPP Investment Seed Fund and the Small Business Innovative 
Research (SBIR)/Small Business Technology Transfer (STTR) programs; 
Innovation Incubator, which includes Centennial Challenges as well as 
new initiatives such as facilitating the purchase of services from the 
emerging commercial space sector.
    IPP's Technology Transfer Out function involves licensing of NASA 
technologies for commercial application and other public benefit. In FY 
2007, IPP facilitated signing of 35 license agreements and 598 software 
use agreements. The Intellectual Property Management function enables 
the reporting of new NASA invention disclosures. As a result of IPP's 
FY 2007 and prior years efforts, over 100 NASA patent applications were 
filed and 93 patents awarded in FY 2007. The Intellectual Property 
Management function therefore complements the Technology Transfer Out 
function by facilitating protection of the technology that becomes the 
subject of NASA licenses.
    IPP facilitates NASA's entering into dual-use Technology 
Development Partnerships. From NASA's perspective, the primary purpose 
of these partnerships is to provide needed technology and capabilities 
for NASA's Mission Directorates, Programs, and Projects at less cost 
through investments and partnerships with private and other external 
entities. At the same time, these partnerships enable industrial 
entities to jointly develop commercially applicable technologies at 
less cost to them. In addition, industry can take advantage of the 
Agency's unique capabilities and facilities through partnering. The 
technology spectrum of interest to NASA is so broad that it is 
difficult to imagine a key industrial sector that could not benefit 
from partnering with NASA. In FY 2007, IPP facilitated NASA's entering 
into over 200 such partnerships with private and other external 
entities.
    Similarly, IPP's Investment Seed Fund is designed to enhance NASA's 
ability to meet mission technology goals by providing seed funding to 
address barriers and initiate cost-shared, joint technology development 
partnerships. Seed Fund projects encourage, to the maximum extent 
possible, leveraging of funding, resources, and expertise from non-NASA 
partners, NASA Programs and Projects, and NASA Field Centers. Over the 
life of IPP's Investment Seed Fund, which spans FY 2006-2007, IPP's 
$15.9 million investment has generated 67 partnerships and resulted in 
$26.3 million in private capital investment contributed by industrial 
partners and $20.0 million in contributions from NASA's other programs 
and projects for a total of $62.2 million for the advancement of Agency 
critical technologies also having significant commercial applicability.
    IPP's SBIR/STTR program provides the small business sector with the 
opportunity to provide mission use technology for NASA. At the same 
time, historically about 30 percent of NASA's phase II SBIR/STTR 
technologies have been commercially applied in key sectors such as 
aviation, agriculture, automotive manufacturing, advanced materials, 
communications, electronics, environment protection, sensors, robotics, 
medicine, manufacturing, heating/air conditioning, optical 
instrumentation, computing, and software development.
    Centennial Challenges is IPP's program of prize contests to 
stimulate innovation and competition in NASA mission areas. By making 
awards based on actual achievements, instead of proposals, Centennial 
Challenges seeks novel technological solutions to NASA's mission 
challenges from non-traditional sources of innovation in academia, 
industry, and the public. As a byproduct, Centennial Challenges is 
sparking inventive genius and real technology advances created by 
individuals, academia, and corporations of all sizes, thus providing 
the basis for future commercial applications and related private 
capital investment.
    NASA recently made a selection in a competitive procurement to 
provide commercial parabolic aircraft flight services to simulate 
multiple gravity environments. IPP will utilize this contract to 
initiate a new activity--Facilitated Access to the Space environment 
for Technology development and training (FAST). FAST will provide 
partnership opportunities involving technology development that relies 
on limited exposure to the microgravity environment. FAST has the dual 
objectives of demonstrating the purchase of commercial services from 
the emerging commercial space sector, and advancing maturity of dual-
use technologies through use of those services.
    Regarding advancements in IPP program implementation efficiencies, 
IPP is in the process of improving its website and its publications, 
Spinoff Magazine, TechBriefs Magazine, Innovation Magazine, for the 
purposes of generating increased interest in, and making licensing, 
partnership development, as well as other opportunities available to a 
broad range of entities, nationwide. Also, IPP is improving its 
information technology capabilities that are expected to increase new 
technology reporting compliance and improve partnership development 
management.
    Accordingly, the IPP program, through its various program elements, 
therefore provides the opportunity for a broad spectrum of industry, 
large and small companies alike, to contribute to NASA's missions and 
simultaneously enhance their own competitive positions in international 
markets. IPP also challenges the ingenuity of grass roots citizens, 
inviting entrepreneurs, inventors, and students alike to create 
innovative technology and thereby contribute to NASA's missions, as 
well as to help build the foundation for the Nation's future economic 
prosperity.

Questions submitted by Representative Ralph M. Hall

Science Research to Operational Capability

Q1.  The National Research Council has reported several times on the 
difficulties of the transition of research assets developed by NASA to 
operational assets managed by NOAA. In particular, one criticism is 
that while there have been transitions that have been successful; the 
transition of assets is, by and large, an ad hoc process.

Q1a.  Has there been any progress on the development of some type of 
standardized procedure or memorandum of understanding between NASA and 
NOAA that would provide guidance for future transitions of assets?

A1a. Substantial progress has been made by NASA and NOAA to ensure 
maximum coordination in the design, operation, and transition of 
missions, where appropriate, and to prepare transition plans for the 
existing and future Earth observing systems found to have potential 
operational capabilities. Specific examples are outlined below.
    In December 2005, the NASA Associate Administrator for the Science 
Mission Directorate (SMD) and the Department of Commerce (DOC) Deputy 
Under Secretary for Oceans and Atmosphere approved the Interagency 
Agreement on Terms of Reference for the NASA Earth Science--NOAA Joint 
Working Group (JWG) on Research and Operations. The Director, NASA 
Earth Science Division, and the Assistant Administrator, NOAA Satellite 
and Information Services, oversee the JWG. The JWG Co-Chairs are the 
Associate Director for Research, NASA Earth Science Division, and the 
Director, Climate Program Office, NOAA Office of Oceanic and 
Atmospheric Research. In October 2006, the Director, NASA Earth Science 
Division, and the Assistant Administrator, NOAA Satellite and 
Information Services, established a NASA-NOAA Roundtable that meets 
approximately quarterly for oversight of JWG functions.
    In April 2006, the JWG convened a NASA-NOAA Workshop on Research 
and Operations Transition Opportunities on five themes: (1) observing 
capability transition; (2) mission extension; (3) Earth system data 
records; (4) accelerating the operational use of research data; and (5) 
tools and standards. Results of the workshop were outlined in the 
annual report submitted to Congress in July 2008 regarding coordination 
of Earth science programs for NASA and NOAA as required by Section 306 
of the NASA Authorization Act of 2005 (P.L. 109-155). The next update 
to this annual report will be submitted to the Committee in the coming 
weeks.
    Since the June 2006 Nunn-McCurdy certification of the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS), the 
JWG supported the NASA and NOAA joint effort to mitigate the loss of 
climate instruments. In January 2007, NASA and NOAA jointly transmitted 
``Impacts of NPOESS Nunn-McCurdy Certification on Joint NASA-NOAA 
Climate Goals'') to the White House Office of Science and Technology 
Policy (OSTP). The four highest-ranked measurement capabilities listed 
in the report were total solar irradiance, Earth radiation balance, 
ocean surface topography, and vertical profiles of ozone.
    In April 2007, NASA and NOAA agreed to equally share the cost to 
incorporate the Ozone Mapping and Profile Suite Limb instrument on the 
NPOESS Preparatory Project (NPP) set to launch in June 2010. In January 
2008, NASA and NOAA agreed to modify the Clouds and the Earth's Radiant 
Energy System (CERES) instrument, which was intended for launch on the 
first NPOESS spacecraft now delayed to January 2013. The CERES 
instrument will be launched on NPP to provide continuity with CERES 
data recorded on NASA's Aqua and Terra satellites. In 2008, NASA and 
NOAA will jointly develop a plan to fly a Total Solar Irradiance (TSI) 
instrument on a platform-of-opportunity.
    In January 2008, the NASA-NOAA Roundtable established a research-
to-operations joint working team (R2OJWT) to develop processes to 
transition the NASA satellite nadir altimetry research measurement 
capability to NOAA for operational service. As noted above, the 
satellite nadir altimetry measurement capability had the third highest 
priority in the NASA-NOAA report to OSTP on mitigating the impact of 
the Nunn-McCurdy certified NPOESS.
    The R2OJWT was instructed to consider the guidance provided in the 
report ``Satellite Observations of the Earth's Environment: 
Accelerating the Transition of Research to Operations'' published in 
2003 by the National Research Council (NRC) Committee on NASA-NOAA 
Transition from Research to Operations, known as the CONNTRO Report. 
The Roundtable will provide oversight guidance of the R2OJWT's 
activities.
    Valuable lessons learned by the R2OJWT will guide the establishment 
of an Interagency Transition Office (ITO), which will be jointly 
staffed by NASA and NOAA. While funds are not now available to fully 
implement all CONNTRO Report recommendations, NASA and NOAA intend to 
formally implement an ITO activity.

Q1b.  If not, do you plan on reaching out to NOAA to develop such 
guidance?

A1b. As outlined above, NASA and NOAA have an ongoing process to 
achieve the transition of NASA satellite measurement capabilities 
designed for research purposes to NOAA satellite measurement 
capabilities for operational utilization of the data. NASA and NOAA 
have chosen the satellite nadir altimetry capability to be the first 
satellite measurement capability for transition from NASA to NOAA.

International Participation Limited by ITAR

Q2.  With respect to collaborating with our international partners on 
current and future missions, how severely does ITAR impede NASA's 
ability to work with foreign scientists, engineers, and space agencies? 
Based on your experience working under the ITAR regime, do you have any 
recommended changes that maintain the spirit of ITAR but that provides 
meaningful relief? If so, what are they?

A2. Although the Department of State has recently taken steps to 
address certain ITAR-related impediments, including actions in 
furtherance of the President's export control reform directives of 
January 22, 2008, some ITAR requirements continue to impact NASA's 
ability to work with its international partners. The most common ITAR 
concerns for NASA and its contractors relate to export license process 
requirements, license restrictions regarding anomaly resolution, and 
restrictions affecting foreign governmental employees with dual-
nationalities. These problems result in schedule delays, cost overruns, 
the need for workarounds, and the inability of contractors to perform 
necessary work with NASA's international partners in the absence of 
proper export control authorizations; they may also impede the ability 
of NASA and its contractors to expeditiously take action to assure 
operations safety and mission success. Accordingly, NASA has been 
working closely with the Department of State since 2001 on proposals to 
obtain its own export authority and other improvements to address these 
challenges. The centerpiece of this effort for NASA has been the 
pursuit of an appropriately-circumscribed ITAR exemption, modeled on 
the Arms Export Control Act's Foreign Military Sales exemption utilized 
by the Department of Defense and its contractors. This approach is 
consistent with the recommendations of both the Congressionally-
chartered International Space Station (ISS) Independent Safety Task 
Force (IISTF) report of February 21, 2007, which found that ITAR 
restrictions ``are a threat to the safe and successful integration and 
operations of the [International Space] Station'' and recommended that 
the Department of State ``grant immediate relief in the form of an 
[ITAR] exemption,'' and the May 18, 2007, NASA Advisory Council 
endorsement of an exemption ``to facilitate NASA's critical tasks in 
implementing the [U.S. Space Exploration Policy] and other NASA 
programs.'' Recently, the State Department advised NASA to seek 
legislative authority as a prerequisite to the Department's 
promulgation of an exemption to facilitate the implementation of NASA's 
programs, including the U.S. Space Exploration Policy. NASA will 
continue to work closely with the State Department and other agencies 
of the Government on this recommendation and other appropriate avenues 
to address NASA's ITAR-related concerns and those of its contractors.

Earth Science Decadal Survey

Q3.  Last year, the National Research Council released its report, 
``Earth Science and Applications from Space: National Imperatives for 
the Next Decade and Beyond'' in which they identified 17 critical 
missions that should be undertaken in the next decade. Based on the 
usefulness of this information to the operational and scientific 
communities studying climate change, does NASA have a plan to work with 
NOAA regarding the prioritization, funding and management of these 
missions? If not, why not?

A3. Yes. The National Research Council's Decadal Survey (NRC, 2007), 
the first such survey for NASA Earth Science and NOAA, recommended 
fourteen and two satellite missions, respectively, to launch during 
2010-2020. One additional mission was recommended for NASA and NOAA to 
jointly implement for launch in 2010-2013. The Decadal Survey mission 
priorities are the principal determinant of the priority of NASA's 
Earth Science satellite missions beyond those currently in development.
    At NASA's invitation, NOAA participated in NASA-sponsored community 
workshops in June and July 2007 to initiate scientific discussions of, 
and begin defining data products from, the four near-term missions 
assigned to NASA by the Decadal Survey. A report of each workshop is 
available at http://nasascience.nasa.gov/earth-science. One of these 
four (CLARREO) is the mission the NRC recommended for joint NASA/NOAA 
implementation. In addition, NOAA is also exploring, with NASA 
participation, concepts for a satellite ocean vector winds mission that 
can meet NOAA mission requirements, which the Decadal Survey named the 
``eXtended Ocean Vector Winds Mission'' (XOVWM).
    Each Agency will prioritize, fund, and manage the missions and 
mission elements for which it is responsible. For the joint NASA/NOAA 
mission recommended by the NRC (CLARREO), the NRC recommendation 
contained a first-order distribution of responsibilities for the 
Agencies--it was recommended that NASA should fund and manage the 
spectrally resolved measurements, while it was recommended that NOAA 
should fund and manage the broadband measurements. On a reimbursable 
basis, NASA has been supporting NOAA on studies of the XOVWM mission.
    A more complete description of NASA/NOAA collaboration in Earth 
Science, including activities related to Decadal Survey and other NRC 
recommendations, is reported to Congress annually in a report required 
by Section 306 of the NASA Authorization Act of 2005 (P.L. 109-155).

National Polar-orbiting Operational Environmental Satellite (NPOESS)

Q4a.  Last month, the Executive Committee (EXCOM) for the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) met 
for its regular quarterly meeting. As I understanding it, during that 
January EXCOM, there was a decision to keep the VIIRS instrument as 
part of the NPP satellite (the first NPOESS satellite), which has 
caused an eight-month slip in the timeline for launch. How did this 
eight-month slip occur?

A4a. The delay in the launch readiness date of the NPP satellite is 
driven entirely by delays in the delivery of the Visible Infrared 
Imager Radiometer Suite (VIIRS) instrument.

Q4b.  What is the EXCOM doing to ensure that further slips will not 
delay the satellite any longer?

A4b. VIIRS has been built and is undergoing a series of tests to 
qualify for the NPP mission. To enable timely actions to keep NPP on 
schedule, the EXCOM meets approximately quarterly with high-level 
management of the manufacturers preparing VIIRS for deployment on NPP. 
In addition, the EXCOM meets at quarterly intervals with the NPOESS 
Program Executive Officer (PEO), who has oversight of delivery of VIIRS 
on NPP. The EXCOM receives monthly status reports from the PEO. In 
January, the EXCOM directed the PEO to meet biweekly with the 
leadership team of the VIIRS contractor to ensure that the Government 
concerns are being addressed. The PEO delivers a report on the outcome 
of those meetings to the EXCOM.

Q4c.  What is the effect to the program if further delays are 
experienced?

A4c. The additional cost to NASA associated with an eight-month delay 
from September 30, 2009, to June 2, 2010 is a total of $42.2M. The 
additional amount for an eight-month delay covers the following costs:

        <bullet>  A technical support workforce and infrastructure are 
        required to maintain already-built instruments, equipment, and 
        facilities to be available at launch. The major NASA-provided 
        items are the spacecraft; the Advanced Technology Microwave 
        Sounder (ATMS) instrument; the Science Data System (SDS) 
        Product Evaluation and Analysis Tool Elements (PEATES) for the 
        atmosphere, ocean, land, ozone, and sounder; the launch 
        vehicle; and the management for the NPP mission. The ATMS has 
        already been integrated into the spacecraft and the PEATES are 
        ready to perform their tasks. The subtotal for these activities 
        is $22 million.

        <bullet>  In 2008 and 2009, NASA will modify the Clouds and the 
        Earth's Radiant Energy System (CERES) Flight Model (FM) 5 
        instrument and the spacecraft, and integrate CERES with the NPP 
        spacecraft and ground data system. These minor modifications 
        can be undertaken without significantly impacting technical 
        risk or schedule for NPP. The cost for activities related to 
        the CERES instrument is $17.7M, primarily for data production 
        and product generation. The purpose of placing the CERES 
        instrument on NPP is explained below. In January 2008, the 
        EXCOM agreed with the NASA decision to add the only remaining 
        CERES instrument to NPP. The CERES FM5 instrument had been 
        scheduled to fly on the first NPOESS spacecraft to provide 
        continuity with CERES data recorded on NASA's Aqua and Terra 
        satellites, which will be operating beyond their design 
        lifetimes at the time of the planned launch of NPP. 
        Programmatic slips have delayed the first NPOESS launch to 
        January 2013. A gap of CERES top-of-atmosphere radiation budget 
        data in a changing climate system would require doubling the 
        length of the data set to quantify the impact of clouds on the 
        global integrated climate system.

        <bullet>  The eight-month delay will increase a variety of pre-
        operational costs totaling $2.5M.

    Should a delay occur after the scheduled launch date of June 2, 
2010, the cost to NASA to maintain instruments, infrastructure and 
activities in readiness for an NPP launch is $4.1M per month. This 
monthly amount covers costs for the spacecraft, ATMS instrument, CERES 
instrument, PEATES science data system, launch vehicle, and a variety 
of pre-operational activities. A delay penalty will increase launch 
vehicle costs from $0.6M per month before June 2, 2010, to $1.3M per 
month after June 2, 2010.

Restrictions on Purchasing Russian Launch Services

Q5.  Given the possibility that COTS (Commercial Orbital Transportation 
System) could fail to produce a viable cargo delivery capability and 
that the Iran, North Korea and Syria Non-Proliferation Act (INKSNA) 
bars NASA from purchasing launch services from Russia after 2011, what 
is NASA's backup plan to service and maintain ISS after 2011 if INKSNA 
is amended?

A5. NASA has always envisioned a mixed fleet strategy. If neither COTS 
nor non-U.S. vehicles are available to meet logistics needs for 
operating and maintaining the ISS, NASA would have no alternative but 
to actively and aggressively manage spacecraft systems degradation in a 
manner that minimizes the probabilities of loss of systems and loss of 
vehicle until such time as the needed transportation services become 
available. It should be noted that the European ATV has recently 
successfully docked to the ISS. The ISS partnership took measures 
during the period when the Shuttle was grounded following the Columbia 
accident to minimize logistics needs, so we have experience in managing 
with transportation constraints.

Q6.  NASA's FY 2009 budget request includes $2.6B to purchase ISS 
transportation services through 2013. In order for NASA to purchase 
Soyuz flights after 2011, Congress must amend the INKSNA. Assuming the 
Administration plans to seek an amendment for INKSNA, when should 
Congress expect to receive the request?

A6. On April 14, 2008, NASA submitted to the Congress a proposed 
amendment to extend the exception for payments to Russia for Soyuz crew 
transportation and rescue services until the Orion Crew Exploration 
Vehicle reaches Full Operational Capability or a U.S. commercial 
provider of crew transportation and rescue services demonstrates the 
capability to meet ISS mission requirements. It also extends through 
the life of the ISS the exception for payments for Russian-unique 
equipment and capabilities, such as sustaining engineering and spares 
(for example, acquiring Russian equipment for use in training in the 
U.S., and hardware, such as spares, to outfit the Russian-built, but 
U.S.-owned, Zarya module). NASA looks forward to working with the 
Congress on enactment of this legislation that is crucial for the long-
term operation of the ISS.

Rational for Ares Development

Q7.  Using material from the Exploration Systems Architecture Study, or 
other studies if appropriate, please detail for the record why the 
requirements of a lunar-capable Orion spacecraft dictate the 
development of Ares, and why Orion is incapable of using other launch 
vehicles. In the event that a future loss of the Ares launch vehicle 
causes a stand-down, is there any contingency scenario that would 
permit Orion to be launched to the ISS on any currently existing launch 
vehicles either international or domestic?

A7. NASA evaluated many launch vehicle options that could be utilized 
for human space exploration missions. Over two years ago, the Agency 
conducted a very thorough study of architectural alternatives to meet 
our needs for International Space Station resupply and return to the 
Moon during the Exploration Systems Architecture Study (ESAS). The 
principal factors considered during ESAS were the desired lift 
capacity, the comparative reliability, and the development and life 
cycle costs of different approaches. A primary driver for developing 
the Ares I launch vehicle is that NASA required a human-rated launch 
vehicle to transport the crew into low-Earth orbit. The Ares I is 
comprised of components used in a human-rated vehicle (Space Shuttle), 
because the identified safety projections for the selected Shuttle-
derived solution are approximately two times that of the Evolved 
Expendable Launch Vehicle (EELV) based Crew Launch Vehicle (CLV) 
solutions.
    Among these approaches, NASA considered existing vehicles, such as 
the EELV fleet, to meet crew and cargo transportation needs. The 
additional information following outlines in depth why NASA decided to 
move forward with the Ares launch vehicles after careful consideration 
and study of other launch alternatives.
    NASA does not have a contingency option to fly the Orion Crew 
Exploration Vehicle on any other vehicle, regardless of whether it is a 
domestic commercial, international commercial or foreign government 
vehicle. The Orion was built to meet specifications of the Ares Crew 
Launch Vehicle. Modifying Orion to fit other EELVs would be beyond 
NASA's budget and require significant changes to the EELVs.

Additional information

February 2008

Why NASA Chose to Utilize a Shuttle-Derived Crew Launch Vehicle Instead 
          of Human Rating an Evolved Expendable Launch Vehicle

    NASA evaluated many launch vehicle options that could be utilized 
for human space exploration missions. The principal factors considered 
were the desired lift capacity, the comparative reliability, and the 
development and life cycle costs of different approaches. Among these 
approaches, NASA considered existing vehicles, such as the EELV fleet, 
to meet crew and cargo transportation needs. This white paper outlines 
why NASA decided to move forward with the Ares launch vehicles after 
careful consideration and study of other launch alternatives.

Developing NASA's Exploration Architecture

    NASA is developing the Exploration architecture to safely and 
affordably transport humans and cargo beyond low Earth orbit (LEO). 
This multi-purpose architecture is not simply a ``ferry to the 
International Space Station (ISS),'' or a ``Shuttle replacement.'' 
Instead, by utilizing tested human space elements, it includes the 
Heavy Lift Launch Vehicle (HLLV) to deliver up to 70-75 metric ton (mT) 
of cargo to Trans Lunar Injection (compared to the Apollo/Saturn 
capability of approximately 47 mT).
    NASA studied hundreds of commercial, Government and concept launch 
vehicle and architecture systems prior to 2005, culminating in the 
release of the Exploration Systems Architecture Study (ESAS). NASA 
studied Space Shuttle-derived, EELV-derived as well as ``clean sheet'' 
launch vehicle architectures in cooperation with the U.S. launch 
industry, and concluded that the Ares I and V system architecture 
provided the optimal solution for both LEO and beyond LEO applications. 
Figures of Merit (FOMs) used during the studies--cost, reliability, 
human safety, programmatic risk, mission performance and schedule--were 
applied to drive out the best alternative in the analysis. Additional 
considerations included legal requirements from the NASA Authorization 
Act of 2005 (P.L. 109-155), workforce skills and industrial 
capabilities. After a thorough analysis of the entire Exploration 
architecture requirements, EELV solutions were ultimately determined to 
be less safe, less reliable, and more costly than the Shuttle-derived 
solutions in development.
    The ESAS concluded that NASA should adopt and pursue a Shuttle-
derived architecture as the next-generation launch system for 
exploration missions due to their significant advantages, particularly 
with respect to safety, reliability, and cost. The extensive flight and 
test databases of currently flying hardware/software give a very strong 
technical and safety foundation with clearly defined and understood 
elements to anchor next-generation vehicles and minimize development 
costs and risks to flight crew. In addition, NASA's approach allows the 
Nation to leverage significant existing ground infrastructure 
investments (Kennedy Space Center (KSC); Michoud Assembly Facility 
(MAF), etc.) and personnel with significant human space flight 
experience. Overall, NASA's Shuttle-derived approach was found to be 
the most affordable, safe, and reliable approach, both by leveraging 
proven human rated vehicle and infrastructure elements and by using 
common elements across the architecture. While NASA continues to 
conduct trade studies aimed at refining the Ares V architecture for 
minimum development risks and operational costs, the Agency is 
committed to the fundamental Ares I/V approach established over two 
years ago.
    The next section of this white paper explores some of the specific 
reasons why NASA chose the Ares architecture for future space flight 
missions, both manned and unmanned.

The Ares versus the EELV

Vehicle Performance: The EELV crew transport options examined were 
those of the Delta IV and Atlas V families. The study focused on the 
heavy lift versions of both Delta (currently flying) and Atlas families 
(drawings only), and confirmed that none of the medium versions of 
either vehicle had the capability to accommodate the Orion Crew 
Exploration Vehicle lift requirements. The Medium class EELVs, with no 
additional solid boosters, significantly under performed by 
approximately 40-60 percent. The option of using small, strap-on solid 
boosters was eliminated for safety reasons in the Orbital Spaceplane 
Safety Study conducted in 2004. Both EELV-heavy vehicles were assessed 
to require significant modification for human-rating, particularly in 
the areas of avionics, telemetry, structures, and engine selection. 
Additionally, both the Atlas and Delta Heavy classes required 
development of new upper stages to achieve the lift performance 
required to launch Orion. Ares I is designed to launch the 23.3 mT 
Orion vehicle, which consists of the crew and service modules, into 
LEO. The Ares can also launch a 20.3 mT Orion to the inclination of the 
ISS.
    The ESAS assessment showed that lunar missions requiring more than 
three launches dramatically reduced the probability of mission success. 
Therefore, NASA issued an architecture goal to minimize complex on-
orbit assembly, and also placed a limit to no more than three launches 
for a mission. For lunar missions, this equates to a launch vehicle 
design with a lift capability near 100 mT or greater to LEO. Early in 
the trade study process, NASA identified the current EELV fleet, if 
used for lunar cargo missions, would require more than seven launches 
per lunar mission. This very high number of flights per mission is 
unacceptable from a mission success probability standpoint and did not 
meet the NASA goal of three launches maximum.
    While elements of current EELVs can be utilized to develop a 100 mT 
LEO equivalent launch vehicle (boosters, engines, etc.), the lack of 
acceptable EELV boost stage performance (compared to Shuttle-derived 
hardware) drives the need for an additional Liquid Oxygen (LOX)/Liquid 
Hydrogen (LH2) stage to reach orbit. The EELV-derived solutions 
required two upper stages as well as additional strap on core boosters 
to provide the necessary lift capability to minimize launches for on-
orbit assembly. These characteristics were deemed to decrease mission 
safety and reliability while increasing costs to unacceptable levels 
based on NASA requirements. NASA did not pursue ``clean sheet of 
paper'' designs because it was deemed too risky and expensive.

Crew Safety/Reliability: The current EELVs were designed to carry 
unmanned payloads. Modifying the EELV design to meet the Human-Rating 
Requirements would require changes in areas such as flight termination 
system changes to add a time delay for an abort scenario and in-flight 
crew control/abort capabilities. The use of EELVs for crew 
transportation would also require NASA to invest significant funds into 
pad modifications required for crew access/emergency egress that 
currently does not exist at the EELV launch site. Based on ESAS 
assessments, the Shuttle-derived launch vehicle was highest-rated in 
terms of crew safety by about a factor of two over other options (Loss 
of Crew approximately 1/2000). This confidence for crew safety is 
driven by the extensive history of the Shuttle system, which far 
surpasses the experience base for any other existing system. To add to 
the reliability of the system, the Ares I hardware is recovered and 
inspected for any system anomalies. In addition, Shuttle propulsion 
systems are already ``human-rated'' which mitigates one of the highest 
programmatic risks for a launch vehicle. Leveraging systems that are 
already human-rated reduces the uncertainties and risks associated with 
human-rating the new CLV. In addition, the current EELVs have a booster 
structural Factor of Safety (SF) of =1.25, where NASA requires that all 
structures have a 1.4 Factor of Safety (NASA Standard NASA-STD-5001). 
If the Agency were to accept the reduced SF of the EELVs, a large 
engineering and development effort would be required to validate 
structural integrity relative to NASA Standard and would likely 
eventually lead to some structural redesign of select systems. In 
addition, main propulsion systems would require modification, for 
example, the RL-10 upper stage engine would also require human-rating 
in areas such as: Redundancy upgrades; increased subsystem robustness; 
fault detection; isolation and recovery; engine redlines; safe in-
flight shutdown mode; and, any design changes from structural 
assessments. For Atlas V, RD-180 American co-production and human-
rating would be required adding greater challenges. From a human-rating 
perspective, the RD-180 will require additional redundancy and 
increased robustness in select systems. Finally, for Delta IV, several 
modifications would be required to human-rate the RS-68 including 
extensive health monitoring, increased robustness of subsystems, and 
elimination of the fuel-rich environment at liftoff which would pose a 
crew hazard.

Life Cycle Costs: The Ares I and Ares V combination for lunar missions 
provides significantly lower non-recurring cost than that of the 
current EELV launch vehicle families. The Shuttle-derived launch 
vehicle combination allows for a ``1.5 launch'' solution whereas the 
EELV architectures required two HLLV launches with more expensive 
hardware costs. It was determined that the total EELV-derived CLV plus 
EELV-derived Cargo Launch Vehicle (CaLV) Design, Development, Test, and 
Evaluation (DDTE) costs are approximately 25 percent higher for EELV-
derived versus selected Shuttle-derived architecture.
    The launch cost for human-rated, EELV-derived systems is 
significantly higher than the current cost of a medium-class EELV. This 
launch cost also does not include the non-recurring development 
investment required to meet the Orion's lift requirements and human-
rate these systems, which has been estimated to cost in the several 
billions of dollars. In order for the unmanned payload customers to not 
incur the unnecessary additional costs for human-rated systems on the 
EELV, the EELV providers would likely need a unique human-rated variant 
which would increase the costs.
    NASA continued to refine its launch recommendations post-ESAS. In 
early 2006, NASA modified the architecture from a four-segment Reusable 
SRB (RSRB)/single Space Shuttle Main Engine (SSME) upper stage CLV, and 
a five-segment RSRB/Expendable SSME Core/J-2X Earth Departure System 
(EDS) CaLV to a five-segment RSRB/single J-2X upper stage CLV, and 
five-segment RSRB/RS-68 Core/J-2X EDS. After careful analysis, NASA 
elected to forgo the modification of the SSME for altitude-start and 
proceed directly to development a common J-2X engine for both the Ares 
I upper stage and the Ares V Earth departure stage, which sends the 
Orion crew capsule/lunar lander combination to the Moon. This new 
approach eliminates a top ESAS-identified risk--SSME altitude start--
and addresses another risk--J-2X development--sooner thereby lowering 
overall Exploration risks and costs. In addition, the inordinate 
expense of using five SSMEs with each cargo launch made the selection 
the relatively simple (and much less costly), utilizing the expendable 
RS-68 engine with the added advantage of using a common engine to meet 
both Department of Defense and NASA needs. With this approach, engine 
development for the Ares I provides a significant and direct ``down 
payment'' on the Ares V test and development plan. Selecting common 
hardware not only maximizes non-recurring investments and reduces 
overall life cycle cost; it also gets NASA closer to enabling a lunar 
transportation system. Concentrating efforts on two major propulsion 
developments rather than on five, as was originally proposed, will 
reduce development costs by hundreds of millions of dollars and save 
billions in operations costs. These combined changes represented a 
projected savings of over $5 billion in life cycle costs over the 
initial ESAS recommendations.

Infrastructure and Capability Retention: While NASA will continue to 
use existing U.S. expendable launch vehicles for the robotic 
exploration missions (five to eight launches per year), the Ares V 
system leverages heritage human-rated systems such as the Shuttle Solid 
Rocket Motor; the Solid Rocket Booster, as well as heritage 
infrastructure, including the MAF in Louisiana; and the Vertical 
Assembly Building and crawler and launch complex 39 at KSC in Florida. 
To sustain the manufacturing infrastructure capability required for the 
Ares V between Shuttle retirement and the first human lunar launch, 
NASA's Exploration architecture (Shuttle-derived Ares I) ensured 
America's industrial base for production of large solid rocket systems, 
high-performance liquid engine systems, large lightweight stages, 
large-scale launch processing infrastructure, and the current 
production level of solid propellant fuels is available to support the 
Ares V. If NASA selected the EELV-based CLV options, this would have 
required a significant amount of ``keep alive'' costs to maintain the 
industry and Center infrastructure and skills assets for eventual use 
on Ares V development.

External Reviews: Several external reviews have been conducted with 
regard to NASA's launch vehicle selection, with all reviews to date 
supporting the direction of the Agency. NASA's conclusions regarding 
the Space Shuttle-derived Ares I and V vehicles have received agreement 
by the Department of Defense (DOD) and results were validated by 
Congressional Budget Office (CBO) and Government Accountability Office 
(GAO) reports. In 2005, the DOD reviewed NASA's analysis and concurred 
with NASA's approach. A joint recommendation was formally submitted in 
a memorandum to the Director of the Office of Science and Technology 
Policy, Dr. John Marburger, in August 2005.
    In October 2006, CBO concluded a study on the NASA's selection of 
the Ares I and Ares V launch vehicles (``Alternatives for Future U.S. 
Space Launch Capabilities Report''). The CBO report contrasted CBO's 
analysis with the recent NASA ESAS report and resulting implementation 
approach and identified a number of observations, highlighting four 
main points:

        1.  Fewer launches per exploration mission increases overall 
        mission reliability;

        2.  NASA's Shuttle-derived launch vehicle approach is the most 
        economical option when minimizing the number of launches;

        3.  Since CBO cost results are consistent with NASA's ESAS 
        conclusions, and since NASA also based its launch decisions on 
        safety and reliability (not assessed by CBO), NASA's selection 
        of a Shuttle-derived launch vehicle is further validated by the 
        CBO study; and

        4.  The CBO estimates for the NASA-selected launch vehicles are 
        within NASA budget projections.''

    And the most recent report from the GAO in November 2007 (``Agency 
Has Taken Steps toward Making Sound Investment Decisions for Ares I but 
Still Faces Challenging Knowledge Gaps Report'') noted that ``NASA has 
taken steps toward making sound investment decisions for Ares I.'' The 
GAO report also noted that:

         ``Furthermore, NASA's decision to include the J-2X engine and 
        five-segment booster in the Ares I design in order to reduce 
        long-term operations and support cost is in line with the 
        practices of leading commercial developers that give long-term 
        savings priority over short-term gains. The Ares I project was 
        also proactive in ensuring that the ongoing project was in 
        compliance with NASA's new directives, which include elements 
        of a knowledge-based approach. NASA's new acquisition 
        directives require a series of key reviews and decision points 
        between each life cycle phase of the Ares I project that serve 
        as gates through which the project must pass before moving 
        forward . . . We found that the Ares I project had implemented 
        the use of key decision points and adopted the recommended 
        entrance and exit criteria for the December 2006 Systems 
        Requirements Review and the upcoming October 2007 Systems 
        Definition Review.''

Summary

    NASA is designing transportation architecture, not just a point 
solution for access to LEO. In deciding on this architecture, NASA 
considered principal factors such as performance, reliability and 
development and life cycle costs when comparing alternatives. NASA also 
took into consideration the growth path to heavy lift capability which 
results from the choice of a particular launch vehicle family. To grow 
significantly beyond today's EELV family for lunar missions requires 
essentially a ``clean sheet of paper'' design, whereas the Ares V 
design makes extensive use of existing elements, or straightforward 
modifications of existing elements, which are also common to Ares I. 
The Shuttle-derived launch vehicle architecture selected by NASA meets 
all of the goals and objectives to achieve the exploration mission, 
while also:

        <bullet>  Providing the best possibility of meeting stakeholder 
        and customer requirements, including legal mandates, within the 
        funding available and timeframe desired; Providing the safest, 
        most reliable and cost effective launch vehicle for NASA 
        missions;

        <bullet>  Maximizing leverage of existing, human-rated systems 
        and infrastructure;

        <bullet>  Leveraging collaboration between the retiring Shuttle 
        Program and emerging Constellation projects by sharing lessons 
        learned and transitioning valuable resources, ranging from a 
        specialized workforce to a unique launch infrastructure;

        <bullet>  Creating the most straightforward growth path to 
        later Exploration launch needs; and

        <bullet>  Ensuring the industrial base for production of large 
        solid rocket systems, high performance liquid engine systems, 
        large lightweight stages and critical, large scale launch 
        processing infrastructure.

Questions submitted by Representative Tom Feeney

Shuttle Retirement

Q1.  As NASA continues to shut down vital Shuttle suppliers and close 
out contracts, when will we reach ``the point of no return,'' making it 
prohibitively expensive to purchase consumables and spares for future 
flights? How does NASA intend to ensure a sufficient number of spares 
remain available to support Shuttle operations through 2010 and just as 
importantly, that the workforce and industrial base will remain intact 
for the transition to Constellation?

A1. NASA already has contract vehicles in place to ensure that the 
current manifest of Space Shuttle missions is fully supported with all 
required consumables and spares, and the Agency has begun to modify 
contracts to reflect the final orders of Space Shuttle Program 
hardware. Recent examples of this include modifications to the Reusable 
Solid Rocket Motor (RSRM) contract with ATK and the Super Lightweight 
External Tank contract with Lockheed Martin.
    As detailed in the report submitted to the Committee in April 2008 
regarding NASA's initial Workforce Transition Strategy, the Agency 
indicated its greatest management challenge is managing our extremely 
talented, experienced, and geographically dispersed workforce as we 
transition from operating the Space Shuttle to utilizing the 
International Space Station and expanding our reach to the Moon, Mars, 
and beyond. The joint effort between the Space Operations and 
Exploration Systems Mission Directorates includes the utilization and 
disposition of resources, including real and personal property, 
personnel, and processes, to leverage existing Shuttle and Space 
Station assets for future Exploration activities, including the Orion 
Ares I, and Ares V projects. Formalized Transition Boards are working 
to successfully achieve this outcome, and, to date, NASA has met all of 
its milestones and disposition targets. As required by the FY 2008 
Consolidated Appropriations Act (P.L. 110-161), NASA will update the 
Agency's Workforce Transition Strategy report every six months to keep 
the Congress informed of progress on transition activities.

Shuttle Closeout Costs

Q2.  The Space Shuttle budget does not contain any funds for program 
closeout activities after 2010, and represents an as-yet-to-be-
determined threat to the Constellation program, currently estimated at 
about $1.2B. Are there sufficient reserves in the Constellation program 
to handle this? Will these costs generate shortfalls that could affect 
NASA's ability to meet the proposed operational date of March 2015?

A2. The FY 2010 budget formulation will produce the most detailed and 
accurate Transition and Retirement estimate to date, which is expected 
to be less than previous estimates given the increased maturity of 
requirements, more clearly defined process guidelines, and better 
overall understanding of the type and scope of work to be accomplished. 
As part of NASA's FY 2010 budget formulation process, the Constellation 
program will evaluate estimated costs and determine the best strategy 
for budget adoption. Although currently carried as a threat, the 
Constellation program is notionally prepared to accept a threshold cost 
of $450M that will come from program reserves. However, the goal is to 
keep these costs to an absolute minimum. Any costs greater than this 
amount may have an adverse impact on the Orion Crew Exploration Vehicle 
Initial Operational Capability of March 2015.

Shuttle Extension

Q3.  If the Shuttle schedule slips and it becomes necessary or 
desirable to fly the last two contingency Shuttle missions after 2010, 
can NASA estimate the cost of extending the Shuttle program on a 
monthly or quarterly basis? Is there a `point-of-no-return' after which 
is would be too late to attempt, and how would any plan to extend the 
Shuttle program beyond 2010 affect the liens on the Constellation 
program?

A3. NASA cannot continue flying the Space Shuttle past FY 2010 while 
maintaining a balanced overall program of science, exploration, and 
aeronautics and aggressively developing the next-generation exploration 
systems under the Constellation program. There are two main reasons for 
this. First, maintaining even a minimal capability to launch two 
Shuttle flights per year after FY 2010 would require nearly the same 
infrastructure and vendor capabilities we have today, at a cost of 
approximately $2.7-$4.0B per year. Unless an equal amount was added to 
the NASA budget to offset these costs, the funds would have to come at 
the expense of higher priority activities in science, exploration, and 
aeronautics. Second, the Constellation architecture is designed to take 
advantage of Space Shuttle infrastructure, production capabilities, and 
workforce once they are no longer needed for flying the Shuttle. If the 
Shuttle were kept flying past 2010, these capabilities could not be 
released for Constellation's modification and use. As a result, keeping 
Shuttle flying past 2010 would only compound the problem of getting 
Constellation into service and exacerbate the gap in U.S. human space 
flight capabilities. It will also be extremely difficult to keep the 
Shuttle workforce engaged as Shuttle fly out is extended. A very 
dedicated workforce is needed to safely operate this complex machine. 
Ending on a planned date, known well in advance, is much easier for the 
workforce and planning than a floating end date.

Q4.  If Congress directed (and funded) NASA to manifest another mission 
to fly the AMS, does NASA have the necessary parts and equipment 
available? What would be required to put the mission together and what 
are the constraints? What is the cost estimate?

A4. NASA is planning to have enough hardware on hand to maintain a crew 
rescue option, also know as Launch-on-Need (LON), through the last 
planned flight of the manifest, STS-133. In principle, after STS-133 
this hardware could be turned around to fly AMS and additional hardware 
to the ISS. However, there would be considerable, nontrivial costs and 
technical impacts associated with adding such a mission to the end of 
the manifest in either FY 2010 or FY 2011. NASA has estimated that 
doing all the work necessary to add an additional flight to the Space 
Shuttle manifest in FY 2010 would cost approximately $300-$400M. 
Maintaining the capability of launching one to two Shuttle flights per 
year after FY 2010 would cost approximately $2.7-$4.0B per year. The 
later the decision to add a flight is made, the more costs will be 
incurred to re-enable needed capabilities that are planned for phase 
out over the next two years.
    This new mission could be assembled using the hardware now being 
built to support a contingency crew rescue flight for the last mission 
on the current manifest, STS-133. The biggest piece of flight hardware 
production, and the pacing item for flying an additional flight, would 
be completing production of the external tank. If NASA were directed by 
Congress to fly an additional Space Shuttle mission to accommodate AMS, 
we would probably use the external tank (ET-138) that is now assigned 
to the STS-133 crew rescue mission. In that case, NASA would be 
required to complete the partially-built ET-139 (which right now is 
only being built up to the sub-assembly level to maintain critical 
workforce skills) to serve as the crew rescue tank for the new AMS 
mission.
    If AMS could be flown before the end of FY 2010, most of the 
contracts, sub-contracts, vendors, and workforce would still be in 
place to safely fly the mission. However, much work would need to be 
done to enable an additional flight in FY 2010, and it remains to be 
seen whether a flight could be safely added before the end of that 
fiscal year. This rough estimate of $300-$400M includes anticipated 
costs of procuring flight hardware, maintaining launch and landing 
personnel at Kennedy Space Center, and retaining other critical 
sustaining engineering and processing personnel through the end of FY 
2010. NASA's $2.7-$4.0B estimate to maintain the capability of flying 
past FY 2010 is based on the level of effort required to maintain the 
contracts, workforce, and infrastructure needed to support safely 
flying the Space Shuttle system at a sustained but reduced flight rate. 
In addition, delaying the retirement of the Space Shuttle and the 
subsequent refocusing of Shuttle workforce, facilities, and resources 
on the Constellation Program would negatively impact the development 
and schedules of the Orion Crew Exploration Vehicle and the Ares family 
of launchers.

Medium Lift Launchers

Q5.  Many of NASA's science missions have been launched on the Boeing 
Delta II, arguably one of the most reliable launch vehicles ever built.

Q5a.  What is the current status of the Delta II system?

A5a. Delta II production has ceased, but it remains an operational 
program and NASA has missions flying on the launch vehicle into 2011. 
United Launch Alliance (ULA) has enough parts to build several more 
vehicles. NASA will consider using those vehicles should missions arise 
needing that class of vehicle. Some of the major components are out of 
production, which would need to be re-started to produce vehicles 
beyond those in inventory.

Q5b.  Are there any options in which Delta II production could 
continue, and if so, will it come at a price that NASA can afford?

A5b. Delta II production could be re-started, but the cost is much too 
large for NASA to pay for. In addition to the cost of re-starting 
production, there is also the cost of vehicle infrastructure that needs 
to be considered. NASA is unable to afford those costs by itself, 
either. The two-pad configuration at Cape Canaveral Air Force Station 
(CCAFS), 17A and 17B, will likely be reduced to one pad in 2009 or 
2010.

Q5c.  Other than the Orbital Sciences latest COTS award for a potential 
Taurus II, what steps is NASA taking to ensure continued access to an 
affordable, reliable medium-lift launcher?

A5c. Taurus II is being considered as an option for future medium-lift 
missions. ATK/Planet Space are considering re-starting the Athena 
product line to include an Athena III medium-class launch vehicle. 
SpaceX's Falcon 9 launch vehicle is another possibility, and the 
development of that vehicle is well underway. NASA has been asked by 
Orbital and ATK to participate in both companies' engineering 
development processes. Unfunded Space Act Agreements are being 
developed currently to support those efforts.
    NASA is considering buying future launch services in all classes in 
blocks--buying a group of services instead of purchasing them one at a 
time. This is desirable to the extent that it generates efficiencies 
for production by the manufacturers or is advantageous to the 
government. Manufacturers are able to buy their hardware in quantity, 
which reduces costs. Delta II launchers have been purchased in this 
manner. NASA has had a good experience purchasing services in this 
manner, and it appears to make sense for the future. Internally, work 
continues on fine-tuning the manifest between 2011 and 2015 to see what 
the missions in each class, small, medium and large, are likely to be.
    In April, NASA released a Request for Information to gather 
information on the small- and medium-class mission set from potential 
launch service providers.

Constellation

Q6.  Based on experience to date with the Orion and Ares programs, what 
do you consider the three highest risks, and what steps are being taken 
to address them?

A6. A context on ``risk'' is required to answer this question. The 
current development projects within Constellation are not the leap 
forward in technology that previous efforts, such as X-33, were. This 
increases NASA confidence in them. In addition, the Constellation 
Program utilizes an active risk management approach, which involves 
regularly identifying, evaluating, and retiring the risks, which are 
affecting the program. Although NASA has many challenges, we are on 
track and making progress in managing these challenges. The greatest 
challenge NASA faces is flying the Space Shuttle to complete assembly 
of the ISS prior to retiring the Shuttle in 2010, while also bringing 
the new U.S. human space flight capabilities on-line soon thereafter. 
Stable funding for Constellation is needed to assure a timely 
transition between Shuttle and the Orion and Ares I as well as proper 
management of funding reserves.
    One of the top Constellation Program technical risks is the 
development of the Ares I upper stage engine, J2X. Currently, the J2X 
is one of the critical path items within the Program. In an effort to 
retire the development risk of the J2X, the Program has decided to add 
resources to the development to make it more robust. This change 
incorporates additional testing hardware and tests to increase the 
confidence of success. This enhancement also includes early activation 
of the alternate test stand, additional tests, and additional engines 
for testing.
    Another technical risk within the Constellation Program is the Ares 
Thrust Oscillation induced by the internal configuration of the 
reusable solid rocket motor. During design analysis, it was observed 
that there is a possibility that the thrust oscillation could cause 
unacceptable structural vibration. A ``tiger team'' was created to 
further study the potential issue and to develop mitigation strategies. 
Mitigation options identified to date could include stiffness and 
dampening design changes to the Ares I first stage, Interstage, LOX and 
LH2 Tank Barrel and Instrument Unit structures. The problem is actively 
being worked and on a path to implement a ``solution'' this summer.

Aeronautics

Q7.  Two years ago, when NASA began reshaping the Aeronautics Research 
Mission Directorate, the Federal Aviation Administration (FAA) 
expressed concern about its inability to take new--but relatively 
immature--technologies developed by NASA and transition them to the 
NextGen program. Have NASA and FAA come to any agreement with respect 
to transitioning research, especially the level of technical readiness?

A7. NASA Aeronautics, the FAA Air Traffic Organization (ATO), and the 
JPDO are working collaboratively to establish a process to transfer 
technologies from fundamental research and development (R&D) into 
implementation for the NextGen. This process, which ensures research is 
sufficient and appropriate to enable NextGen, has top-level commitment 
from Dr. Jaiwon Shin, NASA Associate Administrator for Aeronautics and 
Ms. Victoria Cox, FAA Vice President for Operations Planning Services, 
Air Traffic Organization. A coordinating committee that includes both 
FAA and NASA representatives oversees four initial research transition 
teams that are organized around the NextGen Concept of Operations 
framework. This framework connects the FAA's Operational Evolution 
Partnership elements with the NASA research. The JPDO has an important 
role in the transfer in that they will inform the Integrated Work Plan 
with progress. The teams are working to plan near-term R&D transition 
in areas such as surface management and long-term transition in areas 
such as dynamic airspace allocation. With regards to an initial 
collaborative Research Transition Team activity, more than 35 
participants from FAA service units, NASA, MITRE/CAASD, and industry 
attended a workshop in Washington, DC, in February 2008, to focus on 
integration of NASA and FAA research plans, schedules, roadmaps, and 
coordinated simulations for near term NextGen Trajectory Management 
objectives.

Budget Accounts

Q8.  Please describe the efforts NASA has underway and planned to 
implement the new account structure directed by the FY 2008 
Appropriations Omnibus legislation.

A8. NASA is undertaking all activities required for implementing a new 
appropriations account structure as directed. NASA has so far 
accomplished the following:

        <bullet>  Modified the Agency budget systems to implement the 
        new appropriations account structure;

        <bullet>  established new Treasury accounts to implement the 
        directed change in appropriations account structure;

        <bullet>  developed all required materials for the President's 
        budget systems and documentation that enabled submission of the 
        President's FY 2009 budget request for NASA in compliance with 
        the new appropriations account structure;

        <bullet>  developed and submitted to Congress a NASA FY 2009 
        Congressional justification that complies with the new 
        appropriations account structure;

        <bullet>  identified software, procedure, and report 
        modifications that are required for NASA's core financial 
        systems to comply with the new appropriations accounts;

        <bullet>  tested the interface between the Meta Data Manager 
        that defines the Agency account, program and project structure 
        and the financial system with no identified issues;

        <bullet>  completed unit testing of the financial system, 
        transferring budget in the new structure through the Agency to 
        the Centers and the projects with no identified issues; and

        <bullet>  initiated the first of three rounds of system 
        integration testing (SIT) on July 1. This will test the ability 
        of the system to appropriately manage funds through commitment, 
        obligation, costing and disbursement, as well as accounts 
        payable and receivable.

    The remaining required activities are as follows:

        <bullet>  September 2008--complete system integration testing 
        phase; and,

        <bullet>  October 2008--release new system upgrade and 
        associated policies and procedures.

Question submitted by Representative Dana Rohrabacher

Landsat Data Continuity Mission (LDCM)

Q1.  The configuration of the Landsat Data Continuity Mission (LDCM), 
the follow-on to Landsat to be launched in 2011, currently omits the 
thermal infrared (TIR) imagery capability found on Landsat-7 and on 
Landsat-5. This capability is of great interest to a wide range of 
Landsat users, particularly those concerned with managing water 
resources over the Western region of the US. The only generally 
equivalent alternative TIR capability currently resides on the Terra 
satellite. However, that satellite supports a mission with significant 
differences and priorities from Landsat and cannot effectively provide 
the flexibility nor the historical continuity a LDCR TIR sensor would 
offer. Furthermore, Landsats 5 & 7, and Terra have exceeded their 
design lives.

     Thus, what is the likelihood NASA will incorporate a Landsat-
equivalent TIR (e.g., a passively cooled microbolometer) onto the LDCM 
or onto a similar spacecraft to be operational in the 2011 timeframe?

A1. Launch of a thermal infrared imaging capability in 2011 is 
unlikely. Currently, NASA does not have the funding for a thermal 
imager, nor was a requirement for thermal imaging included in concept 
development for the LDCM, though accommodations for a thermal-type 
instrument have been included in the LDCM spacecraft contract. Recent 
heightened interest in thermal data has led NASA to explore options for 
thermal infrared imaging, and this work is ongoing. Approaches to a 
thermal imaging capability are being considered, and will be outlined 
in the report submitted to Congress regarding LDCM data continuity as 
requested in the Explanatory Statement accompanying the FY 2008 
Consolidated Omnibus Appropriations Act (P.L. 110-161). NASA 
anticipates submitting this report to the Subcommittee in the July 
timeframe. In early/mid CY 2009, LDCM will complete a Mission 
Confirmation Review and consistent with NASA management policies for 
space flight missions, a firm cost and schedule commitment will be made 
following that review. Once confirmation is complete, it is likely that 
the launch date for LDCM, as currently defined, will move beyond the 
2011 date identified in the early concept phase and listed in the FY 
2009 budget request.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      NASA Material for the Record

March 2008

   Assessment of Chinese Capabilities to Mount a Human Lunar Mission

    Chinese space officials have openly discussed plans to conduct 
space walking demonstrations next year, orbital rendezvous and docking 
operations by 2010, and a robotic lunar landing mission by 2012. Based 
upon a careful review of open source information concerning the 
capabilities of the Shenzhou crew vehicle and the planned Long March 5 
rocket, it is my considered judgment that, although China's public 
plans do not include a human lunar landing, China will have the 
technical wherewithal to conduct a manned mission to the surface of the 
Moon before the United States plans to return.
    While initial Chinese mission(s) to the Moon would not have the 
long-term sustainability of our own plans for lunar return, I believe 
China could be on the Moon before the United States can return.
    China is prosecuting a fully indigenous program of human space 
flight development. They have adapted the design of the Russian Soyuz 
vehicle to create their own Shenzhou, which is more spacious, more 
capable, and better suited for long duration space missions than its 
Russian antecedent. China plans to conduct its first space walks and 
orbital rendezvous operations in 2008 and 2010, and to build a small 
space station in the next few years. All of this has been openly 
announced. Their accomplishments so far give me no cause to doubt their 
ability to carry out these plans.
    With the first manned Shenzhou flight in October 2003 China 
surpassed by itself the accomplishments of all six U.S. Mercury 
missions in the early 1960s. The second Shenzhou flight in 2005 
demonstrated most of the accomplishments of the first three U.S. Gemini 
missions in 1965. They will soon demonstrate the rendezvous and docking 
capabilities pioneered by the U.S. in the Gemini program in 1966, by 
docking a Shenzhou spacecraft with another Shenzhou, or with an orbital 
module left by a prior mission.
    These examples illustrate a fundamental difference between the 
development of the Chinese human space flight program, and that of the 
U.S. and Russia. Because China can follow established technical paths, 
they do not have to verify the basic feasibility of their approach. 
They need only to demonstrate that their systems work as designed to 
accomplish tasks which are by now well understood. Thus, each step in 
space can take them to a new capability plateau, eclipsing the 
equivalent of several pioneering but tentative steps in an earlier era. 
The United States required twenty-one human space flights to reach the 
Moon in the 1960s. China should not need so many.
    The second major initiative for which the Chinese have demonstrated 
significant progress is the development of the Long March 5 launch 
vehicle. They have conducted several rocket engine tests over the past 
two years, and plan to conduct demonstration flights in 2008-11. The 
Chinese have advertised its capability as 25 metric tons (mT) to low 
Earth orbit (LEO), rivaling or surpassing the largest expendable launch 
vehicles available today, which have a capacity of approximately 20 mT, 
or slightly greater. I believe that China's concerted, methodical 
approach to the Long March 5 development, along with recent 
construction of a new launch facility on Hainan Island, puts them on 
track to bring the Long March 5 online by 2013-14, their stated 
intention. NASA's Ares I rocket, which will have similar capabilities, 
will not be fully functional until March 2015, according to current 
plans.
    Third, China has developed and demonstrated a dual launch 
processing capability. This capability, together with the 25 mT-to-LEO 
capacity of the Long March 5, allows China to reach the ``tipping 
point'' critical to executing a manned mission to the Earth's Moon. As 
one possible approach, this can be done by means of two dual-launch 
sequences.
    The first Long March 5 would place, in Earth orbit, a lunar lander 
similar in size and mass to the Apollo Lunar Module, about 14 mT, 
together with a lunar orbit injection (LOI) stage weighing 6 mT. With a 
second Long March 5 launch, the lander and LOI stage would be joined in 
Earth orbit by a 25 mT Trans-Lunar Injection (TLI) stage. The two 
payloads would rendezvous and dock automatically, as the Russian Soyuz 
and Progress vehicles do at the International Space Station today. 
After docking, the TLI stage would send the combined payload to the 
Moon. Injection into lunar orbit would be accomplished by the LOI 
stage, leaving the lander poised to wait for a few weeks--or even 
months if necessary--for the second launch sequence.
    The second pair of Long March 5 launches would place in Earth orbit 
a crewed Shenzhou vehicle and LOI stage with one launch, and a TLI 
stage with the other. As in the earlier sequence, the Shenzhou would 
rendezvous and dock with the TLI stage, which would send the combined 
stack to the Moon. The LOI stage would decelerate the Shenzhou into 
lunar orbit, where it would then dock with the waiting lander. The 
Shenzhou would differ from today's Earth-orbital version in two 
respects. It would require larger propellant tanks to allow it to 
depart lunar orbit for the return to Earth, and it might require a 
thicker heat shield to withstand atmospheric entry upon return from the 
Moon. Neither of these modifications presents a significant challenge. 
The lunar version of Shenzhou would weigh about 11 mT, considerably 
less than the 14 mT lunar lander, so the delivery of a lunar-capable 
Shenzhou to lunar orbit presents no difficulty.
    After rendezvous, the Shenzhou crew would transfer to the lander, 
land on the Moon's surface, remain for several days, depart, rendezvous 
again with the Shenzhou, and return to Earth. (Parameters and 
assumptions for this scenario are summarized in the attached Technical 
Notes.)
    What is fundamentally different about the dual-launch capability 
that the Chinese have demonstrated, and could well develop for the Long 
March 5, is that it enables human lunar missions without requiring a 
120 mT class vehicle like the Apollo-era Saturn V, or our planned 
Shuttle-derived Ares V. This technique is not particularly cost-
effective and is not easily scaled to a sustainable operation, but it 
does offer a path to ``boots on the Moon'' without the development of a 
heavy-lift launch vehicle.
    Apart from the lunar lander itself, this approach requires for its 
implementation only modest developments beyond the existing Shenzhou 
and the Long March 5 vehicles. The new elements for a lunar mission are 
the TLI and LOI stages, which would be essentially the same aside from 
the size of the propellant tanks employed, and which would utilize the 
upper-stage engines from the Long March 5, with modest improvements. 
This is a minor developmental excursion from Long March 5 technology.
    China has not announced any intention to develop a human lunar 
lander. However, I note that China recently launched its first robotic 
lunar orbiter mission, and has announced plans for a robotic lander by 
2012 and a robotic sample return mission in the 2017-2020 timeframe. 
The developments in communications, tracking, guidance, navigation, and 
control required to execute robotic lunar orbital and lander missions 
are identical to those for a manned system, irrespective of whether or 
not the lander itself is scalable to human missions. Inasmuch as the 
design parameters of the Apollo lunar lander are widely known and well 
within today's state-of-the-art, the development of a similar vehicle 
by the Chinese should not present a significant problem.
    Pending development of a Chinese manned lunar lander, a fly-by or 
orbital mission around the Moon could easily be executed with the 
Shenzhou spacecraft and a single pair of Long March 5 launches, as 
outlined above. Indeed, as a matter of prudent engineering development, 
I would fully expect China to execute such a mission prior to a lunar 
landing. This would be completely analogous to the inspirational Apollo 
8 mission during the Christmas season of 1968.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
